 U.S. DEPARTMENT OF JUSTICE

ANNUAL FINANCIAL STATEMENTS

      FISCAL YEAR 2012

        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 13-01

            December 2012

 
              U.S. DEPARTMENT OF JUSTICE

             ANNUAL FINANCIAL STATEMENTS 

                    FISCAL YEAR 2012


              OFFICE OF THE INSPECTOR GENERAL 

                 COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
U.S. Department of Justice (Department) for the fiscal years (FY) ended
September 30, 2012, and September 30, 2011. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the
Department’s audit in accordance with auditing standards generally accepted
in the United States of America. The audit resulted in an unqualified opinion
on the FY 2012 financial statements. An unqualified opinion means that the
financial statements present fairly, in all material respects, the financial
position and the results of the entity’s operations in conformity with
U.S. generally accepted accounting principles. For FY 2011, the Department
also received an unqualified opinion on its financial statements (OIG Report
No. 12-03).

      KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. For FY 2012, the auditors
did not identify any significant deficiencies in the Independent Auditors’
Report on Internal Control over Financial Reporting. Although progress
continues to be made, it is important to note that the Department still does
not have a unified financial management system to readily support ongoing
accounting operations and preparation of financial statements. As discussed
in past years, we believe the most important challenge facing the
Department in its financial management is to successfully implement an
integrated financial management system to replace the disparate and, in
some cases, antiquated financial systems used by Department components.

      No instances of non-compliance or other matters that are required to
be reported under Government Auditing Standards were identified during the
audit in the FY 2012 Independent Auditors’ Report on Compliance and Other
Matters. Additionally, KPMG LLP’s tests disclosed no instances in which the
Department’s financial management systems did not substantially comply
with the Federal Financial Management Improvement Act of 1996.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with Government Auditing




                                    -i-
Standards, was not intended to enable us to express, and we do not
express, an opinion on the Department’s financial statements, conclusions
about the effectiveness of internal control, conclusions on whether the
Department’s financial management systems substantially complied with the
Federal Financial Management Improvement Act of 1996, or conclusions on
compliance with laws and regulations and other matters. KPMG LLP is
responsible for the attached auditors’ reports dated November 9, 2012, and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with
auditing standards generally accepted in the United States of America.




                                   - ii -
                  U.S. DEPARTMENT OF JUSTICE 

                 ANNUAL FINANCIAL STATEMENTS

                        FISCAL YEAR 2012 


                          TABLE OF CONTENTS

                                                                             PAGE 


MANAGEMENT'S DISCUSSION AND ANALYSIS ......................................... 1 


INDEPENDENT AUDITORS’ REPORTS 


  REPORT ON FINANCIAL STATEMENTS ............................................... 31 


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING ........... 35 


  REPORT ON COMPLIANCE AND OTHER MATTERS................................ 37 


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES 


  CONSOLIDATED BALANCE SHEETS................................................... 40 


  CONSOLIDATED STATEMENTS OF NET COST ..................................... 41 


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ............ 42 


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ....................... 44 


  COMBINED STATEMENTS OF CUSTODIAL ACTIVITY ............................ 45 


  NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS .......................... 46 


CONSOLIDATING AND COMBINING FINANCIAL STATEMENTS .................. 91 


REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION 


  CONSOLIDATED STEWARDSHIP INVESTMENTS.................................107 


OTHER ACCOMPANYING INFORMATION 


  COMBINED SCHEDULE OF SPENDING ..............................................111 

This page intentionally left blank. 

Management’s Discussion and Analysis


              Unaudited





              -1-
This page intentionally left blank. 





                -2-
                         Management’s Discussion and Analysis
                                     (Unaudited)

Established July 1, 1870 (28 U.S.C. § 501 and 503), the Department of Justice (DOJ or the Department) is
headed by the Attorney General of the United States. The Department was created to control federal law
enforcement, and all criminal prosecutions and civil suits in which the United States has an interest. The
structure of the Department has changed over the years, with the addition of a Deputy Attorney General,
Associate Attorney General, Assistant Attorneys General, and the formation of Divisions and components;
however, unchanged is the commitment and response to securing equal justice for all, enhancing respect for
the rule of law, and making America a safer and more secure Nation.

                                                  Mission 

The mission of the Department of Justice, as reflected in its new Strategic Plan for fiscal years (FY) 2012-
2016, is as follows:

        To enforce the law and defend the interests of the United States according to the law, to
        ensure public safety against threats foreign and domestic, to provide federal leadership in
        preventing and controlling crime, to seek just punishment for those guilty of unlawful
        behavior, and to ensure fair and impartial administration of justice for all Americans.

In carrying out the Department’s mission, we are guided by the following core values:

   Equal Justice Under the Law. Upholding the laws of the United States is the solemn responsibility
   entrusted to us by the American people. We enforce these laws fairly and uniformly to ensure that all
   Americans receive equal protection and justice under the law.

   Honesty and Integrity. We adhere to the highest standards of ethical behavior.

   Commitment to Excellence. We seek to provide the highest levels of service to the American people.
   We are effective and responsible stewards of the taxpayers’ dollars.

   Respect for the Worth and Dignity of Each Human Being. We treat each other and those we serve
   with fairness, dignity, and compassion. We value differences in people and ideas. We are committed to
   the well-being of our employees and to providing opportunities for individual growth and development.



                                   Strategic Goals and Objectives 

From our mission and core values stem the Department’s strategic and annual planning processes. The
Department embraces the concepts of performance-based management. At the heart of these concepts is the
understanding that improved performance is realized through greater focus on mission, agreement on goals
and objectives, and timely reporting of results. In the Department, strategic planning is the first step in an
iterative planning and implementation cycle. This cycle, which is the center of the Department’s efforts to
implement performance-based management, involves setting long-term goals and objectives, translating these
goals and objectives into budgets and program plans, implementing programs, monitoring performance, and




                                                  -3-
evaluating results. In this cycle, the Department’s Strategic Plan provides the overarching framework for
component and function-specific plans as well as annual performance plans, budgets, and reports.
The Strategic Plan is available electronically on the Department’s website at: http://www.justice.gov.

The table below provides an overview of the Department’s strategic goals and objectives.

Strategic Goal                                    Strategic Objectives 
I     Prevent Terrorism and Promote the           1.1 Prevent, disrupt, and defeat terrorist operations before they occur
      Nation’s Security Consistent with the
      Rule of Law                                 1.2 Prosecute those involved in terrorists acts

                                                  1.3 Combat espionage against the United States
II    Prevent Crime, Protect the Rights of the    2.1 Combat the threat, incidence, and prevalence of violent crime
      American People, and Enforce Federal
      Law                                         2.2 Prevent and intervene in crimes against vulnerable populations;
                                                  uphold the rights of, and improve services to, America’s crime victims

                                                  2.3 Combat the threat, trafficking, and use of illegal drugs and the
                                                  diversion of licit drugs

                                                  2.4 Combat corruption, economic crimes, and international organized
                                                  crime

                                                  2.5 Promote and protect Americans’ civil rights

                                                  2.6 Protect the federal fisc and defend the interests of the United
                                                  States
III   Ensure and Support the Fair, Impartial,     3.1 Promote and strengthen relationships and strategies for the
      Efficient, and Transparent Administration   administration of justice with state, local, tribal, and international law
      of Justice at the Federal, State, Local,    enforcement
      Tribal, and International Levels
                                                  3.2 Protect judges, witnesses, and other participants in federal
                                                  proceedings; apprehend fugitives; and ensure the appearance of
                                                  criminal defendants for judicial proceedings or confinement

                                                  3.3 Provide for the safe, secure, humane, and cost-effective
                                                  confinement of detainees awaiting trial and/or sentencing, and those in
                                                  the custody of the federal prison system

                                                  3.4 Adjudicate all immigration cases promptly and impartially in
                                                  accordance with due process




                                        Organizational Structure 

Led by the Attorney General, the Department is comprised of more than forty separate component
organizations. These include the U.S. Attorneys (USAs) who prosecute offenders and represent the United
States government in court; the major investigative agencies – the Federal Bureau of Investigation (FBI), the
Drug Enforcement Administration (DEA), and the Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF), which deter and investigate crimes and arrest criminal suspects; the U.S. Marshals Service (USMS),
which protects the federal judiciary, apprehends fugitives, and detains persons in federal custody; the Bureau
of Prisons (BOP), which confines convicted offenders; and the National Security Division (NSD), which
brings together national security, counterterrorism, counterintelligence, and foreign intelligence surveillance
operations under a single authority.




                                                            -4-
The Department’s litigating divisions represent the rights and interests of the American people and enforce
federal criminal and civil laws. The litigating divisions are comprised of the Antitrust (ATR), Civil (CIV),
Civil Rights (CRT), Criminal (CRM), Environment and Natural Resources (ENRD), and Tax (TAX)
Divisions. The Office of Justice Programs (OJP), the Office on Violence Against Women (OVW), and the
Office of Community Oriented Policing Services (COPS) provide leadership and assistance to state, local, and
tribal governments. Other major Departmental components include the Executive Office for U.S. Trustees
(UST), the Office of the Federal Detention Trustee (OFDT), the Justice Management Division (JMD), the
Executive Office for Immigration Review (EOIR), the Community Relations Service (CRS), the Office of the
Inspector General (OIG), and several offices that advise the Attorney General on policy, law, legislation, tribal
justice matters, external affairs, and oversight. Headquartered in Washington, D.C., the Department conducts
its work in offices located throughout the country and overseas.




                                                   -5-
                                         Financial Structure 

The Department’s financial reporting structure is comprised of nine principal components.

Components: 

   Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF) 

   Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) 

   Bureau of Prisons (BOP) 

   Drug Enforcement Administration (DEA) 

   Federal Bureau of Investigation (FBI) 

   Federal Prison Industries, Inc. (FPI) 

   Office of Justice Programs (OJP)

   Offices, Boards and Divisions (OBDs) * 

   U.S. Marshals Service (USMS) 


OBDs*:
   Offices                                                    Boards
   Office of the Attorney General                             Foreign Claims Settlement Commission
   Office of the Deputy Attorney General                      U.S. Parole Commission
   Office of the Associate Attorney General
   Community Relations Service                                Divisions
   Executive Office for Immigration Review                    Antitrust Division
   Executive Office for U.S. Attorneys                        Civil Division
   Executive Office for U.S. Trustees                         Civil Rights Division
   Executive Office for Organized Crime Drug                  Criminal Division
      Enforcement Task Forces                                 Environment and Natural Resources Division
   Office of Community Oriented Policing Services             Justice Management Division
   Office of Information Policy                               National Security Division
   Office of Legal Counsel                                    Tax Division
   Office of Legal Policy
   Office of Legislative Affairs
   Office of Professional Responsibility
   Office of Public Affairs
   Office of the Federal Detention Trustee
   Office of the Inspector General
   Office of the Pardon Attorney
   Office of the Solicitor General
   Office of Tribal Justice
   Office on Violence Against Women
   Professional Responsibility Advisory Office
   U.S. Attorneys

   INTERPOL Washington 





                                                      -6-
                                                FY 2012 Resource Information 

The following pages provide summary-level resource and performance information regarding the
Department’s operations for FY 2012. The charts on this page reflect employees on board as of
September 22, 2012.




  *“Other” includes pay class categories such as general administrative, clerical, analyst, information technology specialist, security specialist, and
  legal services.




                                                                       -7-
                                                Table 1. Sources of DOJ Resources
                                                              (Dollars in Thousands)

                                                                                         
                                Source                                              FY 2012                    FY 2011           % Change 
Earned Revenue:                                                                      $3,115,804                  $3,331,777            -6.5%
Budgetary Financing Sources:
  Appropriations Received                                                            27,693,689                  27,479,834             0.8%
  Appropriations Transferred-In/Out                                                     330,471                     400,839           -17.6%
  Nonexchange Revenues                                                                2,803,960                   2,004,395            39.9%
  Donations and Forfeitures of Cash and Cash
    Equivalents                                                                        4,194,465                   1,580,584         165.4%
  Transfers-In/Out Without Reimbursement                                                 109,395                     113,735          -3.8%
  Other Adjustments                                                                    (192,761)                   (132,256)         -45.7%
Other Financing Sources:
  Donations and Forfeitures of Property                                                  120,275                      157,607         -23.7%
  Transfers-In/Out Without Reimbursement                                                 (12,623)                      44,556        -128.3%
  Imputed Financing from Costs Absorbed by
    Others                                                                                878,014                     998,485         -12.1%
  Other Financing Sources                                                                  (5,199)                     (4,613)        -12.7%
                                           Total DOJ Resources                     $39,035,490                  $35,974,943            8.5%


                                           Table 2. How DOJ Resources Were Spent
                                                               (Dollars in Thousands)


                                                                                                                      
                          Strategic Goal (SG)                                          FY 2012                   FY 2011         % Change 
              Prevent Terrorism and Promote the Nation’s
      I
              Security Consistent with the Rule of Law
                                                  Gross Cost                            $5,727,278                 $5,626,149
                                      Less: Earned Revenue                                 470,233                    470,783
                                                     Net Cost                            5,257,045                  5,155,366         2.0%
              Prevent Crime, Protect the Rights of the
     II
              American People, and Enforce Federal Law
                                                  Gross Cost                            20,059,682                 14,666,708
                                      Less: Earned Revenue                               1,115,263                  1,055,269
                                                     Net Cost                           18,944,419                 13,611,439        39.2%
              Ensure and Support the Fair, Impartial,
              Efficient, and Transparent Administration of
     III
              Justice at the Federal, State, Local, Tribal,
              and International Levels
                                                  Gross Cost                            15,523,414                 15,674,026
                                      Less: Earned Revenue                               1,530,308                  1,805,725
                                                     Net Cost                           13,993,106                 13,868,301         0.9%

                                               Total Gross Cost                        41,310,374                 35,966,883
                                    Less: Total Earned Revenue                          3,115,804                  3,331,777
                                    Total Net Cost of Operations                      $38,194,570                $32,635,106         17.0%
Note: FY 2011 net cost has been reclassified in the current year to align with the Department’s FY 2012-2016 Strategic Plan.




                                                                             -8-
-9-
                                  Analysis of Financial Statements 

The Department’s financial statements, which are provided in Section III of this document, received an
unqualified audit opinion for the fiscal years ended September 30, 2012 and 2011. These statements were
prepared from the accounting records of the Department in conformity with the accounting principles
generally accepted in the United States and Office of Management and Budget (OMB) Circular A-136,
Financial Reporting Requirements. These principles are the standards promulgated by the Federal Accounting
Standards Advisory Board (FASAB).

The following information highlights the Department’s financial position and results of operations in FY 2012.
The complete set of financial statements, related notes, and the opinion of the Department’s auditors are
provided in Section III of this document.

Assets: The Department’s Consolidated Balance Sheet as of September 30, 2012, shows $43.2 billion in
total assets, an increase of $398 million over the previous year’s total assets of $42.8 billion. Fund Balance
with U.S. Treasury (FBWT) was $24.7 billion, which represented 57 percent of total assets.

Liabilities: Total Department liabilities were $15.9 billion as of September 30, 2012, an increase of
$2.7 billion from the previous year’s total liabilities of $13.3 billion. This increase is primarily due to the
reactivation of the September 11th Victim Compensation Fund of 2001 and the recognition of related unfunded
liabilities.

Net Cost of Operations: The Consolidated Statement of Net Cost presents the Department’s gross and net
cost by strategic goal. The net cost of the Department’s operations totaled $38.2 billion for the year ended
September 30, 2012, an increase of $5.6 billion (17 percent) from the previous year’s net cost of operations of
$32.6 billion. This increase is partially due to the recognition of unfunded expenses related to the reactivation
of the September 11th Victim Compensation Fund of 2001.

Brief descriptions of some of the major costs for each Strategic Goal are as follows:

              Strategic 
                                                  Description of Major Costs 
                Goal 
                   I        Includes resources dedicated to counterterrorism initiatives for ATF, CRM,
                            DEA, FBI, NSD, USAs, and USMS

                  II        Includes resources for the AFF, ATF, BOP, COPS, CRS, DEA, FBI, Foreign
                            Claims Settlement Commission (FCSC), Organized Crime Drug Enforcement
                            Task Force (OCDETF), OJP, Office of Legal Counsel, Office of the Pardon
                            Attorney (OPA), Office of the Solicitor General (OSG), OVW, USAs, USMS,
                            INTERPOL Washington, UST, ATR, CIV, CRT, CRM, ENRD,TAX and
                            services to America’s crime victims

                  III       Includes resources for BOP, EOIR, Fees and Expenses of Witnesses, FPI,
                            OJP, Justice Prisoner Alien Transportation System, USMS, and U.S. Parole
                            Commission




                                                         - 10 -
Management and administrative costs, including the costs for the Department’s leadership offices, JMD,
Wireless Management Office, and others, are allocated to each strategic goal based on full-time equivalent
(FTE) employment.1

Budgetary Resources: The Department’s FY 2012 Combined Statement of Budgetary Resources shows
$45.3 billion in total budgetary resources, an increase of $2.9 billion from the previous year’s total budgetary
resources of $42.4 billion. This increase is primarily related to deposits from the settlement of large cases.

Net Outlays: The Department’s FY 2012 Combined Statement of Budgetary Resources shows $31.6 billion
in net outlays, an increase of $669 million from the previous year’s total net outlays of $30.9 billion.



                                                  Data Reliability and Validity 

The Department views data reliability and validity as critically important in the planning and assessment of its
performance. As such, the Department makes every effort to ensure completeness and improve reliability of
its performance information by performing “data scrubs” (routine examination of current and historical data
sets, as well as looking toward the future for trends) to ensure the data we rely on to make day-to-day
management decisions are as accurate and reliable as possible and targets are ambitious enough given the
resources provided. In an effort to communicate our data limitations and commitment to providing accurate
data, this document includes a discussion of data validation, verification, and any identified data limitations for
each performance measure presented. The Department ensures each reporting component providing data for
this report meets the following criteria:

           At a minimum, performance data are considered reliable if transactions and other data that
           support reported performance measures are properly recorded, processed, and summarized to
           permit the preparation of performance information in accordance with criteria stated by
           management. Performance data need not be perfect to be reliable, particularly if the cost and
           effort to secure the best performance data possible will exceed the value of any data so
           obtained.




1
 FTE employment means the total number of regular straight-time hours (i.e., not including overtime or holiday hours) worked by employees, divided by the
number of compensable hours applicable to each fiscal year. Annual leave, sick leave, compensatory time off, and other approved leave categories are
considered "hours worked" for purposes of defining FTE employment.




                                                                    - 11 -
                              Analysis of Performance Information 

The Government Performance and Results Act (GPRA) requires an agency’s Strategic Plan to be updated
every four years and cover a period of not less than four years forward from the fiscal year in which it is
submitted.

The Department’s new FY 2012-2016 Strategic Plan, which contains three strategic goals, is used for this
report. The Department’s Plan also includes 12 key performance measures addressing DOJ’s highest priorities
toward achieving its long-term outcome goals. The performance measures are included in the Department’s
annual Budget and Performance Summary and reported in this document. The Department’s full Performance
Report for these measures, including an update on our progress toward meeting the FY 2016 long-term
outcome goals, is included in Section II of this document. The Department strives to present the highest-level
outcome-oriented measures available and fully report the accomplishments achieved during the reporting
period. However, data for the 12 key measures are compiled 30 days after the end of the fiscal year and,
occasionally, data for the entire year are not available at the time of publication.

During FY 2012, Departmental leadership continued to display a clear commitment to performance
management through the reliance on formal quarterly status reviews. Additionally, Departmental components
have worked to improve the quality and timeliness of financial and performance information that inform
quarterly status reporting and operating plans.

For this report, 100 percent of the performance measures have actual data for FY 2012. The Department
achieved 58 percent of its key measures in FY 2012. In certain cases, FY 2012 data have yet to be finalized
and could change the final outcome. The Department continues to emphasize long-term and annual
performance measure development, placement of key performance indicators on cascading employee work
plans, and Department-wide quarterly status reporting.

In FY 2012, the Department successfully developed and implemented a new web-based performance
management system. The Department will continue to examine its performance management system and
implement improvements, where necessary. Additional improvement areas include developing trend reports,
continuing to improve the quality and utility of performance information and continuing to work with OMB
and other federal agencies to develop mechanisms to target and measure efficiency of law enforcement and
regulatory programs.

In addition to monitoring its annual progress, the Department continues to monitor progress made toward
achieving its FY 2016 long-term outcome goals for each of the 12 key performance measures. As of the close
of FY 2012, 11 of 12 of the Department’s long-term key measures are on-track for full achievement against its
FY 2016 long-term outcome goals (targets). Four full years of performance remain until the Department
reports against planned progress, and a number of mechanisms are in place to ensure that the current progress
is maintained, including quarterly status reporting and performance-informed budget submissions that request
the resources necessary for the Department to reach its goals.




                                                      - 12 -
The chart below and the table that follows summarize the Department’s achievement of its FY 2012 key
performance measures.




                                               - 13 -
                                                                    Target 
                                      FY 2012      FY 2012 
     [ ] Designates the                                           Achieved/ 
                                       Target       Actual 
     reporting entity                                           Not Achieved 
No.  Strategic Goal I:  Prevent Terrorism and Promote the Nation’s Security 
     Consistent with the Rule of Law 
1    Number of counterterrorism                         13,628                   12,445                  Not Met1
     intelligence products shared with
     the U.S. Intelligence Community,
     state and local Law Enforcement
     Community partners, and foreign
     government agencies [FBI]
     1
       FBI attributes the measure missing its target to lower Intelligence Information Report (IIR) production. FBI
     emphasized the production of high-value IIRs which addressed priority intelligence gaps or provided actionable
     intelligence to Intelligence Community and Law Enforcement partners over low-value IIRs which served only to flood
     the system with non-actionable intelligence or information of little-to-no intelligence value.
     Strategic Goal II:  Prevent Crime, Protect the Rights of the American 
     People, and Enforce Federal Law 
2    Number of criminal enterprises                       360                      409                       Met
     engaging in white-collar crimes
     dismantled [FBI]
3    Percent increase in gang arrests                      2%                     -16%                   Not Met2
     resulting from coordination of
     gang investigations [FBI, ATF,
     DEA]
     2
       This measure represents collective data from FBI, ATF, and DEA. FBI has yet to report its final number for
     FY 2012. ATF’s actual number in FY 2012 is lower than their FY 2011 baseline number. DEA met its target for the
     year.
4    Number of intelligence products                       46                       53                       Met
     to support federal, state, and
     local law enforcement [FBI]
5    Number of                                           4,938                    4,348                   Not Met3
     matters/investigations of child
     sexual exploitation and human
     trafficking resolved [CRT, FBI,
     CRM, USA, USMS]
     3
       Cases relating to this measure are trending the same way as all other criminal cases in FY 2012. Overall, criminal
     cases filed in FY 2012 have dropped when compared to the baseline year, FY 2011.
     Consolidated Priority
     Organizations Target (CPOT)-
     linked drug trafficking
     organizations [DEA, FBI
     (Consolidated data - OCDETF)]
6        Dismantled                                       145                      171                       Met
7        Disrupted                                        340                      446                       Met
     Percent of cases favorably
     resolved: [ENRD, ATR, CRM,
     USA, TAX, CIV, CRT
     (Consolidated data -
     JMD/Budget Staff)]
8        Criminal Cases                                   90%                     92%                        Met
9        Civil Cases                                      80%                     81%                        Met
     Strategic Goal III:  Ensure and Support the Fair, Impartial, Efficient, and 
     Transparent Administration of Justice at the Federal, State, Local, Tribal, 
     and International Levels 
10   Percent of system-wide crowding                      37%                     38%                    Not Met4
     in federal prisons [BOP]
     4
      While the target was not met, FY 2012 actual represents a one percent reduction from
     FY 2011 system-wide crowding rate.




                                                                       - 14 -
                                                                                                    Target 
                                                     FY 2012                 FY 2012 
     [ ] Designates the                                                                           Achieved/ 
                                                      Target                  Actual 
     reporting entity                                                                            Not Achieved 
11   Number of inmate participants in                  18,500                  14,482                 Not Met5
     the Residual Drug Abuse                         (baseline)
     Program [BOP]
     5
       New methodology was developed in FY 2012 to calculate RDAP participation to reduce potential for double-
     counting of inmates. The more precise methodology has resulted in the number of participants during FY 2012 less
     than the initial target number.
12   Number and percent of primary                     34,421                  36,229                     Met
     felony fugitives apprehended or                    52%                     50%
     cleared [USMS]




                                                              - 15 -
                                   FY 2012 – 2013 Priority Goals 

The FY 2012 OMB Budget and Performance Plan guidance memorandum required federal agencies to identify a
limited number of Priority Goals that are considered priorities for both the Administration and the agency, have high
relevance to the public or reflect the achievement of key agency missions, and would produce significant results over a
12 to 24 month timeframe. The Priority Goals should also represent critical elements of a federal agency’s strategic
plan.

The following comprise the Department’s four Priority Goals for FY 2012–2013 and are linked to the larger DOJ
policy framework and strategic plan goals.

Priority Goal 1, National Security: Better inform the Intelligence Community, thereby increasing the
ability to protect Americans from terrorism or other threats to national security - both at home and
abroad:
    	 By the end of 2013, increase the number of intelligence products shared with the U.S. 

         Intelligence Community and state and local Law Enforcement Community partners by 

         6 percent

    	 By the end of 2013, increase the number of intelligence products shared with foreign 

         government agencies by 6 percent


Terrorism is the most significant national security threat the country faces. Accordingly, the number one
priority of the Department is, and will continue to be, protecting the security of this Nation’s citizens. The
Administration has recognized that terrorism cannot be defeated by military means alone and the Department
is at the forefront of the fight against terrorism. DOJ provides a broad spectrum of tools and skills to combat
terrorists. Specifically, DOJ’s agents, analysts, and prosecutors will use every available resource and
appropriate tool to detect, deter, and disrupt terrorist plots, investigate and prosecute terrorists, and aid in
developing rule of law programs in post-conflict countries to help prevent terrorism abroad. The Department
will aggressively pursue emerging threats around the world and at home, enhance the ability to gather and
analyze actionable intelligence, and engage in outreach efforts to all communities in order to prevent terrorism
before it occurs.

    o	 Status: The Department met its FY 2012 target for increasing the number of intelligence products 

       shared with foreign government agencies, but missed its FY 2012 target for increasing the number of 

       intelligence products shared with the U.S. Intelligence Community and state and local Law 

       Enforcement Community Partners.
 

        The number of intelligence products shared with foreign government agencies decreased from 1,860 to
        1,795 from the third to the fourth quarter of FY 2012, but exceeded its fourth quarter target by 200
        percent. In comparison, intelligence products shared in FY 2011 for the third and fourth quarters were
        850 and 801, respectively. Shared Counterterrorism Division (CTD) intelligence products include a
        wide variety of disseminations to foreign governments. Coordination and cooperation with foreign
        partners serve the interests of FBI CTD to identify upcoming threats and better monitor the activities
        of known entities. CTD Executive Management has identified the need for increased communications
        with Foreign Governments, and as such, CTD has pushed for increased contact.

        The number of intelligence products shared with the U.S. Intelligence Community and state and local
        Law Enforcement Community partners increased from 3,061 to 3,347 from the third to the fourth
        quarter of FY 2012, and missed its fourth quarter target by only 2%. In comparison, intelligence
        products shared in FY 2011 for the third and fourth quarter were 3,434 and 3,642, respectively. The
        FBI CTD recognizes coordination and collaboration with Other Government Agency (OGA),




                                                      - 16 -
        Intelligence Community (IC), and domestic Law Enforcement (LE) partners is essential to mitigating
        the domestic and international threat. CTD attributes the measure missing its fourth quarter target to
        lower Intelligence Information Report (IIR) production. Based on feedback received from OGA, IC,
        and LE partners, CTD emphasized the production of high-value IIRs which addressed priority
        intelligence gaps or provided actionable intelligence to IC and LE partners over low-value IIRs which
        served only to flood the system with non-actionable intelligence or information of little-to-no
        intelligence value. This change has been well-received by OGA, IC, and LE partners. CTD Executive
        Management will continue to focus on increased intelligence sharing in the effort to combat the
        terrorist threat. 

Priority Goal 2, Reduce Gang Violence: By September 30, 2013, in conjunction with state and local law
enforcement agencies, reduce the number of violent crimes attributed to gangs by achieving 5 percent
increases on 3 key indicators:

       Youths who exhibited a change in targeted behaviors as a result of participation in DOJ gang
        prevention program
       Coordination on gang investigations among federal, state, and local law enforcement resulting in
        gang arrests
       Intelligence products produced in support of federal, state, and local investigations that are
        focused on gangs posing a significant threat to communities

Gangs and gun violence pose a serious threat to public safety in many communities throughout the United
States. Too many youth are exposed to violence and gangs. Too many families continue to face substantial
challenges in keeping their children safe and free from the conditions that can lead to violence. While data
shows that overall violent crime in the United States is decreasing, many communities continue to experience
high levels of gun violence and gang-related crimes. Gang members are increasingly migrating from urban to
suburban, rural, and tribal communities and are responsible for a growing percentage of crime and violence in
many communities. The Department’s efforts to protect our citizens from violence will be carried out through
collaboration with our state, local, and tribal partners. Through the United States Attorneys and our violent
crime task forces, the Department will work with individual jurisdictions to address the impact of gang-related
crimes on communities. The federal, state, local, and tribal efforts will be enhanced through increased
coordinated enforcement efforts and intelligence sharing. Additionally, prevention of gang violence and gang
membership is a necessary element of our strategy to address violent crime. The Department will utilize a
number of evidence-based programs to assist state, local, and tribal governments in their efforts to deter youths
from participation in gangs through these data-driven prevention programs, which are designed to prevent
increases in gang membership and to deter youth violence.

    o	 Status: The percentage of program youth who exhibited a change in targeted behaviors while
        participating in DOJ prevention programs to reduce youth crime and violence (including gangs) is
        targeted annually and actual data is reported in the first and third quarters due to data collection cycles.
        In FY 2012, the Department reported that 67% of program youth exhibited a change in targeted
        behaviors, exceeding the FY 2012 target of 65%. In FY 2011, 63% of program youth exhibited a
        change in targeted behaviors.

        The Department exceeded its FY 2012 target for the number of gang cases supported by the Gang
        Unit, and the National Gang Targeting, Enforcement & Coordination Center/Operations Section:
        Gangs (GangTECC/OSG) in FY 2012 by 169 or 22%. In FY 2011, the Department increased the
        number of cases supported by 192 cases or 26%.

        The Department exceeded its FY 2012 target to produce intelligence products in support of federal,
        state, and local investigations that are focused on gangs posing a significant threat to communities by




                                                   - 17 -
        7 or 16%. In FY 2012, the number of intelligence products produced increased from FY 2011 by 8
        or18%.

Priority Goal 3, Protect the American people from Financial and Healthcare fraud: In order to
efficiently and effectively address financial fraud and healthcare fraud, by the end of FY 2013, increase
by 5 percent over FY 2011 levels, the number of investigations completed per Department of Justice
attorney working on financial fraud and healthcare fraud cases; additionally, institute a system for
tracking compliance by corporate defendants with the terms of judgments, consent decrees, settlements,
deferred prosecution agreements, and non-prosecution agreements.

The recent financial crisis, which has impacted every American, has resulted in fraud and deception in the
finance and housing markets as well as fraudulent schemes that misuse the public’s unprecedented investment
in economic recovery. Criminals who commit mortgage fraud, securities and commodities fraud, and other
types of fraud relating to the response to the economic crisis, including the funds disbursed through the
American Recovery and Reinvestment Act and the Troubled Asset Relief Program, victimize the American
public as a whole. Similarly, those who defraud Medicare, Medicaid, and other government health care
programs defraud every American. Fraudsters take critical resources out of our health care system—thus
contributing to the rising cost of health care for all Americans and endangering the short-term and long-term
solvency of these essential health care programs. The Department will continue to address these critical
problems by vigorously investigating and prosecuting both health care fraud and financial fraud, in order to
protect American businesses, consumers, and taxpayers.

    o	 Status: The Department did not achieve its FY 2012 goal of increasing by 2.5% the number of
        investigations completed per DOJ attorney working on financial fraud and healthcare fraud cases. The
        target for FY 2012 was 11.92 investigations per attorney. However, actual results show only 10.28
        investigations per attorney. Several factors have contributed to the decline in the number of
        investigations completed in FY 2012. Over the last several years, including the baseline year,
        FY 2011, the number of health care fraud and financial fraud cases reached all-time highs. The
        complexity of these health care fraud and financial fraud cases continues to increase, e.g., number of
        defendants and methods of fraud. As complexity increases, more attorney effort is expended on these
        complex cases, thereby reducing the overall number of investigations completed. Finally, the Speedy
        Trial Act necessitates that priority be placed on existing cases. Therefore, the availability of attorneys
        to devote effort to new matters is further limited.

Priority Goal 4, Protect those most in need of help: With special emphasis on child exploitation and civil
rights. By September 30, 2013, working with state and local law enforcement agencies, protect potential
victims from abuse and exploitation by achieving a 5 percent increase for 3 sets of key indicators:

    	 open investigations concerning non-compliant sex offenders, sexual exploitation of children, and
       human trafficking
    	 matters/investigations resolved concerning sexual exploitation of children and human trafficking
    	 number of children depicted in child pornography that are identified by the FBI

The abuse, neglect, exploitation, and trafficking, including sexual abuse, of children, the elderly, and other
vulnerable populations, causes irrevocable harm to victims and society. Ensuring that our children, seniors,
and all citizens can live without being disturbed by sexual trauma, exploitation, or human trafficking are more
than criminal justice issues, they are societal and moral issues. Despite efforts to date, the threat of these
crimes remains very real. In the broadest terms, the goal of the Department is to prevent child sexual
exploitation, elder abuse, hate crimes, and human trafficking from occurring in the first place, in order to
protect every person from the physical and mental traumas associated with these crimes.




                                                       - 18 -
o	       Status: Overall, DOJ is on track to achieve this goal. Five out of six performance measures for this goal
         exceeded their FY 2012 annual targets. At the beginning of FY 2012, the USMS brought on-board
         additional full time sex offender investigative coordinators to focus on non-compliant sex offenders, and
         it exceeded its FY 2012 annual target (1,305) for Open investigations concerning non-compliant sex
         offenders by 17% (1,531); this is a 19 % increase as compared to the FY 2011 activity. Open
         investigations concerning human trafficking exceeded its annual target of 188 by 37%t (258); this is a
         41% increase compared to the FY 2011 activity. Matters/investigations resolved concerning human
         trafficking exceeded its annual target of 83 by 29% (107); this is a 34% increase as compared to the FY
         2011 activity. Number of children depicted in child pornography that are identified by the FBI exceeded
         its annual target of 175 by 37 percent (239). This is one less than identified in FY 2011. Open
         investigations concerning sexual exploitation of children surpassed its FY 2012 annual target (560) by
         41 percent (792); this is 45% increase as compared to the FY 2011 activity. Matters/investigations
         resolved concerning sexual exploitation of children, reached only 87% (4,245) of its FY 2012 annual
         target (4,855); this is a 10% decrease as compared to the FY 2011 activity.

         There are three factors contributing to the slower progress in resolving matters/investigations concerning
         the sexual exploitation of children. First, the Criminal Division resolved an unusually large number of
         matters in FY 2011 (a particularly large international child pornography ring was investigated and
         charged in FY 2011, resulting in a large number of matters resolved) that produced a particularly high
         FY 2011 baseline. Second, due to increasing sophistication of many offenders’ use of technologies to
         help evade detection, it often is taking more time to investigate individual matters. Third, the difficulty
         in replacing experienced child exploitation prosecutors may be another reason that DOJ is slightly below
         expectations on this performance measure.



                       Analysis of Systems, Controls, and Legal Compliance 

Internal Control Program in the Department of Justice

The objective of the Department of Justice’s internal control program is to provide reasonable assurance that
operations are effective, efficient, and comply with applicable laws and regulations; financial reporting is
reliable; and assets are safeguarded against waste, loss, and unauthorized use. The Department identifies
issues of concern through a strong network of oversight councils and internal review teams. These include
the Department’s Senior Assessment Team, the Justice Management Division’s Internal Review and
Evaluation Office and Quality Control and Compliance Group, and Departmental component internal review
teams. In addition, the Department considers reports issued by the Office of the Inspector General (OIG)
when assessing internal control.

The Department’s internal control continues to improve through the corrective actions implemented by
management. The Department’s commitment to management excellence, accountability, and compliance
with applicable laws and regulations is evidenced in our continuing actions to establish effective controls,
make sound determinations on corrective actions, and verify and validate the results. This commitment is
further evidenced by the many control improvements and actions taken by Departmental management in
response to new legislation, OMB initiatives, and OIG recommendations, as discussed later in this section and
in Appendix A.

Departmental management continued in FY 2012 to further strengthen and maximize the effectiveness of its
annual assessment of internal control over financial reporting. Examples of such actions include:

          refining the assessment framework,




                                                    - 19 -
   enhancing the oversight process to ensure prompt implementation of corrective actions,
   providing direct assistance to components with previously identified reportable conditions, and
   continuing to support and commit resources to Departmental component internal review programs.




                                                 - 20 -
                                        Management Assurances 

Federal Managers’ Financial Integrity Act of 1982
The Federal Managers’ Financial Integrity Act of 1982 (FMFIA or Integrity Act) provides the statutory basis for
management’s responsibility for and assessment of internal accounting and administrative controls. Such controls
include program, operational, and administrative areas, as well as accounting and financial management. The
Integrity Act requires federal agencies to establish controls that reasonably ensure obligations and costs are in
compliance with applicable law; funds, property, and other assets are safeguarded against waste, loss, unauthorized
use, or misappropriation; and revenues and expenditures are properly recorded and accounted for to maintain
accountability over the assets. The Integrity Act also requires agencies to annually assess and report on the internal
controls that protect the integrity of federal programs (FMFIA § 2) and whether financial management systems
conform to related requirements (FMFIA § 4).

Guidance for implementing the Integrity Act is provided through OMB Circular A-123, Management’s
Responsibility for Internal Control. In addition to requiring agencies to provide an assurance statement on the
effectiveness of programmatic internal controls and conformance with financial system requirements, the Circular
requires agencies to provide an assurance statement on the effectiveness of internal control over financial reporting.
FMFIA Assurance Statement
Department of Justice management is responsible for establishing and maintaining effective internal controls and
financial management systems that meet the objectives of the FMFIA. In accordance with OMB Circular A-123,
the Department conducted its annual assessment of the effectiveness of internal controls to support effective and
efficient programmatic operations, reliable financial reporting, and compliance with applicable laws and regulations
(FMFIA § 2). The Department also assessed whether its financial management systems conform to financial system
requirements (FMFIA § 4). Based on the results of the assessments, the Department can provide qualified
assurance that its internal controls and financial management systems meet the objectives of the FMFIA. The
assessment of systems did not identify any non-conformances required to be reported under FMFIA § 4; however,
the assessment of internal controls identified one programmatic material weakness required to be reported under
FMFIA § 2. This weakness involves the need to reduce the Federal Bureau of Prisons (BOP) crowding rate,
currently at 38 percent over the rated capacity. Details of the weakness are provided in the section Summary of
Material Weakness and Corrective Actions. Other than the exception noted, the internal controls were operating
effectively as of September 30, 2012, and the assessment identified no other material weaknesses in the design or
operation of the controls.

In accordance with Appendix A of OMB Circular A-123, the Department conducted its assessment of the
effectiveness of internal control over financial reporting, which included the safeguarding of assets and compliance
with applicable laws and regulations. Based on the results of this assessment, the Department can provide
reasonable assurance that its internal control over financial reporting was operating effectively as of June 30, 2012,
and the assessment identified no material weaknesses in the design or operation of the controls.

The Department of Justice is committed to maintaining strong program and financial management as we continue
our mission of fighting terrorism and protecting our communities from crime. We take our program and financial
accountability seriously and are dedicated to ensuring that funds received are expended responsibly and in a
transparent manner. We will continue to strengthen controls in areas where we are aware of concerns identified
through the Department’s internal review activities or by the Office of the Inspector General and Government
Accountability Office. We look forward in FY 2013 to building on our achievements as we continue the important
work of the Department.



Eric H. Holder, Jr.
Attorney General
November 9, 2012




                                                    - 21 -
Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to advance federal
financial management by ensuring that federal financial management systems provide accurate, reliable, and
timely financial management information to the government’s managers. Compliance with the FFMIA
provides the basis for the continuing use of reliable financial management information by program managers,
as well as by the President, Congress, and public. The FFMIA requires agencies to have financial
management systems that substantially comply with federal financial management system requirements,
applicable federal accounting standards, and the application of the U.S. Government Standard General Ledger
at the transaction level. Guidance for implementing the FFMIA is provided through OMB Circular A-127,
Financial Management Systems.

FFMIA Compliance Determination

During FY 2012, the Department assessed its financial management systems for compliance with the FFMIA 

and determined that, when taken as a whole, they substantially comply with the FFMIA. This determination 

is based on the results of FISMA reviews and testing performed for OMB Circular A-123, Appendix A. 

Consideration was also given to issues identified during the Department’s financial statement audit. 

A summary of the Department’s compliance with the specific requirements of the FFMIA is provided at the 

end of this sub-section. 


Financial Management Systems Strategy, Goals, and Framework

The Department’s financial management systems strategy is to ultimately replace the three remaining major
non-integrated legacy accounting systems in use in the Department with the single, integrated financial
management system the Department is deploying – the Unified Financial Management System (UFMS).
UFMS delivers standard, core accounting processes, as well as the data needed for effective financial and
budget management. In FYs 2009 through 2012, the Department made measurable progress in implementing
UFMS. In FY 2009, the DEA successfully migrated to UFMS and, importantly, obtained an unqualified audit
opinion on its financial statements produced from UFMS that year and in every year since. As expected, the
DEA project was a large, complex, and difficult migration, but one that helped to lay the foundation for the
migration of the ATF, which occurred in FY 2011, and the migrations of the USMS and FBI, which are
underway and scheduled for completion in FYs 2013 and 2014, respectively. The migration of the USMS will
replace one of the three major non-integrated legacy accounting systems, leaving two in use in the Department.
The UFMS implementation goals, such as the migrations of the USMS and FBI, leverage lessons learned from
previous migrations and are based on and aligned with operational risks and requirements unique to each
component.

The Department’s UFMS implementation has already enabled components to improve financial and budget
management and realize increased efficiencies. Additional improvements and efficiencies are guaranteed to be
realized as additional components fully migrate to UFMS. For example, UFMS has standardized and
integrated financial processes to more effectively support accounting operations, provide accurate and timely
financial information throughout the year, facilitate preparation of financial statements, and streamline audit
processes.




                                                      - 22 -
Summary of Financial Statement Audit and Management Assurances

The following two tables summarize the results of the Department’s financial statement audit and management
assurances regarding the effectiveness of internal control over programmatic operations and financial reporting
(FMFIA § 2), conformance with financial system requirements (FMFIA § 4), and compliance with the
FFMIA.

                             Table 3. Summary of Financial Statement Audit

 Financial Statement Audit Opinion and Material Weaknesses

 Audit Opinion                 Unqualified

 Restatement                   No
                                    Beginning                                                       Ending 
    Material Weaknesses
                                     Balance        New            Resolved      Consolidated       Balance 

 None                                   0            0                0               0                0

 Total Material Weaknesses              0            0                0               0                0




                                                 - 23 -
                             Table 4. Summary of Management Assurances

Effectiveness of Internal Control over Programmatic Operations (FMFIA § 2)

Statement of Assurance         Qualified
                                Beginning                                                              Ending 
   Material Weaknesses
                                 Balance         New       Resolved      Consolidated    Reassessed    Balance 

Prison Crowding                     1             0           0               0              0           1

Total Material Weaknesses           1             0           0               0              0            1




Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)

Statement of Assurance         Unqualified
                                Beginning                                                              Ending 
   Material Weaknesses
                                 Balance         New       Resolved      Consolidated    Reassessed    Balance 

None                                0             0           0               0              0            0

Total Material Weaknesses           0             0           0               0              0            0




Conformance with Financial Management System Requirements (FMFIA § 4)

Statement of Assurance         Systems Conform
                                Beginning                                                              Ending 
    Non-conformances
                                 Balance         New       Resolved      Consolidated    Reassessed    Balance 

None                                0             0           0               0              0            0

Total Non-conformances              0             0           0               0              0            0




Compliance with Federal Financial Management Improvement Act (FFMIA)

Overall Substantial                          Agency                                       Auditor 
Compliance
                                                 Yes                                        Yes

                                 Compliance with Specific Requirements

Systems Requirements                                                   Yes

Accounting Standards                                                   Yes

USSGL at Transaction Level                                             Yes




                                                        - 24 -
                  Summary of Material Weakness and Corrective Actions 

A summary of the material weakness identified in the Department’s FY 2012 assessment of the effectiveness
of internal control over programmatic operations (FMFIA § 2) follows, along with details regarding corrective
actions. The associated Corrective Action Plan is provided in Section IV of this document.

           Programmatic Material Weakness and Corrective Actions – Prison Crowding 


As of September 30, 2012, the inmate population housed in BOP operated institutions exceeded the
rated housing capacity by 38 percent. The BOP’s Long Range Capacity Plan relies on multiple approaches to
house the increasing federal inmate population, such as contracting with the private sector and state and local
facilities for certain groups of low-security inmates; expanding existing institutions where infrastructure
permits, programmatically appropriate, and cost effective to do so; and acquiring, constructing, and activating
new facilities as funding permits.

To address this material weakness, the BOP will continue implementing its Long Range Capacity Plan,
making enhancements and modifications to the plan, as needed, commensurate with funding received through
enacted budgets. The BOP’s formal Corrective Action Plan includes utilizing contract facilities; expanding
existing institutions; and acquiring, constructing, and activating new institutions as funding permits. The BOP
will continue to validate progress on construction projects at new and existing facilities through on-site
inspections or by reviewing monthly construction progress reports.

This material weakness was first reported in 2006. Remediation of the weakness through increasing prison
capacity is primarily dependent on funding. Other correctional reforms and alternatives will require policy
and/or statutory changes. Other initiatives notwithstanding, if the acquisition, expansion, construction, and
activation plans detailed in the BOP’s Long Range Capacity Plan are funded as proposed, the over-crowding
rate for FY 2018 is projected to be 44 percent.

The Department’s corrective action efforts are not limited to the BOP alone. The Department continues to
consider and implement an array of crime prevention, sentencing, and corrections management improvements
that focus on accountability and rehabilitation, while protecting public safety. The Department recognizes that
the BOP’s capacity management efforts must be teamed with targeted programs that are proven to reduce
recidivism and promote effective re-entry. The BOP will continue to work with the Department on these
programs.




                                                 - 25 -
                Improper Payments Elimination and Recovery Act of 2010 

The Department recognizes the importance of maintaining adequate internal controls to ensure proper
payments and is committed to the continuous improvement of the overall disbursement management process.
A summary of actions taken by Departmental management in FY 2012 to implement the Improper Payments
Elimination and Recovery Act (IPERA) follow. Additional details, as well as the Department’s submission
of the required improper payments reporting, are provided in Appendix A of this document.


                                             Risk Assessment 


The IPERA and OMB April 2011 implementing guidance, OMB Circular A-123, Appendix C, Requirements
for Effective Measurement and Remediation of Improper Payments, require agencies to review all programs
and activities they administer to identify those that are susceptible to significant improper payments.
OMB defines significant improper payments as gross annual improper payments (i.e., the total amount of
overpayments plus underpayments) in a program exceeding (1) both 2.5 percent of program outlays and
$10 million of all program or activity payments made during the fiscal year reported or (2) $100 million,
regardless of the improper payment percentage of total program outlays. The Department’s top-down
approach for assessing the risk of significant improper payments allows the reporting of results by the
Department’s five mission-aligned programs – Law Enforcement; Litigation; Prisons and Detention; State,
Local, Tribal, and Other Assistance; and Administrative, Technology, and Other.

In accordance with the IPERA and OMB implementing guidance, the Department assessed its programs and
activities for susceptibility to significant improper payments. Based on the results of the risk assessment for
the year ended September 30, 2012, the Department concluded there were no programs susceptible to
significant improper payments, i.e., improper payments exceeding the OMB thresholds of both 2.5 percent of
program outlays and $10 million or $100 million.

                                       Payment Recapture Audits 


The IPERA and OMB implementing guidance require agencies to conduct payment recapture audits (also
known as recovery audits) for each program and activity that expends $1 million or more annually – including
contracts, grants, and benefit payments – if conducting such audits would be cost-effective. Prior to FY 2011,
payment recapture audits were only required for agencies that entered into contracts with a total value in
excess of $500 million in a fiscal year, and for certain other programs that were not applicable to the
Department. The OMB implementing guidance also requires agencies to establish annual targets for their
payment recapture audit programs – based on the rate of recovery – to drive performance. Agencies have the
discretion to set their own payment recovery rate targets for review and approval by OMB, but agencies are to
strive to achieve an annual recovery rate target of at least 85 percent by the end of FY 2013.

In FY 2011, the Department expanded the scope of its payment recapture audits to contracts, grants, and
benefit and other payments as required by the IPERA and OMB implementing guidance. The Department also
established annual payment recovery rate targets through FY 2014 to drive performance. In FY 2012, the
Department updated its targets and added an annual target for FY 2015.

In accordance with the IPERA and OMB implementing guidance, the Department measured payment
recapture performance. Based on performance through the year ended September 30, 2012, the Department




                                                      - 26 -
achieved a payment recovery rate of 93 percent for the cumulative period of FYs 2004 through 2012.
Additional details, to include the Department’s annual payment recovery rate, are provided in Appendix A.



    Possible Effects of Existing, Currently Known Demands, Risks, Uncertainties,
 
                            Events, Conditions, and Trends
 

The Department’s leadership is committed to ensuring its programs and activities will continue to be focused
on meeting the dynamic demands of the changing legal, economic, and technological environments of the
future.

James Zadroga 9/11 Health and Compensation Act of 2010

    	 DOJ workload could potentially increase resulting from the James Zadroga 9/11 Health and
       Compensation Act of 2010. The Act provides compensation to any individual (or personal
       representative of a deceased individual) who suffered physical harm as a result of the terror-related
       aircraft crashes of September 11, 2001, or the debris removal efforts that took place in the immediate
       aftermath.

Technology
    Advances in high-speed telecommunications, computers, and other technologies are creating new
      opportunities for criminals, new classes of crimes, and new challenges for law enforcement.
    Growing dependence on technology is creating an increasing vulnerability to illegal acts, especially
      white collar crime and terrorism.

Economy
    Amount of regulation and the pace of economic growth and globalization are changing the volume and
     nature of anti-competitive behavior.
    The interconnected nature of the world’s economy is increasing opportunities for criminal activity,
     including money laundering, white collar crime, and alien smuggling, as well as the complexity and
     scope of civil justice matters.

Government
   Changes in the fiscal posture or policies of state and local governments could have dramatic effects on
      their capacity to remain effective law enforcement partners, e.g., the ability and willingness of these
      governments to allow federal use of their jail space affects achievement of detention goals.

Globalization
    Issues of criminal and civil justice increasingly transcend national boundaries, requiring the
       cooperation of foreign governments and involving treaty obligations, multinational environment and
       trade agreements, and other foreign policy concerns.

Social-Demographic
    The numbers of adolescents and young adults, now the most crime-prone segment of the population,
       are expected to grow rapidly over the next several years.




                                                 - 27 -
Unpredictable
    Overseas Contingency Operations require continual adjustments to new conditions. The Department
      is determined to confront proactively new challenges in its efforts to protect the Nation.
    Responses to unanticipated natural disasters and their aftermath require the Department to divert
      resources to deter, investigate, and prosecute disaster-related federal crimes, such as charity fraud,
      insurance fraud and other crimes.
    Changes in federal laws may affect responsibilities and workload.
   Much of the litigation caseload is defensive. The Department has little control over the number, size,
      and complexity of the civil lawsuits it must defend.


                  Other Management Information, Initiatives, and Issues 

American Recovery and Reinvestment Act
   The Department received $4.0 billion in funding for programs, under the American Recovery and
      Reinvestment Act of 2009. In addition, $2.0 million was provided for the Department’s Office of the
      Inspector General oversight activities related to Recovery Act funding. The Department is fully
      committed to ensuring that the funds received are expended responsibly and in a transparent manner to
      further job creation, economic recovery, and other purposes of the Act.

    	 Additional information regarding the Department’s Recovery Act activities can be found on:
       http://www.justice.gov/recovery/; government-wide Recovery Act information can also be found on:
       http://www.recovery.gov/Pages/home.aspx.

    	 The following table summarizes appropriations, obligations, and outlays by component, as of 

       September 30, 2012:


                                          (Dollars in Thousands)
         Component                 Appropriation Amount         Obligations                  Outlays
         OJP                            $2,761,930               $2,761,172                $2,510,180
         OVW                              $225,564                 $221,911                  $201,947
         COPS                           $1,002,506                 $989,458                  $724,151
         ATF                               $10,000                   $9,713                    $9,475
         OIG                                 $2,000                  $1,800                    $1,800
         DOJ Total                      $4,002,000               $3,984,054                $3,447,553



                             Limitations of the Financial Statements 

The principal financial statements have been prepared to report the financial position and results of operations
of the Department of Justice, pursuant to the requirements of 31 U.S.C. § 3515(b).

While the statements have been prepared from the books and records of the Department in accordance with
U.S. generally accepted accounting principles for federal entities and the formats prescribed by the OMB, the
statements are in addition to the financial reports used to monitor and control budgetary resources, which are
prepared from the same books and records.

The statements should be read with the realization that they are for a component of the United States
Government, a sovereign entity.




                                                       - 28 -
Independent Auditors’ Reports





          - 29 -
This page intentionally left blank. 





                - 30 -
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




                         Independent Auditors’ Report on Financial Statements


Inspector General
U.S. Department of Justice

United States Attorney General
U.S. Department of Justice

We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice
(Department) as of September 30, 2012 and 2011, and the related consolidated statements of net cost, and
changes in net position, and the combined statements of budgetary resources, and custodial activity
(hereinafter referred to as “consolidated financial statements” or “basic financial statements”) for the years
then ended. These consolidated financial statements are the responsibility of the Department’s
management. Our responsibility is to express an opinion on these consolidated financial statements based
on our audits. We did not audit the financial statements of the following components of the Department:
the U.S. Marshals Service (USMS); the Federal Prison Industries, Inc. (FPI); and the Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF), which statements reflect total assets of $2.0 billion and $2.1
billion, and total net costs of $2.9 billion and $2.8 billion, as of and for the years ended September 30, 2012
and 2011, respectively. Those financial statements were audited by other auditors whose reports have been
furnished to us, and our opinion, insofar as it relates to the amounts included for those components, is
based solely on the reports of the other auditors.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the Department’s internal control over financial reporting. Accordingly, we express no such opinion. An
audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits and the reports of the other auditors provide a reasonable basis for our opinion.

In our opinion, based on our audits and the reports of the other auditors, the consolidated financial
statements referred to above present fairly, in all material respects, the financial position of the U.S.
Department of Justice as of September 30, 2012 and 2011, and its net costs, changes in net position,
budgetary resources, and custodial activity for the years then ended in conformity with U.S. generally
accepted accounting principles.

As discussed in Note 1.Z to the consolidated financial statements, the Department changed its presentation
for reporting the combined statement of budgetary resources in fiscal year 2012, based on new reporting
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.



                                                        - 31 -
requirements under OMB Circular No. A-136, Financial Reporting Requirements. As a result, the U.S.
Department of Justice’s combined statement of budgetary resources for fiscal year 2011 has been adjusted
to conform to the current year presentation.

U.S. generally accepted accounting principles require that the information in Required Supplementary
Information, including Management’s Discussion and Analysis, and Required Supplementary Stewardship
Information be presented to supplement the basic financial statements. Such information, although not a
part of the basic financial statements, is required by the Federal Accounting Standards Advisory Board who
considers it to be an essential part of financial reporting for placing the basic financial statements in an
appropriate operational, economic, or historical context. We and the other auditors have applied certain
limited procedures to the required supplementary information in accordance with auditing standards
generally accepted in the United States of America, which consisted of inquiries of management about the
methods of preparing the information and comparing the information for consistency with management’s
responses to our inquiries, the basic financial statements, and other knowledge we obtained during our
audits of the basic financial statements. We and the other auditors do not express an opinion or provide
any assurance on the information because the limited procedures do not provide us with sufficient evidence
to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The September 30, 2012 and 2011 consolidating and combining information in the Consolidating
and Combining Financial Statements section is presented for purposes of additional analysis of the
consolidated financial statements rather than to present the financial position, net costs, changes in net
position, budgetary resources, and custodial activity of the Department’s components individually, and is
not a required part of the basic financial statements. Such information is the responsibility of management
and was derived from and relates directly to the underlying accounting and other records used to prepare
the basic financial statements. The September 30, 2012 and 2011 consolidating and combining information
in the Consolidating and Combining Financial Statements has been subjected to the auditing procedures
applied by us and the other auditors, in the audits of the basic financial statements and certain additional
procedures, including comparing and reconciling such information directly to the underlying accounting
and other records used to prepare the basic financial statements or to the basic financial statements
themselves, and other additional procedures in accordance with auditing standards generally accepted in
the United States of America. In our opinion, based on our audits and the reports of the other auditors, the
September 30, 2012 and 2011 consolidating and combining information in the Consolidating and
Combining Financial Statements section is fairly stated in all material respects in relation to the basic
financial statements as a whole. The information in the Other Accompanying Information is presented for
the purposes of additional analysis and is not a required part of the basic financial statements. Such
information has not been subjected to the auditing procedures applied by us and the other auditors in the
audits of the basic financial statements, and accordingly, we do not express an opinion or provide any
assurance on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 9,
2012, on our consideration of the Department’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed




                                               - 32 -
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 9, 2012




                                            - 33 -
This page intentionally left blank. 





                - 34 -
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
U.S. Department of Justice


United States Attorney General
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice (Department) as of
September 30, 2012 and 2011 and the related consolidated statements of net cost, and changes in net
position, and the combined statements of budgetary resources and custodial activity (hereinafter referred to
as “consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 9, 2012. We did not audit the financial statements of the following components of the
Department: the U.S. Marshals Service (USMS); the Federal Prison Industries, Inc. (FPI); and the Bureau
of Alcohol, Tobacco, Firearms and Explosives (ATF) as of and for the years ended September 30, 2012
and 2011. Those financial statements were audited by other auditors whose reports have been furnished to
us, and our report, insofar as it relates to the amounts included for those components, is based solely on the
reports of the other auditors. Also, as discussed in Note 1.Z to the consolidated financial statements, the
Department changed its presentation for reporting the combined statement of budgetary resources in fiscal
year 2012, based on new reporting requirements under OMB Circular No. A-136, Financial Reporting
Requirements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

As stated above, we did not audit the fiscal year 2012 financial statements of the USMS, FPI, and ATF.
Those financial statements were audited by other auditors whose reports thereon, including the other
auditors’ Independent Auditors’ Reports on Internal Control over Financial Reporting, have been furnished
to us. Accordingly, our report on the Department’s internal control over financial reporting, insofar as it
relates to those components, is based solely on the reports and findings of the other auditors.

The management of the Department is responsible for establishing and maintaining effective internal
control over financial reporting. In planning and performing our fiscal year 2012 audit, we considered the
Department’s internal control over financial reporting by obtaining an understanding of the Department’s
internal control, determining whether internal controls had been placed in operation, assessing control risk,
and performing tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements, but not for the purpose of expressing an



                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.



                                                        - 35 -
opinion on the effectiveness of the Department’s internal control over financial reporting. Accordingly, we
do not express an opinion on the effectiveness of the Department’s internal control over financial reporting.
We and the other auditors did not test all internal controls relevant to operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
fourth paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2012 audit, we and the other auditors did not identify any deficiencies in internal control over
financial reporting that we and the other auditors consider to be material weaknesses, as defined above.

This report is intended solely for the information and use of the Department’s management, the U.S.
Department of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office,
and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




November 9, 2012




                                                - 36 -
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of Justice


United States Attorney General
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice (Department) as of
September 30, 2012 and 2011, and the related consolidated statements of net cost, and changes in net
position, and the combined statements of budgetary resources, and custodial activity (hereinafter referred to
as “consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 9, 2012. We did not audit the financial statements of the following components of the
Department: the U.S. Marshals Service (USMS); the Federal Prison Industries, Inc. (FPI); and the Bureau
of Alcohol, Tobacco, Firearms and Explosives (ATF) as of and for the years ended September 30, 2012
and 2011. Those financial statements were audited by other auditors whose reports have been furnished to
us, and our report, insofar as it relates to the amounts included for those components, is based solely on the
reports of the other auditors. Also, as discussed in Note 1.Z to the consolidated financial statements, the
Department changed its presentation for reporting the combined statement of budgetary resources in fiscal
year 2012, based on new reporting requirements under OMB Circular No. A-136, Financial Reporting
Requirements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

As stated above, we did not audit the fiscal year 2012 financial statements of the USMS, FPI, and ATF.
Those financial statements were audited by other auditors whose reports thereon, including the other
auditors’ Independent Auditors’ Reports on Compliance and Other Matters, have been furnished to us.
Accordingly, our report on the Department’s compliance and other matters, insofar as it relates to those
components, is based solely on the reports and findings of the other auditors.

The management of the Department is responsible for complying with laws, regulations, contracts, and
grant agreements applicable to the Department. As part of obtaining reasonable assurance about whether
the Department’s consolidated financial statements are free of material misstatement, we and the other
auditors performed tests of the Department’s compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect on the
determination of the consolidated financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 07-04, including the provisions referred to in Section 803(a) of

                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.



                                                        - 37 -
the Federal Financial Management Improvement Act of 1996 (FFMIA). We and the other auditors limited
our tests of compliance to the provisions described in the preceding sentence, and we did not test
compliance with all laws, regulations, contracts, and grant agreements applicable to the Department.
However, providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of our and the other auditors’ tests of compliance described in the preceding paragraph of this
report, exclusive of those referred to in FFMIA, disclosed no instances of noncompliance or other matters
that are required to be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our and the other auditors’ tests of FFMIA disclosed no instances in which the Department’s
financial management systems did not substantially comply with the (1) federal financial management
system requirements, (2) applicable federal accounting standards, and (3) application of the United States
Government Standard General Ledger at the transaction level.

This report is intended solely for the information and use of the Department’s management, the U.S.
Department of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office,
and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




November 9, 2012
	




                                              - 38 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 39 -
                                                   U. S. Department of Justice

                                                  Consolidated Balance Sheets

                                               As of September 30, 2012 and 2011


Dollars in Thousands                                                                                          2012             2011

ASSETS (Note 2)
      Intragovernmental
          Fund Balance with U.S. Treasury (Note 3)                                           $         24,745,298    $   23,354,452
          Investments, Net (Note 5)                                                                     6,213,903         6,919,799
          Accounts Receivable, Net (Note 6)                                                               324,327           380,431
          Other Assets (Note 10)                                                                          266,573           115,103
      Total Intragovernmental                                                                          31,550,101        30,769,785

      Cash and Monetary Assets (Note 4)                                                                   260,682           250,253
      Accounts Receivable, Net (Note 6)                                                                   115,612           125,898
      Inventory and Related Property, Net (Note 7)                                                        166,609           170,889
      Forfeited Property, Net (Note 8)                                                                    145,111           172,746
      General Property, Plant and Equipment, Net (Note 9)                                              10,186,144        10,217,770
      Advances and Prepayments                                                                            760,870         1,079,767
      Other Assets (Note 10)                                                                                5,585             5,982
Total Assets                                                                                 $         43,190,714    $   42,793,090

LIABILITIES (Note 11)
      Intragovernmental
          Accounts Payable                                                                   $            302,575    $      366,027
          Accrued Federal Employees' Compensation Act Liabilities                                         260,652           250,625
          Custodial Liabilities (Note 21)                                                               1,114,298           605,009
          Other Liabilities (Note 15)                                                                     368,713           377,451
      Total Intragovernmental                                                                           2,046,238         1,599,112

      Accounts Payable                                                                                  4,108,056         2,504,820
      Accrued Grant Liabilities                                                                           604,119           614,419
      Actuarial Federal Employees' Compensation Act Liabilities                                         1,474,278         1,359,360
      Accrued Payroll and Benefits                                                                        653,909           644,502
      Accrued Annual and Compensatory Leave Liabilities                                                   838,252           831,783
      Environmental and Disposal Liabilities (Note 12)                                                     74,441            72,709
      Deferred Revenue                                                                                    556,464           533,427
      Seized Cash and Monetary Instruments (Note 14)                                                    1,587,167         4,063,738
      Contingent Liabilities (Note 16)                                                                     28,671            68,652
      Capital Lease Liabilities (Note 13)                                                                  17,096            25,141
      Radiation Exposure Compensation Act Liabilities (Note 25)                                           731,237           535,838
      September 11th Victim Compensation Fund (Note 25)                                                 2,766,400                 -
      Other Liabilities (Note 15)                                                                         455,657           415,976
Total Liabilities                                                                            $         15,941,985    $   13,269,477

NET POSITION
      Unexpended Appropriations - Earmarked Funds (Note 17)                                  $             25,963    $       21,727
      Unexpended Appropriations - All Other Funds                                                      10,568,815        11,952,581
      Cumulative Results of Operations - Earmarked Funds (Note 17)                                     10,949,539         9,066,816
      Cumulative Results of Operations - All Other Funds                                                5,704,412         8,482,489
Total Net Position                                                                           $         27,248,729    $   29,523,613

Total Liabilities and Net Position                                                           $         43,190,714    $   42,793,090




                                 The accompanying notes are an integral part of these financial statements.




                                                                  - 40 -
                                                        U. S. Department of Justice

                                                   Consolidated Statements of Net Cost

                                         For the Fiscal Years Ended September 30, 2012 and 2011


Dollars in Thousands

                                       Gross Costs                                     Less: Earned Revenues                          Net Cost of
                        Intra-          With the                              Intra-         With the                                 Operations
           FY      governmental           Public             Total        governmental          Public             Total               (Note 18)



Goal 1    2012      $ 1,426,981      $     4,300,297    $    5,727,278    $     439,321     $       30,912    $         470,233   $        5,257,045
          2011      $ 1,461,443      $     4,164,706    $    5,626,149    $     447,623     $       23,160    $         470,783   $        5,155,366



Goal 2    2012         3,361,356          16,698,326        20,059,682          468,597           646,666           1,115,263             18,944,419
          2011         3,328,444          11,338,264        14,666,708          427,340           627,929           1,055,269             13,611,439



Goal 3    2012         2,729,014          12,794,400        15,523,414          867,132           663,176           1,530,308             13,993,106
          2011         2,688,773          12,985,253        15,674,026        1,107,938           697,787           1,805,725             13,868,301



Total     2012      $ 7,517,351      $ 33,793,023       $ 41,310,374      $   1,775,050     $    1,340,754    $     3,115,804     $       38,194,570
          2011      $ 7,478,660      $ 28,488,223       $ 35,966,883      $   1,982,901     $    1,348,876    $     3,331,777     $       32,635,106



Goal 1   Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
Goal 2   Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
Goal 3   Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
         State, Local, Tribal, and International Levels




                                      The accompanying notes are an integral part of these financial statements.




                                                                         - 41 -
                                                    U. S. Department of Justice

                                         Consolidated Statements of Changes in Net Position

                                           For the Fiscal Year Ended September 30, 2012


Dollars in Thousands

                                                                                                   2012
                                                        Earmarked                   All Other
                                                          Funds                      Funds                    Eliminations           Total
Unexpended Appropriations
  Beginning Balances                                $              21,727     $           11,952,581      $                  -   $     11,974,308

  Budgetary Financing Sources
     Appropriations Received                                       72,044                 27,621,645                         -         27,693,689
     Appropriations Transferred-In/Out                                  -                    330,471                         -            330,471
     Other Adjustments                                                  -                   (152,761)                        -           (152,761)
     Appropriations Used                                          (67,808)               (29,183,121)                        -        (29,250,929)

  Total Budgetary Financing Sources                                 4,236                 (1,383,766)                        -         (1,379,530)

  Unexpended Appropriations                         $              25,963     $           10,568,815      $                  -   $     10,594,778



Cumulative Results of Operations
  Beginning Balances                                $          9,066,816      $            8,482,489      $                  -   $     17,549,305

  Budgetary Financing Sources
     Other Adjustments                                                 -                     (40,000)                        -            (40,000)
     Appropriations Used                                          67,808                  29,183,121                         -         29,250,929
     Nonexchange Revenues                                      2,802,985                         975                         -          2,803,960
     Donations and Forfeitures of Cash and
        Cash Equivalents                                       4,194,465                           -                         -          4,194,465
     Transfers-In/Out Without Reimbursement                            -                     109,395                         -            109,395

  Other Financing Sources
     Donations and Forfeitures of Property                       120,245                          30                         -           120,275
     Transfers-In/Out Without Reimbursement                     (149,908)                    137,285                         -           (12,623)
     Imputed Financing from Costs Absorbed
        by Others (Note 19)                                       15,446                     887,286                (24,718)              878,014
     Other Financing Sources                                           -                      (5,199)                     -                (5,199)
  Total Financing Sources                                      7,051,041                  30,272,893                (24,718)           37,299,216

  Net Cost of Operations                                       (5,168,318)               (33,050,970)                24,718           (38,194,570)

  Net Change                                                   1,882,723                  (2,778,077)                        -           (895,354)

  Cumulative Results of Operations                  $         10,949,539      $            5,704,412      $                  -   $     16,653,951

Net Position                                        $         10,975,502      $           16,273,227      $                  -   $     27,248,729




                                     The accompanying notes are an integral part of these financial statements.




                                                                    - 42 -
                                                    U. S. Department of Justice

                                         Consolidated Statements of Changes in Net Position

                                           For the Fiscal Year Ended September 30, 2011


Dollars in Thousands

                                                                                                   2011
                                                        Earmarked                   All Other
                                                          Funds                      Funds                    Eliminations           Total
Unexpended Appropriations
  Beginning Balances                                $              19,585     $           13,791,272      $                  -   $     13,810,857

  Budgetary Financing Sources
     Appropriations Received                                       71,746                 27,408,088                         -         27,479,834
     Appropriations Transferred-In/Out                                  -                    400,839                         -            400,839
     Other Adjustments                                               (326)                  (105,930)                        -           (106,256)
     Appropriations Used                                          (69,278)               (29,541,688)                        -        (29,610,966)
  Total Budgetary Financing Sources                                 2,142                 (1,838,691)                        -         (1,836,549)

  Unexpended Appropriations                         $              21,727     $           11,952,581      $                  -   $     11,974,308

Cumulative Results of Operations
  Beginning Balances                                $          7,636,045      $            8,068,651      $                  -   $     15,704,696

  Budgetary Financing Sources
     Other Adjustments                                                 -                     (26,000)                        -            (26,000)
     Appropriations Used                                          69,278                  29,541,688                         -         29,610,966
     Nonexchange Revenues                                      2,003,887                         508                         -          2,004,395
     Donations and Forfeitures of Cash and
        Cash Equivalents                                       1,580,584                           -                         -          1,580,584
     Transfers-In/Out Without Reimbursement                            -                     113,735                         -            113,735

  Other Financing Sources
     Donations and Forfeitures of Property                       157,381                         226                         -           157,607
     Transfers-In/Out Without Reimbursement                       (6,192)                     50,748                         -            44,556
     Imputed Financing from Costs Absorbed
        by Others (Note 19)                                       16,069                   1,007,880                (25,464)              998,485
     Other Financing Sources                                           -                      (4,613)                     -                (4,613)
  Total Financing Sources                                      3,821,007                  30,684,172                (25,464)           34,479,715

  Net Cost of Operations                                       (2,390,236)               (30,270,334)                25,464           (32,635,106)

  Net Change                                                   1,430,771                     413,838                         -          1,844,609

  Cumulative Results of Operations                  $          9,066,816      $            8,482,489      $                  -   $     17,549,305

Net Position                                        $          9,088,543      $           20,435,070      $                  -   $     29,523,613




                                     The accompanying notes are an integral part of these financial statements.




                                                                    - 43 -
                                            U. S. Department of Justice

                                  Combined Statements of Budgetary Resources

                             For the Fiscal Years Ended September 30, 2012 and 2011


Dollars in Thousands                                                                                 2012             2011



Budgetary Resources:
  Unobligated Balance, Net, Brought Forward, October 1                              $           3,882,323    $    4,039,298

  Recoveries of Prior Year Unpaid Obligations                                                     877,535           753,442
  Other Changes in Unobligated Balance                                                            (12,383)           34,970
  Unobligated Balance from Prior Year Budget Authority, Net                                     4,747,475         4,827,710
  Appropriations (discretionary and mandatory)                                                 33,346,750        30,646,052
  Spending Authority from Offsetting Collections (discretionary and mandatory)                  7,193,483         6,956,003
  Total Budgetary Resources                                                         $          45,287,708    $   42,429,765


Status of Budgetary Resources:
  Obligations Incurred (Note 20)                                                               41,251,276        38,547,442
  Unobligated Balance, End of Period:
     Apportioned                                                                                2,730,163         2,426,008
     Exempt from Apportionment                                                                    218,191           211,197
     Unapportioned                                                                              1,088,078         1,245,118
  Total Unobligated Balance - End of Period                                                     4,036,432         3,882,323
Total Status of Budgetary Resources                                                 $          45,287,708    $   42,429,765

Change in Obligated Balance:
  Obligated Balance, Net - Brought Forward, October 1
     Unpaid Obligations, Gross                                                      $          16,676,653    $   17,759,329
     Less: Uncollected Customer Payments from Federal Sources                                   1,790,659         1,753,098
        Total Obligated Balance, Net - Brought Forward, October 1                              14,885,994        16,006,231
  Obligations Incurred                                                                         41,251,276        38,547,442
  Less: Outlays, Gross                                                                         40,120,017        38,876,674
  Change in Uncollected Customer Payments from Federal Sources                                    (99,702)          (37,562)
  Less: Recoveries of Prior Year Unpaid Obligations                                               877,535           753,442

  Obligated Balance, Net - End of Period
      Unpaid Obligations, Gross                                                                16,930,377        16,676,653
      Less: Uncollected Customer Payments from Federal Sources                                  1,890,361         1,790,659
Total Obligated Balance, Net - End of Period                                        $          15,040,016    $   14,885,994

Budgetary Authority and Outlays, Net:
  Budgetary Authority, Gross (discretionary and mandatory)                                     40,540,233        37,602,055
  Less: Actual Offsetting Collections (discretionary and mandatory)                             7,093,781         6,918,445
  Change in Uncollected Customer Payments from Federal Sources                                    (99,702)          (37,562)
     (discretionary and mandatory)
  Budget Authority, Net (discretionary and mandatory)                                          33,346,750        30,646,048

  Outlays, Gross (discretionary and mandatory)                                                 40,120,017        38,876,674
  Less: Actual Offsetting Collections (discretionary and mandatory)                             7,093,781         6,918,445
  Outlays, Net (discretionary and mandatory)                                                   33,026,236        31,958,229
  Less: Distributed Offsetting Receipts                                                         1,425,127         1,025,644
  Agency Outlays, Net (discretionary and mandatory)                                            31,601,109        30,932,585




                              The accompanying notes are an integral part of these financial statements.




                                                            - 44 -
                                                  U. S. Department of Justice

                                           Combined Statements of Custodial Activity

                                       For the Years Ended September 30, 2012 and 2011


Dollars in Thousands                                                                                                  2012              2011

Revenue Activity
Sources of Cash Collections
    Delinquent Federal Civil Debts as Required by the Federal
        Debt Recovery Act of 1986                                                                      $        6,995,798     $   5,222,083
    Fees and Licenses                                                                                              36,710            32,437
    Fines, Penalties and Restitution Payments - Civil                                                              12,613            82,288
    Fines, Penalties and Restitution Payments - Criminal                                                           39,824            38,350
    Miscellaneous                                                                                                  13,652             4,853
        Total Cash Collections                                                                                  7,098,597         5,380,011
Accrual Adjustments                                                                                                 (1,405)           3,643
Total Custodial Revenue                                                                                         7,097,192         5,383,654

Disposition of Collections
    Transferred to Federal Agencies
         U.S. Department of Agriculture                                                                           (105,670)          (96,346)
         U.S. Department of Commerce                                                                                (3,746)           (5,103)
         U.S. Department of the Interior                                                                          (129,015)          (29,959)
         U.S. Department of Justice                                                                                (21,085)          (81,181)
         U.S. Department of Labor                                                                                   (9,175)             (736)
         U.S. Postal Service                                                                                        (7,675)           (4,362)
         U.S. Department of State                                                                                  (26,613)           (8,535)
         U.S. Department of the Treasury                                                                          (969,585)         (249,184)
         Office of Personnel Management                                                                           (157,714)          (58,144)
         Federal Communications Commission                                                                            (310)          (14,727)
         Social Security Administration                                                                               (921)           (2,726)
         Smithsonian Institution                                                                                        (8)             (190)
         U.S. Department of Veterans Affairs                                                                      (125,354)          (28,703)
         General Services Administration                                                                          (130,087)          (88,447)
         Securities and Exchange Commission                                                                           (411)               (3)
         Federal Deposit Insurance Corporation                                                                         (59)              (71)
         Railroad Retirement Board                                                                                    (288)             (100)
         Tennessee Valley Authority                                                                                     (8)                -
         Environmental Protection Agency                                                                          (189,137)         (341,267)
         U.S. Department of Transportation                                                                         (13,674)           (7,236)
         U.S. Department of Homeland Security                                                                      (66,585)          (66,843)
         Agency for International Development                                                                         (511)          (22,233)
         Small Business Administration                                                                              (6,371)          (10,447)
         U.S. Department of Health and Human Services                                                           (1,283,167)       (2,001,923)
         National Aeronautics and Space Administration                                                                (725)           (3,792)
         Export-Import Bank of the United States                                                                   (17,264)          (24,643)
         U.S. Department of Housing and Urban Development                                                       (1,129,547)          (11,099)
         National Archives & Records Administration                                                                    (29)                -
         U.S. Department of Energy                                                                                  (3,313)           (2,093)
         U.S. Department of Education                                                                              (14,452)          (55,431)
         Independent Agencies                                                                                      (63,619)          (67,264)
         Treasury General Fund                                                                                    (653,526)         (619,716)
         U.S. Department of Defense                                                                               (217,607)         (173,894)
    Transferred to the Public                                                                                     (508,622)         (516,597)
    (Increase)/Decrease in Amounts Yet to be Transferred                                                          (566,077)         (307,947)
    Refunds and Other Payments                                                                                    (513,185)         (364,644)
    Retained by the Reporting Entity                                                                              (162,057)         (118,068)
Total Disposition of Collections                                                                                (7,097,192)       (5,383,654)

Net Custodial Activity (Note 21)                                                                       $                 -    $            -




                                   The accompanying notes are an integral part of these financial statements.




                                                                  - 45 -
                FY 2012 U. S. Department of Justice Annual Financial Statements

                                 Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Note 1. Summary of Significant Accounting Policies

A.     Reporting Entity

       The Department of Justice (Department) has a wide range of responsibilities which include: detecting,
       apprehending, prosecuting, and incarcerating criminal offenders; operating federal prison factories;
       upholding the civil rights of all Americans; enforcing laws to protect the environment; ensuring
       healthy competition of business in the United States’ free enterprise system; safeguarding the
       consumer from fraudulent activity; carrying out the immigration laws of the United States; and
       representing the American people in all legal matters involving the U.S. Government. Under the
       direction of the Attorney General, these responsibilities are discharged by the components of the
       Department.

       For purposes of these consolidated/combined financial statements, the following components comprise
       the Department's reporting entity:

              Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF)
              Offices, Boards and Divisions (OBDs)
              U.S. Marshals Service (USMS)
              Office of Justice Programs (OJP)
              Drug Enforcement Administration (DEA)
              Federal Bureau of Investigation (FBI)
              Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)
              Bureau of Prisons (BOP)
              Federal Prison Industries, Inc. (FPI)

       The American Recovery and Reinvestment Act of 2009 (ARRA) (Public Law 111-5) was signed into
       law by President Obama on February 17, 2009. As one of its many elements, the Recovery Act
       provides the Department with funding for grants to assist state, local, and tribal law enforcement
       (including support for hiring), to combat violence against women, to fight internet crimes against
       children, to improve the functioning of the criminal justice system, to assist victims of crime, and to
       support youth mentoring.




                              These notes are an integral part of the financial statements.




                                                          - 46 -
              FY 2012 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

B.   Basis of Presentation

     These financial statements have been prepared from the books and records of the Department in
     accordance with United States generally accepted accounting principles issued by the Federal Accounting
     Standards Advisory Board (FASAB) and presentation guidelines in the Office of Management and
     Budget (OMB) Circular A-136, Financial Reporting Requirements. These financial statements are
     different from the financial reports prepared pursuant to OMB directives which are used to monitor and
     control the use of the Department’s budgetary resources. The accompanying financial statements include
     the accounts of all funds under the Department’s control. To ensure that the Department financial
     statements are meaningful at the entity level and to enhance reporting consistency within the Department,
     Other Assets and Other Liabilities as defined by OMB Circular A-136 have been disaggregated on the
     balance sheet. These include Forfeited Property, Net; Advances and Prepayments; Accrued Grant
     Liabilities; Accrued Federal Employees’ Compensation Act (FECA) Liabilities; Custodial Liabilities;
     Accrued Payroll and Benefits; Accrued Annual and Compensatory Leave Liabilities; Deferred Revenue;
     Seized Cash and Monetary Instruments; Contingent Liabilities; Capital Lease Liabilities; Radiation
     Exposure Compensation Act (RECA) Liabilities; and September 11th Victim Compensation Fund
     Liabilities.

C.   Basis of Consolidation

     The consolidated/combined financial statements of the Department include the accounts of the
     AFF/SADF, OBDs, USMS, OJP, DEA, FBI, ATF, BOP, and FPI. All significant proprietary
     intra-departmental transactions and balances have been eliminated in consolidation. The Statements of
     Budgetary Resources and Statements of Custodial Activity are combined statements for FYs 2012 and
     2011, and as such, intra-departmental transactions have not been eliminated.

D.   Basis of Accounting

     Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual basis,
     revenues are recorded when earned and expenses are recorded when incurred, regardless of when cash
     is exchanged. Under the budgetary basis, however, funds availability is recorded based upon legal
     considerations and constraints. As a result, certain line items on the proprietary financial statements
     may not equal similar line items on the budgetary financial statements. FPI is non-appropriated and
     self-sustaining. While FPI performs budgetary accounting in preparing its financial statements, FPI
     does not record budgetary information at the transaction level.

     Custodial activity reported on the Combined Statement of Custodial Activity is prepared on the
     modified cash basis. Civil and Criminal Debt Collections are recorded when the Department receives
     payment from debtors. Accrual adjustments are made related to collections of fees and licenses.

     The financial statements should be read with the realization that they are for a component of the U.S.
     Government, a sovereign entity. One implication of this is that liabilities cannot be liquidated without
     legislation that provides resources and legal authority to do so.




                             These notes are an integral part of the financial statements.




                                                   - 47 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

E. Non-Entity Assets

   Non-entity assets are not available for use by the Department and consist primarily of restricted
   undisbursed civil and criminal debt collections, seized cash, accounts receivable, and other monetary
   assets.
F. Fund Balance with U.S. Treasury and Cash

    Funds with the Department of the Treasury (Treasury) represent primarily appropriated, revolving, and
    trust funds available to pay current liabilities and finance future authorized purchases. The Treasury, as
    directed by authorized certifying officers, processes cash receipts and disbursements. The Department
    does not, for the most part, maintain cash in commercial bank accounts. Certain receipts, however, are
    processed by commercial banks for deposit into individual accounts maintained at the Treasury. The
    Department’s cash and other monetary assets consist of undeposited collections, imprest funds, cash used
    in undercover operations, cash held as evidence, and seized cash.

G. Investments

    Investments are market-based Treasury securities issued by the Bureau of Public Debt. When securities
    are purchased, the investment is recorded at face value (the value at maturity). The Department’s intent is
    to hold investments to maturity, unless the invested funds are needed to sustain operations. No provision
    is made for unrealized gains or losses on these securities because, in the majority of cases, they are held to
    maturity. The market value of the investments is the current market value at the end of the reporting
    period. It is calculated by using the “End of Day” price listed in The FedInvest Price File which can be
    found on the Bureau of Public Debt website (http://www.fedinvest.gov/). Investments are reported on the
    Consolidated Balance Sheet at their net value, the face value plus or minus any unamortized premium or
    discount. Premiums and discounts are amortized over the life of the Treasury security. The interest
    method is used for the amortization of premium and discount of Treasury notes and the straight-line
    method is used for Treasury bills. Amortization is based on the straight-line method over the term of the
    securities.

    The AFF, the U.S. Trustee System Fund, and the Federal Prison Commissary Fund are three earmarked 

    funds that invest in Treasury securities. The Treasury does not set aside assets to pay future expenditures 

    associated with earmarked funds. Instead, the cash generated from earmarked funds is used by the 

    Treasury for general Government purposes. When these earmarked funds redeem their Treasury securities 

    to make expenditures, the Treasury will finance the expenditures in the same manner that it finances all 

    other expenditures. 


    Treasury securities are issued to the earmarked funds as evidence of earmarked receipts and provide the 

    funds with the authority to draw upon the U.S. Treasury for future authorized expenditures. 

    Treasury securities held by an earmarked fund are an asset of the fund and a liability of the Treasury, so 

    they are eliminated in consolidation for the U.S. Government-wide financial statements. 





                                These notes are an integral part of the financial statements.




                                                            - 48 -
               FY 2012 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

H.   Accounts Receivable

     Net accounts receivable includes reimbursement and refund receivables due from federal agencies and
     the public, less the allowance for doubtful accounts. Generally, most intragovernmental accounts
     receivable are considered fully collectible. The allowance for doubtful accounts for public receivables
     is estimated based on past collection experience and analysis of outstanding receivable balances at
     year end.

I.   Inventory and Related Property

     Inventory is maintained primarily for the manufacture of goods for sale to customers. This inventory
     is composed of three categories: Raw Materials, Work in Process, and Finished Goods. Raw material
     inventory value is based upon moving average costs. Inventories are valued at the lower of average
     cost or market value (LCM) and include materials, labor and manufacturing overhead. Market value is
     calculated on the basis of the contractual or anticipated selling price, less allowance for administrative
     expenses. DOJ values its finished goods and sub-assembly items at a standard cost that is periodically
     adjusted to approximate actual cost. DOJ has established inventory allowances to account for LCM
     adjustments and obsolete items that may not be utilized in future periods.

     Additional inventories consist of new and rehabilitated office furniture, equipment and supplies used
     for the repair of airplanes, administrative supplies and materials, commissary sales to inmates (sundry
     items), metals, plastics, electronics, graphics, and optics.

J.   General Property, Plant and Equipment

     With the exception of land, real property and leasehold improvements are capitalized when the cost of
     acquiring and/or improving the asset is $100 or more and the asset has a useful life of two or more
     years. Land is capitalized regardless of the acquisition cost. Real property is depreciated or
     amortized, based on historical cost, using the straight-line method over the estimated useful life of the
     asset.

     Except for BOP and FPI, Department acquisitions of personal property, excluding internal use
     software, costing $25 or more is capitalized if the asset has an estimated useful life of two or more
     years. Personal property is depreciated, based on historical cost, using the straight-line method over
     the estimated useful life of the asset. BOP and FPI capitalize personal property acquisitions over $5
     and $10, respectively.

     Internal use software is capitalized when developmental phase costs or enhancement costs are $500 or
     more and the asset has an estimated useful life of two or more years. Aircraft are capitalized when the
     initial cost of acquiring those assets is $100 or more. Internal use software and aircraft are depreciated,
     based on historical cost, using the straight-line method over the estimated useful life of the asset.




                             These notes are an integral part of the financial statements.




                                                   - 49 -
               FY 2012 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

K.   Advances and Prepayments

     Advances and prepayments, classified as assets on the Consolidated Balance Sheets, consist primarily
     of funds disbursed to grantees in excess of total expenditures made by those grantees to third parties,
     funds advanced to state and local participants in the DEA Domestic Cannabis Eradication and
     Suppression Program, and travel advances issued to federal employees for official travel. Travel
     advances are limited to meals and incidental expenses expected to be incurred by the employees
     during official travel. Payments in advance of the receipt of goods and services are recorded as
     prepaid charges at the time of payment and are recognized as expenses when the goods and services
     are received.

L.   Forfeited and Seized Property

     Forfeited property is property for which the title has passed to the U.S. Government. This property is
     recorded at the estimated fair market value at the time of forfeiture and is not adjusted for any
     subsequent increases and decreases in estimated fair market value. The value of the property is
     reduced by the estimated liens of record.

     Property is seized in consequence of a violation of public law. Seized property can include monetary
     instruments, real property, and tangible personal property of others in the actual or constructive
     possession of the custodial agency. Most non-cash property is held by the USMS from the point of
     seizure until its disposition. This property is recorded at the estimated fair market value at the time of
     seizure and is not adjusted for any subsequent increases and decreases in estimated fair market value.

M.   Liabilities

     Liabilities represent the monies or other resources that are likely to be paid by the Department as the
     result of a transaction or event that has already occurred. However, no liability can be paid by the
     Department absent proper budget authority. Liabilities that are not funded by the current year
     appropriation are classified as liabilities not covered by budgetary resources in Note 11. Accrued
     payroll and benefits are accrued based on the number of days in a pay period earned but not paid to
     employees at the end of the fiscal year.

N.   Accrued Grant Liabilities

     Disbursements of grant funds are recognized as expenses at the time of disbursement. However, some
     grant recipients incur expenditures prior to initiating a request for disbursement based on the nature of
     the expenditures. The OBDs and OJP accrue a liability for expenditures incurred by grantees prior to
     receiving grant funds for expenditures. The amount to be accrued is determined through an analysis of
     historic grant expenditures. These estimates are based on the most current information available at the
     time the financial statements are prepared.

     Estimates for the grant accrual contain assumptions that have an impact on the financial statements.
     The key assumptions used in the grant accrual are: grantees have consistent spending patterns


                             These notes are an integral part of the financial statements.




                                                         - 50 -
               FY 2012 U. S. Department of Justice Annual Financial Statements

                               Notes to the Financial Statements
                               (Dollars in Thousands, Except as Noted)

N.   Accrued Grant Liabilities (continued)

     throughout the life of the grant, grantees will drawdown throughout the life of the grant, and the grant
     has a determined end date. The primary elements of these assumptions include, but are not limited to,
     type of grant that has been awarded, grant period, accounting basis used by the grantees, and the grant
     expenditure rate.

O.   Contingencies and Commitments

     The Department is involved in various administrative proceedings, legal actions, and claims. The
     balance sheet includes an estimated liability for those legal actions where management and the Chief
     Counsel consider adverse decisions “probable” and amounts are reasonably estimable. Legal actions
     where management and the Chief Counsel consider adverse decisions “probable” or “reasonably
     possible” and the amounts are reasonably estimable are disclosed in Note 16. However, there are
     cases where amounts have not been accrued or disclosed because the amounts of the potential loss
     cannot be estimated or the likelihood of an unfavorable outcome is considered “remote”.

P.   Annual, Sick, and Other Leave

     Annual and compensatory leave is expensed with an offsetting liability as it is earned and the liability
     is reduced as leave is taken. Each year, the balance in the accrued annual leave liability account is
     adjusted to reflect current pay rates. To the extent current or prior year appropriations are not
     available to fund annual and compensatory leave earned but not taken, funding will be obtained from
     future financing sources. Sick leave and other types of nonvested leave are expensed as taken.

Q.   Interest on Late Payments

     Pursuant to the Prompt Payment Act, 31 U.S.C. § 3901-3907, the Department pays interest on
     payments for goods or services made to business concerns after the due date. The due date is
     generally 30 days after receipt of a proper invoice or acceptance of the goods or services, whichever is
     later.

R.   Retirement Plan

     With few exceptions, employees hired before January 1, 1984 are covered by the Civil Service
     Retirement System (CSRS) and employees hired on or after that date are covered by the Federal
     Employees Retirement System (FERS). For employees covered by CSRS, the Department contributes
     7% of the employees’ gross pay for regular and 7.5% for law enforcement officers’ retirement. For
     employees covered by FERS, the Department contributes 11.9% of the employees’ gross pay for
     regular and 26.3% for law enforcement officers’ retirement. All employees are eligible to contribute
     to the Federal Thrift Savings Plan (TSP). For those employees covered by the FERS, a TSP account is
     automatically established to which the Department is required to contribute an additional 1% of gross
     pay and match employee contributions up to 4%. No contributions are made to the TSP accounts
     established by the CSRS employees. The Department does not report CSRS or FERS assets,
     accumulated plan benefits, or unfunded liabilities, if any, which may be applicable to its employees.

                            These notes are an integral part of the financial statements.




                                                  - 51 -
               FY 2012 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

R.   Retirement Plan (continued)

     Such reporting is the responsibility of the Office of Personnel Management (OPM). Statement of
     Federal Financial Accounting Standards (SFFAS) No. 5, Accounting for Liabilities of the Federal
     Government, requires employing agencies to recognize the cost of pensions and other retirement
     benefits during their employees’ active years of service. Refer to Note 19, Imputed Financing from
     Costs Absorbed by Others, for additional details.

S.   Federal Employee Compensation Benefits

     The FECA provides income and medical cost protection to covered federal civilian employees injured
     on the job, employees who have incurred a work-related occupational disease, and beneficiaries of
     employees whose death is attributable to a job-related injury or occupational disease. The total FECA
     liability consists of an actuarial and an accrued portion as discussed below.

     Actuarial Liability: The Department of Labor (DOL) calculates the liability of the federal government
     for future compensation benefits, which includes the expected liability for death, disability, medical,
     and other approved costs. The liability is determined using the paid-losses extrapolation method
     calculated over the next 37-year period. This method utilizes historical benefit payment patterns
     related to a specific incurred period to predict the ultimate payments related to that period. The
     projected annual benefit payments are discounted to present value. The resulting federal government
     liability is then distributed by agency. The Department’s portion of this liability includes the
     estimated future cost of death benefits, workers' compensation, medical, and miscellaneous cost for
     approved compensation cases for the Department employees. The Department liability is further
     allocated to component reporting entities on the basis of actual payments made to the FECA Special
     Benefits Fund (SBF) for the three prior years as compared to the total Department payments made
     over the same period.

     The FECA actuarial liability is recorded for reporting purposes only. This liability constitutes an
     extended future estimate of cost, which will not be obligated against budgetary resources until the
     fiscal year in which the cost is actually billed to the Department. The cost associated with this liability
     cannot be met by the Department without further appropriation action.

     Accrued Liability: The accrued FECA liability is the amount owed to the DOL for the benefits paid
     from the FECA SBF directly to Department employees.

T.   Intragovernmental Activity

     Intragovernmental costs and exchange revenue represent transactions made between two reporting
     entities within the federal government. Costs and earned revenues with the public represent exchange
     transactions made between the reporting entity and a non-federal entity. The classification of revenue
     or cost as “intragovernmental” or “with the public” is defined on a transaction-by-transaction basis.
     The purpose of this classification is to enable the federal government to prepare consolidated financial
     statements, not to match public and intragovernmental revenue with the costs incurred to produce
     public and intragovernmental revenue.

                             These notes are an integral part of the financial statements.




                                                         - 52 -
               FY 2012 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                               (Dollars in Thousands, Except as Noted)

U.   Revenues and Other Financing Sources

     The Department receives the majority of funding needed to support its programs through
     Congressional appropriations. The Department receives annual, multi-year, and no-year
     appropriations that may be used, within statutory limits, for operating and capital expenditures.
     Additional funding is obtained through exchange revenues, nonexchange revenues, and transfers-in.

     Appropriations Used are recognized as budgetary financing sources at the time the related program or
     administrative expenses are incurred. Exchange revenues are recognized when earned, for example,
     when goods have been delivered or services rendered. Nonexchange revenues are resources that the
     Government demands or receives, for example, forfeiture revenue and fines and penalties.

     The Department’s exchange revenue consists of the following activities: licensing fees to manufacture
     and distribute controlled substances; services rendered for legal activities; space management; data
     processing services; sale of merchandise and telephone services to inmates; sale of manufactured
     goods and services to other federal agencies; and other services. Fees are set by law and are The
     Department’s exchange revenue consists of the following activities: licensing fees to manufacture and
     distribute controlled substances; services rendered for legal activities; space management; data
     processing services; sale of merchandise and telephone services to inmates; sale of manufactured
     goods and services to other federal agencies; and other services. Fees are set by law and are
     periodically evaluated in accordance with OMB guidance.

     The Department’s nonexchange revenue consists of forfeiture income resulting from the sale of
     forfeited property, penalties in lieu of forfeiture, recovery of returned asset management cost,
     judgment collections, and other miscellaneous income. Other nonexchange revenue includes the OJP
     Crime Victims Fund receipts, ATF fees from firearms and ammunition industries, and AFF/SADF
     interest on investments with the Treasury.

     The Department’s deferred revenue includes fees received for processing various applications and
     licenses with DEA for which the process was not completed at the end of fiscal year or for licenses
     that are valid for multiple years. These monies are recorded as liabilities in the financial statements.
     Deferred revenue also includes forfeited property held for sale. When the property is sold, deferred
     revenue is reversed and forfeiture revenue in the amount of the gross proceeds of the sale is recorded.

V.   Earmarked Funds

     SFFAS No. 27, Identifying and Reporting Earmarked Funds, defines ‘earmarked funds’ as being
     financed by specifically identified revenues, often supplemented by other financing sources, which
     remain available over time. These specifically identified revenues and other financing sources are
     required by statute to be used for designated activities, benefits or purposes, and must be accounted for
     separately from the government’s general revenues. The three required criteria for an Earmarked Fund
     are:




                            These notes are an integral part of the financial statements.




                                                  - 53 -
               FY 2012 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)


V.   Earmarked Funds (continued)

     1.	 A statute committing the federal government to use specifically identified revenues and other
         financing sources only for designated activities, benefits or purposes;
     2.	 Explicit authority for the earmarked fund to retain revenues and other financing sources not used
         in the current period for future use to finance the designated activities, benefits, or purposes; and
     3.	 A requirement to account for and report on the receipt, use, and retention of the revenues and other
         financing sources that distinguishes the earmarked fund from the Government’s general revenues.

     The following funds meet the definition of an earmarked fund: AFF, U.S. Trustee System Fund,
     Antitrust Division, Crime Victims Fund, Diversion Control Fee Account, and Federal Prison
     Commissary Fund.

W.   Allocation Transfer of Appropriation

     The Department is a party to allocation transfers with other federal agencies as a transferring (parent)
     entity and/or a receiving (child) entity. Allocation transfers are legal delegations by one department of
     its authority to obligate budget authority and outlay funds to another department. Generally, all
     financial activity related to these allocation transfers (e.g., budget authority, obligations, outlays) is
     reported in the financial statements of the parent entity, from which the underlying legislative
     authority, appropriations, and budget apportionments are derived. Two exceptions to this general rule
     affecting the Department include the funds transferred from the Judicial Branch to the USMS, and
     funds transferred from the Executive Office of the President to OJP. Per OMB’s guidance, USMS and
     OJP report all activity relative to these allocation transfers in the respective financial statements.

     The activity related to these transfers, included as part of these financial statements, is highlighted
     below:

     OJP, as the parent, transfers funds from the Crime Victims Fund to the Department of Health and
     Human Services (HHS). This transfer is required by 42 U.S.C. §10603a {Sec. 14-4A} for Child
     Abuse Prevention and Treatment Grants. Amounts made available by section §10601(d)(2) of this
     title, for the purposes of this section, are to be obligated and expended by the Secretary of HHS for
     grants under section §5106c of this title.

     OJP receives, as a child entity, allocation transfers of appropriations from the Executive Office of
     the President. This transfer is authorized by P.L. 111-117 and P.L. 112-74. Per OMB guidance
     OJP reports all budgetary and proprietary activity for Do Right by Youth Pilot transferred from
     the Executive Office of the President to OJP.

     The Department also allocated funds from BOP, as the parent, to the Public Health Service (PHS), a
     primary division of the Department of Health and Human Services (HHS). PHS provides a portion
     of medical treatment for federal inmates. The money is designated and expended for current year
     obligation of PHS staff salaries, benefits, and applicable relocation expenses.


                             These notes are an integral part of the financial statements.




                                                         - 54 -
                FY 2012 U. S. Department of Justice Annual Financial Statements

                                 Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

W.    Allocation Transfer of Appropriation (continued)

      USMS, as the child, receives allocation transfers of appropriation from the Administrative Office of
      the U.S. Courts. The allocation transfers are used for costs associated with protective guard services -
      Court Security Officers at United States courthouses and other facilities housing federal court
      operations. These costs include their salaries (paid through contracts), equipment, and supplies. This
      transfer is performed on an annual basis.

X.    Tax Exempt Status

      As an agency of the federal government, the Department is exempt from all income taxes imposed by
      any governing body whether it be a federal, state, commonwealth, local or foreign government.

Y.    Use of Estimates

      The preparation of financial statements requires management to make certain estimates and
      assumptions that affect the reported amounts of assets and liabilities and the reported amounts of
      revenue and expenses during the reporting period. Actual results could differ from those estimates.

Z.    Reclassifications

      The FY 2011 financial statements were reclassified to conform to the FY 2012 Departmental financial
      statement presentation requirements. The Department has realigned its Statement of Net Cost and
      Note 18, Net Cost of Operations by Suborganization to further align to the revised goal structure in
      accordance with the Department’s Strategic Plan. Also, changes to the presentation of the Combined
      and Combining Statements of Budgetary Resources were made, in accordance with guidance
      provided in OMB Circular A-136 and as such, activity and balances reported on the FY 2011
      Combined and Combining Statement of Budgetary Resources have been reclassified to conform to the
      presentation in the current year. Certain other prior year amounts have also been reclassified to
      conform with the current year presentation. The reclassifications have no material effect on total
      assets, liabilities, net position, change in net position or budgetary resources, as previously reported.

AA.   Subsequent Events

      Subsequent events and transactions occurring after September 30, 2012 through the date of the
      auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
      statements. The date of the auditors’ opinion also represents the date that the financial statements were
      available to be issued.




                             These notes are an integral part of the financial statements.




                                                   - 55 -
                 FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 2. Non-Entity Assets

As of September 30, 2012 and 2011
                                                                      2012                      2011

 Intragovernmental
    Fund Balance with U.S. Treasury                            $      1,294,306          $         727,647
    Investments, Net                                                  1,516,625                  3,989,294
      Total Intragovernmental                                         2,810,931                  4,716,941

 With the Public
   Cash and Monetary Assets                                            229,373                     233,376
   Accounts Receivable, Net                                              4,032                       7,304
      Total With the Public                                            233,405                     240,680
      Total Non-Entity Assets                                        3,044,336                   4,957,621
      Total Entity Assets                                           40,146,378                  37,835,469
      Total Assets                                             $    43,190,714           $      42,793,090




                                These notes are an integral part of the financial statements.




                                                            - 56 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 3. Fund Balance with U.S. Treasury

The Fund Balances with U.S. Treasury represent the unexpended balances on the Department’s books for all
the Department’s Treasury Symbols.

As of September 30, 2012 and 2011
                                                                      2012                      2011
 Fund Balances
   Trust Funds                                                 $       100,106           $         104,879
   Special Funds                                                     9,564,996                   7,609,838
   Revolving Funds                                                     572,010                     473,319
   General Funds                                                    14,447,788                  15,105,225
   Other Fund Types                                                     60,398                      61,191
     Total Fund Balances with U.S. Treasury                    $    24,745,298           $      23,354,452

 Status of Fund Balances
   Unobligated Balance - Available                             $     2,948,354           $       2,637,205
   Unobligated Balance - Unavailable                                 1,088,078                   1,245,118
   Obligated Balance not yet Disbursed                              15,040,015                  14,885,994
   Other Funds (With)/Without Budgetary Resources                    5,668,851                   4,586,135
      Total Status of Fund Balances                            $    24,745,298           $      23,354,452

Annual and multi-year budget authority expires at the end of its period of availability. During the first through
the fifth expired years, the unobligated balance is unavailable and may only be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a legitimate or bona fide
need arising in the fiscal year for which the appropriation was made. The unobligated balance for no-year
budget authority may be used to incur obligations indefinitely for the purpose specified by the appropriation
act. No-year budget authority unobligated balances are still subject to the annual apportionment and allotment
process.

Unobligated Balance - Unavailable includes amounts appropriated in prior fiscal years that are no longer
available to fund new obligations, but can be used for upward and/or downward adjustments for existing
obligations. Additionally, this line includes amounts received that are restricted to future use and as a result
are not apportioned for current use. Other restricted funds include the collections of fees in excess of amounts
budgeted for administering the Diversion Control Program. These collections may not be used until
authorized by Congress.

Other Funds (With)/Without Budgetary Resources primarily represent the net of 1) investments in short-term
securities with budgetary resources, 2) resources temporarily not available pursuant to public law,
3) custodial liabilities, and 4) miscellaneous receipts.




                                These notes are an integral part of the financial statements.




                                                      - 57 -
                 FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 4. Cash and Monetary Assets

As of September 30, 2012 and 2011
                                                                      2012                      2011
 Cash
   Undeposited Collections                                     $           16,439        $         2,813
   Imprest Funds                                                           14,876                 14,071
   Seized Cash Deposited                                                   82,166                 87,243
   Other Cash                                                              72,557                 72,700
      Total Cash                                                          186,038                176,827
 Monetary Assets
   Seized Monetary Instruments                                             74,644                 73,426
      Total Cash and Monetary Assets                           $          260,682        $       250,253

The majority of Other Cash consists of project-generated proceeds from undercover operations.

Note 5. Investments, Net

                                                      Unamortized
                                       Face             Premium                 Interest        Investments,    Market
                                       Value           (Discount)              Receivable           Net          Value
As of September 30, 2012
 Intragovernmental
    Non-Marketable Securities
      Market Based                 $ 6,213,792         $           (76)    $          187       $ 6,213,903    $ 6,214,504




As of September 30, 2011
 Intragovernmental
    Non-Marketable Securities
      Market Based                 $ 6,919,892         $       (137)       $            44      $ 6,919,799    $ 6,920,238




                                These notes are an integral part of the financial statements.




                                                            - 58 -
                 FY 2012 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 6. Accounts Receivable, Net

As of September 30, 2012 and 2011
                                                                     2012                      2011
 Intragovernmental
    Accounts Receivable                                       $        324,425          $       380,562
    Allowance for Uncollectible Accounts                                   (98)                    (131)
       Total Intragovernmental                                         324,327                  380,431

 With the Public
   Accounts Receivable                                                 131,503                  141,934
   Allowance for Uncollectible Accounts                                (15,891)                 (16,036)
      Total With the Public                                            115,612                  125,898
      Total Accounts Receivable, Net                          $        439,939          $       506,329


Intragovernmental accounts receivable consists mainly of amounts due under reimbursable agreements with
federal entities for services and goods provided.

The accounts receivable with the public primarily consists of OBDs U.S. Trustee Chapter 11 quarterly fees,
FBI Non-Federal User Fee Program, FBI National Name Check Program, court mandated restitution, and
refunds due from the public.

Note 7. Inventory and Related Property, Net

As of September 30, 2012 and 2011
                                                                     2012                      2011
 Inventory
   Raw Materials                                              $          45,078         $        42,832
   Work in Process                                                       26,081                  30,583
   Finished Goods                                                        53,949                  60,697
   Inventory Purchased for Resale                                        19,715                  18,286
   Excess, Obsolete, and Unserviceable                                   30,562                  27,087
   Inventory Allowance                                                  (26,416)                (27,265)

 Operating Materials and Supplies
   Held for Current Use                                                 17,640                   18,669
     Total Inventory and Related Property, Net                $        166,609         $        170,889




                               These notes are an integral part of the financial statements.




                                                     - 59 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property

Equitable Sharing Payments:

The statute governing the use of the AFF (28 U.S.C. § 524(c)) permits the payment of equitable shares of
forfeiture proceeds to participating foreign governments and state and local law enforcement agencies. The
statute does not require such sharing and permits the Attorney General wide discretion in determining those
transfers. Actual sharing is difficult to predict because many factors influence both the amount and timing of
disbursement of equitable sharing payments, such as the length of time required to move an asset through the
forfeiture process to disposition, the amount of net proceeds available for sharing, the elapse of time for
Departmental approval of equitable sharing requests for cases with asset values exceeding $1 million, and
appeal of forfeiture judgments. Because of uncertainties surrounding the timing and amount of any equitable
sharing payment, an obligation and expense are recorded only when the actual disbursement of the equitable
sharing payment is imminent. The anticipated equitable sharing allocation level for FY 2013 is $446 million.

Analysis of Change in Forfeited Property:

The number of items represents quantities calculated using many different units of measure. If necessary, the
adjustments column includes property status and valuation changes received after, but properly credited to the
appropriate fiscal years. The valuation changes include updates and corrections to an asset’s value recorded in
the prior year.




                               These notes are an integral part of the financial statements.




                                                           - 60 -
                     FY 2012 U. S. Department of Justice Annual Financial Statements

                                             Notes to the Financial Statements
                                          (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

For the Fiscal Year Ended September 30, 2012

  Forfeited                                                                                                        Liens               Ending
  Property                    Beginning        Adjust-                                              Ending          and               Balance,
  Category                     Balance         ments          Forfeitures         Disposals         Balance        Claims            Net of Liens

 Financial      Number                 117            -                 283               (222)            178                -                 178
 Instruments    Value     $          1,730     $      -   $          25,544   $        (25,945) $        1,329 $           (658) $              671

 Real           Number                 452            -                 390               (424)            418                -                418
 Property       Value     $         98,008     $      -   $          64,732   $        (80,744) $       81,996 $           (977) $          81,019

 Personal       Number               3,384             -              6,156             (5,682)          3,858                -              3,858
 Property       Value     $         74,846     $ (16,146) $          80,856   $        (75,584) $       63,972 $           (551) $          63,421

 Non-Valued
   Firearms     Number              23,593            -              17,525            (14,322)         26,796                -             26,796

 Total          Number              27,546            -              24,354            (20,650)         31,250                -             31,250
                Value     $        174,584     $ (16,146) $        171,132    $       (182,273) $      147,297 $       (2,186) $           145,111

For the Fiscal Year Ended September 30, 2011

  Forfeited                                                                                                        Liens               Ending
  Property                    Beginning        Adjust-                                              Ending          and               Balance,
  Category                     Balance         ments          Forfeitures         Disposals         Balance        Claims            Net of Liens

 Financial      Number                  97            -                 155               (135)            117                -                117
 Instruments    Value     $          2,219     $      -   $          15,822   $        (16,311) $        1,730 $              - $            1,730

 Real           Number                 477            -                 315               (340)            452                -                452
 Property       Value     $         89,018     $      -   $          74,928   $        (65,938) $       98,008 $           (866) $          97,142

 Personal       Number               3,047            -               5,996             (5,659)          3,384                -              3,384
 Property       Value     $        102,196     $      -   $          93,813   $       (121,163) $       74,846 $           (972) $          73,874

 Non-Valued
   Firearms     Number              19,378            -              16,231            (12,016)         23,593                -             23,593

 Total          Number              22,999            -              22,697            (18,150)         27,546                -             27,546
                Value     $        193,433     $      -   $        184,563    $       (203,412) $      174,584 $       (1,838) $           172,746




                                      These notes are an integral part of the financial statements.




                                                                 - 61 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

Method of Disposition of Forfeited Property:

During FYs 2012 and 2011, $132,710 and $165,406 of forfeited property were sold, $2,672 and $16,211 were
destroyed or donated, $10,349 and $9,262 were returned to owners, and $36,542 and $12,533 were disposed of
by other means, respectively. Other means of disposition include property transferred to other federal agencies
for official use or equitable sharing, or property distributed to a state or local agency.

Analysis of Change in Seized Property:

Property seized for any purpose other than forfeiture and held by the seizing agency or a custodial agency
should be disclosed by the seizing agency. All property seized for forfeiture, including property with
evidentiary value, will be reported by the AFF/SADF. The Department has established a reporting threshold
of $1 or more for Personal Property seized for evidentiary purposes.

A seizure is the act of taking possession of goods in consequence of a violation of public law. Seized property
consists of seized cash, monetary instruments, real property and tangible personal property in the actual or
constructive possession of the seizing and the custodial agencies. The Department, until judicially or
administratively forfeited, does not legally own such property. Seized evidence includes cash, financial
instruments, non-monetary valuables, firearms, and drugs. The AFF/SADF reports property seized for
forfeiture and the FBI, DEA, and ATF report property seized for evidence.

The adjustments for FYs 2012 and 2011 include property status and valuation changes received after, but
properly credited to FYs 2011 and 2010, respectively. The valuation changes include updates and corrections
to an asset’s value recorded in a prior year. During FY 2011, the DEA had access to better information that
allowed the reporting of partial destructions of drugs held for evidence at the time of partial destruction rather
than at the time the exhibit was fully destroyed. Therefore, the DEA has recorded an adjustment in the
FY 2011 “Adjustment” column to primarily reflect the partial destruction of exhibits destroyed in prior years.
ATF’s adjustments for non-valued firearms are items determined to be seized for evidence that were not
included in the seized for evidence balances in prior years.

The DEA, FBI, and ATF have custody of drugs taken as evidence for legal proceedings. In accordance with
Federal Financial Accounting and Auditing Technical Release No. 4, Reporting on Non-Valued Seized and
Forfeited Property, the Department reports the total amount of seized drugs by quantity only, as drugs have no
value and are destroyed upon resolution of legal proceedings.




                                These notes are an integral part of the financial statements.




                                                            - 62 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

Analyzed drug evidence includes cocaine, heroin, marijuana and methamphetamine and represents actual
laboratory tested classification and weight in kilograms (KG). Since enforcing the controlled substances laws
and regulations of the United States is a primary mission of the DEA, the DEA reports all analyzed drug
evidence regardless of seizure weight. However, the enforcement of these laws and regulations is incidental to
the missions of the FBI and ATF and therefore they only report those individual seizures exceeding 1 KG in
weight.

“Other” primarily consists of substances, both controlled and non-controlled as defined per the Controlled
Substances Act, other than those discussed above. “Bulk Drug Evidence” is comprised of controlled
substances housed by the DEA in secured storage facilities of which only a sample is taken for laboratory
analysis. The actual bulk drug weight may vary from seizure weight due to changes in moisture content over
time.

Unanalyzed drug evidence is qualitatively different from analyzed and bulk drug evidence because unanalyzed
drug evidence includes the weight of packaging and drug categories are based on the determination of Special
Agents instead of laboratory chemists. For these reasons, unanalyzed drug evidence is not reported by the
Department. Seized drug evidence must be analyzed and confirmed through laboratory testing to be placed in
one of the five categories of drug above.

“Disposals” occur when seized property is forfeited, returned to parties with a bona fide interest, or destroyed
in accordance with federal guidelines.




                                These notes are an integral part of the financial statements.




                                                      - 63 -
                        FY 2012 U. S. Department of Justice Annual Financial Statements

                                          Notes to the Financial Statements
                                         (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

For the Fiscal Year Ended September 30, 2012

                                                                                                          Liens           Ending
      Seized Property                Beginning     Adjust-                                   Ending        and           Balance,
         Category                     Balance       ments      Seizures     Disposals        Balance      Claims        Net of Liens

Seized for Forfeiture

  Seized Cash              Value     $ 4,016,891   $      -   $ 1,587,055   $ (4,067,423) $ 1,536,523    $(125,969) $       1,410,554
  Deposited and
  Seized Monetary
  Instruments

  Financial                Number           477         (135)        328           (150)           520          -                 520
  Instruments              Value  $      53,241    $ (33,852) $   55,920    $    (6,941) $      68,368   $ (4,851) $           63,517

  Real                     Number           146         (2)          131           (148)           127          -                 127
  Property                 Value  $      48,364    $   365 $      35,139    $   (38,784) $      45,084   $ (9,710) $           35,374

  Personal                 Number     7,477               -       8,264         (7,722)         8,019            -              8,019
  Property                 Value  $ 184,003        $      -   $ 107,126     $ (107,332) $     183,797    $ (16,667) $         167,130

  Non-Valued
    Firearms               Number        36,915           -       19,716        (23,059)        33,572             -           33,572


For the Fiscal Year Ended September 30, 2011

                                                                                                          Liens           Ending
      Seized Property                Beginning     Adjust-                                   Ending        and           Balance,
         Category                     Balance       ments      Seizures     Disposals        Balance      Claims        Net of Liens

Seized for Forfeiture

  Seized Cash              Value     $ 1,424,806   $      -   $ 3,844,026   $ (1,251,941) $ 4,016,891    $ (92,080) $       3,924,811
  Deposited and
  Seized Monetary
  Instruments

  Financial                Number           413         (109)        274           (101)           477          -                 477
  Instruments              Value  $      99,712    $ (66,438) $   24,101    $    (4,134) $      53,241   $ (3,236) $           50,005

  Real                     Number           183           -          153           (190)           146           -                146
  Property                 Value  $      61,270    $      -   $   49,431    $   (62,337) $      48,364   $ (16,030) $          32,334

  Personal                 Number     7,319               -       7,171         (7,013)         7,477            -              7,477
  Property                 Value  $ 161,552        $      -   $ 124,371     $ (101,920) $     184,003    $ (16,209) $         167,794

  Non-Valued
    Firearms               Number        34,281           -       23,858        (21,224)        36,915             -           36,915


                                      These notes are an integral part of the financial statements.




                                                                   - 64 -
                        FY 2012 U. S. Department of Justice Annual Financial Statements

                                               Notes to the Financial Statements
                                               (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

For the Fiscal Year Ended September 30, 2012
                                                                                                             Liens              Ending
      Seized Property                Beginning     Adjust-                                       Ending       and              Balance,
         Category                     Balance      ments         Seizures     Disposals          Balance     Claims           Net of Liens


Seized for Evidence

  Seized Monetary          Value     $    46,847   $ (2,185) $      33,100    $     (27,118) $      50,644   $        -   $          50,644
  Instruments

  Personal                 Number          1,421          41           323             (371)         1,414            -               1,414
  Property                 Value  $       36,379   $     (35) $      9,673    $     (15,680) $      30,337   $        -   $          30,337

  Non-Valued
    Firearms               Number         62,595        (197)       16,088          (14,155)        64,331            -              64,331
    Drug Evidence
      Cocaine              KG             56,161          421        28,033         (31,031)        53,584            -              53,584
      Heroin               KG              3,108          (50)        1,124            (761)         3,421            -               3,421
      Marijuana            KG             17,807         (321)        4,626          (4,689)        17,423            -              17,423
      Bulk Drug Evidence   KG            278,152          252       995,893        (876,653)       397,644            -             397,644
      Methamphetamine      KG              6,957           10         3,413          (1,877)         8,503            -               8,503
      Other                KG             24,763       (1,145)        3,923          (5,687)        21,854            -              21,854
    Total Drug Evidence    KG            386,948         (833)    1,037,012        (920,698)       502,429            -             502,429




For the Fiscal Year Ended September 30, 2011
                                                                                                             Liens              Ending
      Seized Property                Beginning     Adjust-                                       Ending       and              Balance,
         Category                     Balance       ments        Seizures     Disposals          Balance     Claims           Net of Liens

Seized for Evidence

  Seized Monetary          Value     $    45,577   $ (4,903) $      45,419    $     (39,246) $      46,847   $        -   $          46,847
  Instruments

  Personal                 Number          1,602       (85)            412             (508)         1,421            -               1,421
  Property                 Value  $       26,691   $ 8,649 $        13,946    $     (12,907) $      36,379   $        -   $          36,379

  Non-Valued
    Firearms               Number         44,465       7,405        14,268            (3,543)       62,595            -              62,595
    Drug Evidence
      Cocaine              KG            278,449   (222,619)         27,429          (27,098)       56,161            -              56,161
      Heroin               KG              3,450       (589)            812             (565)        3,108            -               3,108
      Marijuana            KG             20,061     (1,521)          6,362           (7,095)       17,807            -              17,807
      Bulk Drug Evidence   KG            227,564      1,043       1,058,390       (1,008,845)      278,152            -             278,152
      Methamphetamine      KG              7,622     (1,928)          2,649           (1,386)        6,957            -               6,957
      Other                KG             46,663    (16,935)          3,563           (8,528)       24,763            -              24,763
    Total Drug Evidence    KG            583,809   (242,549)      1,099,205       (1,053,517)      386,948            -             386,948




                                         These notes are an integral part of the financial statements.




                                                                   - 65 -
                 FY 2012 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

Method of Disposition of Seized Property:

During FYs 2012 and 2011, $4,121,701 and $1,297,764 of seized property were forfeited, $100,681 and
$120,156 were returned to parties with a bonafide interest, and $40,896 and $54,566 were either released to a
designated party or transferred to the appropriate federal entity under forfeiture or abandonment procedures.
Non-valued property was primarily disposed of through destruction.

Note 9. General Property, Plant and Equipment, Net

As of September 30, 2012
                                         Acquisition          Accumulated            Net Book        Useful
                                           Cost               Depreciation            Value           Life
 Land and Land Rights                   $ 184,622             $          -          $ 184,622              N/A
 Improvements to Land                          4,926               (1,187)                3,739         15 yrs
 Construction in Progress                   658,901                      -             658,901             N/A
 Buildings, Improvements and
   Renovations                          10,075,903              (4,329,867)            5,746,036      2-50 yrs
 Other Structures and Facilities           887,732                (472,971)              414,761     10-50 yrs
 Aircraft                                  456,739                (151,139)              305,600      5-30 yrs
 Boats                                      12,420                  (7,005)                5,415      5-25 yrs
 Vehicles                                  651,787                (397,427)              254,360      2-25 yrs
 Equipment                               1,743,587              (1,048,698)              694,889      2-25 yrs
 Assets Under Capital Lease                 93,139                 (53,503)               39,636      2-30 yrs
 Leasehold Improvements                  1,498,657                (834,557)              664,100      2-20 yrs
 Internal Use Software                   1,266,385                (455,763)              810,622      2-10 yrs
 Internal Use Software in Development      403,463                       -               403,463          N/A
 Total                                $ 17,938,261            $ (7,752,117)         $ 10,186,144



                                                                  Federal               Public        Total
Sources of Capitalized Property, Plant and Equipment
  Purchases for FY 2012                                       $     230,403         $    843,795   $ 1,074,198




                               These notes are an integral part of the financial statements.




                                                           - 66 -
                 FY 2012 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 9. General Property, Plant and Equipment, Net (continued)

As of September 30, 2011
                                         Acquisition          Accumulated            Net Book        Useful
                                           Cost               Depreciation            Value           Life
 Land and Land Rights                   $ 193,042             $          -          $ 193,042              N/A
 Improvements to Land                          4,584                 (866)                3,718         15 yrs
 Construction in Progress                   894,755                      -             894,755             N/A
 Buildings, Improvements and
   Renovations                           9,578,003              (4,001,606)            5,576,397      2-50 yrs
 Other Structures and Facilities           849,524                (433,515)              416,009     10-50 yrs
 Aircraft                                  450,418                (132,678)              317,740      5-30 yrs
 Boats                                      10,078                  (5,943)                4,135      5-25 yrs
 Vehicles                                  594,285                (368,856)              225,429      2-25 yrs
 Equipment                               1,676,992              (1,007,478)              669,514      2-25 yrs
 Assets Under Capital Lease                105,246                 (61,623)               43,623      2-30 yrs
 Leasehold Improvements                  1,338,886                (714,246)              624,640      2-20 yrs
 Internal Use Software                     773,237                (287,106)              486,131      3-10 yrs
 Internal Use Software in Development      762,637                       -               762,637          N/A
 Total                                $ 17,231,687            $ (7,013,917)         $ 10,217,770



                                                                  Federal               Public        Total
Sources of Capitalized Property, Plant and Equipment
  Purchases for FY 2011                                       $     229,207         $ 1,023,422    $ 1,252,629




                               These notes are an integral part of the financial statements.




                                                     - 67 -
                    FY 2012 U. S. Department of Justice Annual Financial Statements

                                     Notes to the Financial Statements
                                    (Dollars in Thousands, Except as Noted)

Note 10. Other Assets

As of September 30, 2012 and 2011
                                                                2012                    2011
 Intragovernmental
    Advances and Prepayments                               $      266,561         $       115,075
    Other Intragovernmental Assets                                     12                      28
      Total Intragovernmental                                     266,573                 115,103

   Other Assets With the Public                                     5,585                   5,982
     Total Other Assets                                    $      272,158         $       121,085

Other Intragovernmental Assets include an advance to the United States District Court to initiate the
condemnation proceeding for the acquisition of a prison facility in Illinois. It also includes amounts due from
Treasury General Fund related to ATF. Other Assets With the Public primarily consist of farm livestock held
by the BOP.

Note 11. Liabilities not Covered by Budgetary Resources

As of September 30, 2012 and 2011
                                                                             2012                    2011
 Intragovernmental
    Accrued FECA Liabilities                                           $       257,897           $    247,813
    Other Unfunded Employment Related Liabilities                                1,584                  2,178
    Other                                                                        5,315                  3,690
      Total Intragovernmental                                                  264,796                253,681

 With the Public
   Actuarial FECA Liabilities                                                1,474,278               1,359,360
   Accrued Annual and Compensatory Leave Liabilities                           830,119                 822,891
   Environmental and Disposal Liabilities (Note 12)                             74,441                  72,709
   Deferred Revenue                                                            409,396                 358,742
   Contingent Liabilities (Note 16)                                             28,551                  68,652
   Capital Lease Liabilities (Note 13)                                          16,627                  23,941
   RECA Liabilities (Note 25)                                                  731,237                 535,838
                  th
  September 11 Victim Compensation Fund (Note 25)                            2,766,400                       -
   Other                                                                        99,979                 122,152
      Total With the Public                                                  6,431,028               3,364,285
      Total Liabilities not Covered by Budgetary Resources                   6,695,824               3,617,966
      Total Liabilities Covered by Budgetary Resources                       9,246,161               9,651,511
      Total Liabilities                                                $    15,941,985           $ 13,269,477



                                 These notes are an integral part of the financial statements.




                                                               - 68 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                    Notes to the Financial Statements
                                    (Dollars in Thousands, Except as Noted)

Note 11. Liabilities not Covered by Budgetary Resources (continued)

Generally, liabilities not covered by budgetary resources are liabilities for which Congressional action is
needed before budgetary resources can be provided. However, some liabilities do not require appropriations
and will be liquidated by the assets of the entities holding these liabilities. Such assets include civil and
criminal debt collections, seized cash and monetary instruments, and revolving fund operations.

Other Liabilities with the Public consists primarily of future funded energy savings performance contracts and
utilities.

Note 12. Environmental and Disposal Liabilities

Per SFFAS No. 5, Accounting for Liabilities of the Federal Government, SFFAS No. 6, Accounting for
Property, Plant, and Equipment, and Technical Release No. 2 Determining Probable and Reasonably
Estimable for Environmental Liabilities in the Federal Government, Technical Release No. 10,
Implementation Guidance on Asbestos Cleanup Costs Associated with Facilities and Installed Equipment, and
Technical Release No. 11, Implementation Guidance on Cleanup Costs Associated with Equipment, federal
agencies are required to recognize liabilities for environmental clean-up costs when the future outflow or
sacrifice of resources is probable and reasonably estimable.

Firing Ranges

The BOP operates firing ranges on 66 of the sites where its institutions are located. Use of these firing ranges
generates waste consisting primarily of lead shot and spent rounds from rifles, shotguns, pistols, and automatic
weapons. At operational firing ranges, lead-containing bullets are fired and eventually fall to the ground at or
near the range. As of September 30, 2011, BOP management determined their estimated clean-up liability to
be $26,045. In FY 2012, BOP management adjusted the estimated clean-up liability by the current U.S.
inflation rate as determined by the U.S. Treasury and as such determined that an estimated firing range clean-
up liability of $26,935, based on an inflation rate of 1.9 percent, should be recorded.

Asbestos

BOP conducted a review of 46 institutions that were built prior to 1980; the review provided an estimate of the
extent of friable and non-friable Asbestos Containing Materials (ACM) remaining in each of the institutions as
of October 30, 2009. As of September 30, 2011, BOP management determined their estimated clean-up
liability to be $36,677. As of September 30, 2012, BOP management adjusted the clean-up liability in the
amount of $610 for the removal of asbestos at 2 locations and by the U.S. inflation rate of 1.9 percent as
determined by the U.S. Treasury and as such determined that an estimated asbestos clean-up liability of
$37,287 should be recorded.

The FBI operates facilities in Quantico, Virginia that contain friable and non-friable ACM. The facilities have
a useful life of 50 years. The estimated total liability of $11,613 is based on the square footage of the facilities




                                 These notes are an integral part of the financial statements.




                                                       - 69 -
                   FY 2012 U. S. Department of Justice Annual Financial Statements

                                      Notes to the Financial Statements
                                      (Dollars in Thousands, Except as Noted)

Asbestos (continued)

that may be contaminated. This value, divided by the useful life and multiplied by the number of years in
service, is the estimated cleanup liability. As of September 30, 2012 and 2011, the FBI recognized the
estimated cleanup liability of $10,219 and $9,987, respectively. The estimated asbestos cleanup liability is
increased each quarter by recording future expenses for the asbestos clean-up costs. During FY 2012, future
funded expense for asbestos cleanup is $232. There are no other potentially responsible parties to the
environmental liability and there are no unrecognized amounts to disclose as of September 30, 2012.

Note 13. Leases

Capital leases include a Federal Transfer Center (25 year lease term) in Oklahoma City, Oklahoma; an airplane
hangar (20 year lease term) in Oklahoma City, Oklahoma, which expired in FY 2011 and was not renewed;
and other machinery and equipment that expire over future periods.

As of September 30, 2012 and 2011

 Capital Leases                                                  2012                 2011

 Summary of Assets Under Capital Lease
   Land and Buildings                                      $       89,625         $    100,352
   Machinery and Equipment                                          3,514                4,894
   Accumulated Amortization                                       (53,503)             (61,623)
      Total Assets Under Capital Lease (Note 9)            $       39,636         $     43,623

 Future Capital Lease Payments Due
                                                               Land and          Machinery and
   Fiscal Year                                                 Buildings           Equipment           Total
      2013                                                 $         9,073       $        608      $      9,681
      2014                                                           9,073                 22             9,095
      2015                                                              32                 15                47
      2016                                                              32                 14                46
      2017                                                              32                   -               32
   After 2017                                                           64                   -               64
      Total Future Capital Lease Payments                  $       18,306        $        659      $     18,965
   Less: Imputed Interest                                           (1,679)               (15)           (1,694)
   Less: Executory Costs                                                 -               (175)             (175)
       FY 2012 Net Capital Lease Liabilities               $       16,627        $        469      $     17,096
       FY 2011 Net Capital Lease Liabilities               $       23,941        $      1,200      $     25,141

                                                                                      2012             2011

   Net Capital Lease Liabilities Covered by Budgetary Resources                  $          469    $      1,200

   Net Capital Lease Liabilities not Covered by Budgetary Resources              $       16,627    $     23,941


                                   These notes are an integral part of the financial statements.




                                                                - 70 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 13. Leases (continued)

The net capital lease liability not covered by budgetary resources primarily represents the capital lease of the
Federal Transfer Center for which the Department received Congressional authority to fund with annual
appropriations.

 Future Noncancelable Operating Lease Payments

                                                              Land and              Machinery and
   Fiscal Year                                                Buildings               Equipment                 Total
      2013                                                  $    233,863            $      9,640            $     243,503
      2014                                                       252,603                   4,482                  257,085
      2015                                                       266,289                   4,461                  270,750
      2016                                                       270,881                      78                  270,959
      2017                                                       266,291                      78                  266,369
   After 2017                                                  2,608,046                      30                2,608,076
       Total Future Noncancelable Operating
            Lease Payments                                  $ 3,897,973             $        18,769         $ 3,916,742


Note 14. Seized Cash and Monetary Instruments

The Seized Cash and Monetary Instruments represent liabilities for seized assets held by the Department
pending disposition.

As of September 30, 2012 and 2011
                                                                       2012                     2011

 Investments, Net                                                 $    1,430,357         $      3,903,069
 Seized Cash Deposited                                                    82,166                   87,243
 Seized Monetary Instruments                                              74,644                   73,426
   Total Seized Cash and Monetary Instruments                     $    1,587,167         $      4,063,738




                                These notes are an integral part of the financial statements.




                                                      - 71 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 15. Other Liabilities

As of September 30, 2012 and 2011
                                                                       2012                     2011

 Intragovernmental
    Employer Contributions and Payroll Taxes Payable              $      205,477          $      197,871
    Other Post-Employment Benefits Due and Payable                            23                      25
    Other Unfunded Employment Related Liabilities                          1,584                   2,178
    Advances from Others                                                 152,447                 169,108
    Liability for Clearing Accounts                                        2,550                   1,067
    Other Liabilities                                                      6,632                   7,202
       Total Intragovernmental                                           368,713                 377,451

With the Public
   Other Accrued Liabilities                                               5,945                   5,645
   Advances from Others                                                   11,020                   6,992
   Liability for Nonfiduciary Deposit Funds
      and Undeposited Collections                                         61,803                  60,688
   Liability for Clearing Accounts                                           482                     405
   Custodial Liabilities                                                 209,775                 152,987
   Other Liabilities                                                     166,632                 189,259
      Total With the Public                                              455,657                 415,976
      Total Other Liabilities                                     $      824,370          $      793,427

The majority of Intragovernmental Other Liabilities are composed of tenant allowances for operating leases,
monies received from prisoner funds, and certain receipts of cash that are in suspense, clearing, deposit, or
general fund accounts that are owed to the Treasury.

Other Liabilities with the Public consists of project-generated proceeds from undercover operations. The
proceeds not subject to forfeiture will be returned to the Department of Treasury General Fund at the
conclusion of the project. In addition, Other Liabilities with the Public are composed of future funded energy
savings performance contracts and utilities.

The majority of Liabilities are current with the exception of a portion that consists of capital leases and those
liabilities related to future employee related expenses, such as accrued retirement contributions, life insurance,
and retiree health benefits.




                                These notes are an integral part of the financial statements.




                                                            - 72 -
                 FY 2012 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 16. Contingencies and Commitments


                                           Accrued                      Estimated Range of Loss
                                           Liabilities                Lower                 Upper

   As of September 30, 2012

      Probable                         $        28,671            $        25,871              $    41,366
      Reasonably Possible                                                  52,860                   76,131

   As of September 30, 2011

      Probable                         $        68,652            $        68,652              $   190,144
      Reasonably Possible                                                  86,576                  135,569

Additionally, FPI has entered into firm purchase commitments for solar panel material totaling $5,012 which
is to be delivered in FY 2015.




                               These notes are an integral part of the financial statements.




                                                     - 73 -
                           FY 2012 U. S. Department of Justice Annual Financial Statements

                                                Notes to the Financial Statements
                                                (Dollars in Thousands, Except as Noted)

Note 17. Earmarked Funds

Earmarked funds are financed by specifically identified revenues and are required by statute to be used for
designated activities or purposes, and must be accounted for separately from the Government’s general
revenues. See SFFAS 27, Identifying and Reporting Earmarked Funds, for the required criteria for an
earmarked fund.

As of September 30, 2012

                                                                                                               Diversion      Federal Prison        Total
                                           Assets Forfeiture   U.S. Trustee       Antitrust    Crime Victims   Control Fee    Commissary        Earmarked

                                                 Fund          System Fund        Division         Fund         Account          Fund             Funds

Balance Sheet

 Assets
   Fund Balance with U. S. Treasury         $      78,375      $    17,623    $      37,506     $ 9,359,797    $ 107,051      $  86,948        $ 9,687,300
   Investments, Net                             4,200,767          224,210                -               -            -              -          4,424,977
   Other Assets                                   154,634           52,124            1,587          13,666       42,699         27,298            292,008
      Total Assets                          $   4,433,776      $   293,957    $      39,093     $ 9,373,463    $ 149,750      $ 114,246        $14,404,285

 Liabilities
    Accounts Payable                        $   2,667,843      $     9,020    $       5,871     $  19,031      $   7,543      $    14,775      $ 2,724,083
    Other Liabilities                             145,546           21,648           14,830        81,323        428,094           13,259          704,700
       Total Liabilities                    $   2,813,389      $    30,668    $      20,701     $ 100,354      $ 435,637      $    28,034      $ 3,428,783

 Net Position
   Unexpended Appropriations                $           -      $         -    $      25,963     $         -    $        -     $       -        $    25,963
   Cumulative Results of Operations             1,620,387          263,289           (7,571)      9,273,109      (285,887)       86,212         10,949,539
      Total Net Position                    $   1,620,387      $   263,289    $      18,392     $ 9,273,109    $ (285,887)    $ 86,212         $10,975,502
      Total Liabilities and Net Position    $   4,433,776      $   293,957    $      39,093     $ 9,373,463    $ 149,750      $ 114,246        $14,404,285


For the Fiscal Year Ended September 30, 2012

                                                                                                                Diversion     Federal Prison        Total
                                           Assets Forfeiture   U.S. Trustee       Antitrust    Crime Victims   Control Fee    Commissary        Earmarked
                                                 Fund          System Fund        Division         Fund         Account          Fund             Funds
Statement of Net Cost
    Gross Cost of Operations                $   4,319,407      $   227,203    $ 156,773         $ 724,712      $ 307,498      $ 361,981        $ 6,097,574
    Less: Earned Revenues                          10,585          226,566       87,461                 -        244,354        360,290            929,256
      Net Cost of Operations                $   4,308,822      $       637    $ 69,312          $ 724,712      $ 63,144       $   1,691        $ 5,168,318

Statement of Changes in Net Position
   Net Position Beginning of Period         $   1,760,544      $   259,137    $      15,219     $ 7,202,248    $ (232,162)    $    83,557          9,088,543

   Budgetary Financing Sources                 4,197,792             4,085           72,044       2,795,573              -              -         7,069,494
   Other Financing Sources                       (29,127)              704              441               -          9,419          4,346           (14,217)
      Total Financing Sources               $ 4,168,665        $     4,789    $      72,485     $ 2,795,573    $     9,419    $     4,346      $ 7,055,277
   Net Cost of Operations                   $ (4,308,822)      $      (637)   $     (69,312)    $ (724,712)    $   (63,144)   $    (1,691)     $ (5,168,318)
   Net Change                                   (140,157)            4,152            3,173       2,070,861        (53,725)         2,655         1,886,959
   Net Position End of Period               $   1,620,387      $   263,289    $      18,392     $ 9,273,109    $ (285,887)    $    86,212      $10,975,502




                                            These notes are an integral part of the financial statements.




                                                                          - 74 -
                           FY 2012 U. S. Department of Justice Annual Financial Statements

                                                Notes to the Financial Statements
                                                (Dollars in Thousands, Except as Noted)

Note 17. Earmarked Funds (continued)

As of September 30, 2011

                                                                                                                  Diversion     Federal Prison     Total
                                           Assets Forfeiture   U.S. Trustee       Antitrust    Crime Victims     Control Fee    Commissary       Earmarked
                                                 Fund          System Fund        Division         Fund           Account          Fund            Funds
Balance Sheet
 Assets
   Fund Balance with U. S. Treasury         $     229,030      $    14,532    $      33,106     $ 7,260,185      $ 104,565      $  80,240        $ 7,721,658
   Investments, Net                             2,443,702          216,029                -               -              -              -          2,659,731
   Other Assets                                   180,020           58,406            3,152             275         46,184         27,572            315,609
      Total Assets                          $   2,852,752      $   288,967    $      36,258     $ 7,260,460      $ 150,749      $ 107,812        $10,696,998

 Liabilities
    Accounts Payable                        $     918,358      $     8,236    $       5,949     $      9,664     $   6,923      $    11,131      $   960,261
    Other Liabilities                             173,850           21,594           15,090           48,548       375,988           13,124          648,194
       Total Liabilities                    $   1,092,208      $    29,830    $      21,039     $     58,212     $ 382,911      $    24,255      $ 1,608,455

 Net Position
   Unexpended Appropriations                $           -      $         -    $      21,727     $         -      $        -     $         -      $    21,727
   Cumulative Results of Operations             1,760,544          259,137           (6,508)      7,202,248        (232,162)         83,557        9,066,816
      Total Net Position                    $   1,760,544      $   259,137    $      15,219     $ 7,202,248      $ (232,162)    $    83,557      $ 9,088,543
      Total Liabilities and Net Position    $   2,852,752      $   288,967    $      36,258     $ 7,260,460      $ 150,749      $ 107,812        $10,696,998


For the Fiscal Year Ended September 30, 2011

                                                                                                                 Diversion      Federal Prison        Total
                                           Assets Forfeiture   U.S. Trustee       Antitrust    Crime Victims     Control Fee    Commissary       Earmarked
                                                 Fund          System Fund        Division         Fund           Account          Fund            Funds
Statement of Net Cost
    Gross Cost of Operations                $   1,673,412      $   234,356    $ 162,760         $ 662,569        $ 277,514      $ 332,106        $ 3,342,717
    Less: Earned Revenues                           9,513          314,921       91,636                 -          195,235        341,176            952,481
      Net Cost of Operations                $   1,663,899      $   (80,565)   $ 71,124          $ 662,569        $ 82,279       $  (9,070)       $ 2,390,236

Statement of Changes in Net Position
   Net Position Beginning of Period         $   1,687,400      $   176,675    $      14,385     $ 5,866,596      $ (159,279)    $    69,853      $ 7,655,630

   Budgetary Financing Sources                   1,585,180           1,070           71,420         1,998,221              -              -           3,655,891
   Other Financing Sources                         151,863             827              538                 -          9,396          4,634             167,258
     Total Financing Sources                     1,737,043           1,897           71,958         1,998,221          9,396          4,634           3,823,149
   Net Cost of Operations                       (1,663,899)         80,565          (71,124)         (662,569)       (82,279)         9,070          (2,390,236)
   Net Change                                       73,144          82,462              834         1,335,652        (72,883)        13,704           1,432,913
   Net Position End of Period               $   1,760,544      $   259,137    $      15,219     $ 7,202,248      $ (232,162)    $    83,557      $ 9,088,543




                                            These notes are an integral part of the financial statements.




                                                                   - 75 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 17. Earmarked Funds (continued)

The Comprehensive Crime Control Act of 1984 established the AFF to receive the proceeds of forfeiture and
to pay the costs associated with such forfeitures, including the costs of managing and disposing of property,
satisfying valid liens, mortgages, and other innocent owner claims, and costs associated with accomplishing
the legal forfeiture of the property. Authorities of the fund have been amended by various public laws enacted
since 1984. Under current law, authority to use the fund for certain investigative expenses shall be specified in
annual appropriation acts. Expenses necessary to seize, detain, inventory, safeguard, maintain, advertise or
sell property under seizure are funded through a permanent, indefinite appropriation. In addition, beginning in
FY 1993, other general expenses of managing and operating the Asset Forfeiture Program are paid from the
permanent, indefinite portion of the fund. Once all expenses are covered, the balance is maintained to meet
ongoing expenses of the program. Excess unobligated balances may also be allocated by the Attorney General
in accordance with 28 U.S.C. §524(c)(8)(E).

United States Trustees (UST) supervise the administration of bankruptcy cases and private trustees in the
Federal Bankruptcy Courts. The Bankruptcy Judges, UST, and Family Farmer Bankruptcy Act of 1986 (Public
Law 99–554) expanded the pilot trustee program to a 21 region, nationwide program encompassing 88 judicial
districts. The UST System Fund collects user fees assessed against debtors, which offset the annual
appropriation.

The Antitrust Division administers and enforces antitrust and related statutes. This program primarily involves
the investigation of suspected violations of the antitrust laws, the conduct of civil and criminal proceedings in
the federal courts, and the maintenance of competitive conditions. The Antitrust Division collects filing fees
for pre-merger notifications and retains these fees for expenditure in support of its programs.

The Crime Victims Fund is financed by collections of fines, penalty assessments, and bond forfeitures from
defendants convicted of federal crimes. This fund supports victim assistance and compensation programs
around the country and advocates, through policy development, for the fair treatment of crime victims. The
Office for Victims of Crime administers formula and discretionary grants for programs designed to benefit
victims, provides training for diverse professionals who work with victims, develops projects to enhance
victims' rights and services, and undertakes public education and awareness activities on behalf of crime
victims.

The Diversion Control Fee Account is established in the General Fund of the Treasury as a separate account.
Fees charged by the DEA under the Diversion Control Program are set at a level that ensures the recovery of
the full costs of operating this program. The program’s purpose is to prevent, detect, and investigate the
diversion of controlled substances from legitimate channels, while ensuring an adequate and uninterrupted
supply of controlled substances required to meet legitimate needs.

The Federal Prison Commissary Fund was created in the early 1930s to allow inmates a means to purchase
additional products and services above the necessities provided by appropriated federal funds, e.g., personal
grooming products, snacks, postage stamps, and telephone services. The Trust Fund is a self-sustaining trust
revolving fund account that is funded through sales of goods and services to inmates.



                                These notes are an integral part of the financial statements.




                                                            - 76 -
                             FY 2012 U. S. Department of Justice Annual Financial Statements

                                                         Notes to the Financial Statements
                                                         (Dollars in Thousands, Except as Noted)

Note 18. Net Cost of Operations by Suborganization

For the Fiscal Year Ended September 30, 2012

Dollars in Thousands                   AFF/SADF         OBDs          USMS           OJP           DEA           FBI           ATF           BOP            FPI        Eliminations Consolidated
Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
   Gross Cost                       $          - $ 381,836 $         4,794 $             - $        111,714 $ 5,341,870 $         6,419 $            - $           -    $ (119,355) $       5,727,278
   Less: Earned Revenues                       -      116,119             -              -           12,630     460,839               -              -             -      (119,355)           470,233
   Net Cost of Operations                      -      265,717        4,794               -           99,084   4,881,031           6,419              -             -             -          5,257,045

Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
   Gross Cost                           4,319,407     8,591,116        32,637      998,795        2,837,798     2,964,275     1,278,676         7,242              -    $ (970,264)        20,059,682
   Less: Earned Revenues                   10,585       924,300             -        4,839          724,373       340,061        81,369             -              -      (970,264)         1,115,263
   Net Cost of Operations               4,308,822     7,666,816        32,637      993,956        2,113,425     2,624,214     1,197,307         7,242              -             -         18,944,419

Goal 3: Ensure and support the Fair, Impartial , Efficient and Transpaerent Administration of Justice at the Federal, State, Local, Tribal and International Levels
   Gross Cost                                      -     2,473,536    3,154,286    2,465,313              -     1,050,783              -     7,499,577       763,098        (1,883,179)    15,523,414
   Less: Earned Revenues                           -       225,181    1,543,645       22,458              -       485,894              -       410,305       701,286        (1,858,461)     1,530,308
   Net Cost of Operations                          -     2,248,355    1,610,641    2,442,855              -       564,889              -     7,089,272        61,812           (24,718)    13,993,106


Net Cost of Operations                 $ 4,308,822 $ 10,180,888 $ 1,648,072 $ 3,436,811 $ 2,212,509 $ 8,070,134 $ 1,203,726 $ 7,096,514 $                    61,812 $         (24,718) $ 38,194,570



For the Fiscal Year Ended September 30, 2011

Dollars in Thousands                   AFF/SADF         OBDs          USMS           OJP           DEA           FBI           ATF           BOP            FPI        Eliminations Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
   Gross Cost                       $          - $ 378,325 $         6,484 $             - $        106,082 $ 5,223,334 $         5,649 $            - $           -    $     (93,725) $    5,626,149
   Less: Earned Revenues                       -      116,209             -              -              693     447,606               -              -             -          (93,725)        470,783
   Net Cost of Operations                      -      262,116        6,484               -          105,389   4,775,728           5,649              -             -                -       5,155,366

Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
   Gross Cost                           1,673,412     5,858,718        30,396    1,004,443        2,929,005     2,992,410     1,268,049         6,613              -    $ (1,096,338)      14,666,708
   Less: Earned Revenues                     9,513    1,002,609             -        7,489          722,217       318,479        91,300             -              -      (1,096,338)       1,055,269
   Net Cost of Operations               1,663,899     4,856,109        30,396      996,954        2,206,788     2,673,931     1,176,749         6,613              -               -       13,611,439

Goal 3: Ensure and support the Fair, Impartial , Efficient and Transpaerent Administration of Justice at the Federal, State, Local, Tribal and International Levels
   Gross Cost                                      -     2,441,919    3,174,846    2,730,468              -     1,014,392              -     7,213,365       942,915        (1,843,879)    15,674,026
   Less: Earned Revenues                           -       203,511    1,583,960       35,273              -       511,037              -       385,676       904,683        (1,818,415)     1,805,725
   Net Cost of Operations                          -     2,238,408    1,590,886    2,695,195              -       503,355              -     6,827,689        38,232           (25,464)    13,868,301

Net Cost of Operations                 $ 1,663,899 $ 7,356,633 $ 1,627,766 $ 3,692,149 $ 2,312,177 $ 7,953,014 $ 1,182,398 $ 6,834,302 $                     38,232 $         (25,464) $ 32,635,106




                                                    These notes are an integral part of the financial statements.




                                                                                  - 77 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 19. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-reimbursed and under-
reimbursed) portion of the full costs of goods and services received by the Department from a providing entity
that is not part of the Department. In accordance with SFFAS No. 30, Inter-Entity Cost Implementation
Amending SFFAS No.4, Managerial Cost Accounting Concepts and Standards, the material Imputed Inter-
Departmental financing sources currently recognized by the Department include the cost of benefits for the
Federal Employees Health Benefits Program (FEHB), the Federal Employees’ Group Life Insurance Program
(FEGLI), and the Federal Pension plans that are paid by other federal entities, and any un-reimbursed
payments made from the Treasury Judgment Fund on behalf of the Department. The Treasury Judgment Fund
was established by the Congress and funded at 31 U.S.C. §1304 to pay in whole or in part the court judgments
and settlement agreements negotiated by the Department on behalf of agencies, as well as certain types of
administrative awards. Interpretation of Federal Financial Accounting Standards Interpretation No. 2,
Accounting for Treasury Judgment Fund Transactions, requires agencies to recognize liabilities and expenses
when unfavorable litigation outcomes are probable and the amount can be estimated and will be paid by the
Treasury Judgment Fund.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that employing agencies
recognize the cost of pensions and other retirement benefits during their employees’ active years of service.
SFFAS No. 5 requires OPM to provide cost factors necessary to calculate cost. OPM actuaries calculate the
value of pension benefits expected to be paid in the future, and then determine the total funds to be contributed
by and for covered employees, such that the amount calculated would be sufficient to fund the projected
pension benefits. For employees covered by Civil Service Retirement System (CSRS), the cost factors are
29.8% of basic pay for regular, 50.9% law enforcement officers, 23.2% regular offset, and 45.2% law
enforcement officers offset. For employees covered by Federal Employees Retirement System (FERS), the
cost factors are 13.7% of basic pay for regular and 29.7% for law enforcement officers.

The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, other retirement benefits, which include health and life insurance that are paid by
other federal entities, must also be disclosed.

For the Fiscal Years Ended September 30, 2012 and 2011
                                                                            2012                    2011
 Imputed Inter-Departmental Financing
   U.S. Treasury Judgment Fund                                        $         39,181          $     71,537
   Health Insurance                                                            572,584               594,476
   Life Insurance                                                                2,038                 2,038
   Pension                                                                     264,211               330,434
      Total Imputed Inter-Departmental                                $        878,014          $    998,485




                                These notes are an integral part of the financial statements.




                                                            - 78 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 19. Imputed Financing from Costs Absorbed by Others (continued)

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost Accounting
Standards and Concepts, are the unreimbursed portion of the full costs of goods and services received by a
Department component from a providing entity that is part of the Department. Recognition is required for
those transactions determined to be material to the receiving entity. The determination of whether the cost is
material requires considerable judgment based on the specific facts and circumstances of each type of good or
service provided. SFFAS No. 4 also states that costs for broad and general support need not be recognized by
the receiving entity, unless such services form a vital and integral part of the operations or output of the
receiving entity. Costs are considered broad and general if they are provided to many, if not all, reporting
components and not specifically related to the receiving entity’s output. The FPI imputed $24,718 and
$25,464 for FYs 2012 and 2011, respectively of unreimbursed costs for BOP warehouse space used in the
production of goods by the FPI and for managerial and operational services BOP provided to FPI. These
imputed costs have been eliminated from the consolidated financial statements.

Note 20. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

                                                                                                      Total
                                                        Direct               Reimbursable          Obligations
                                                       Obligations            Obligations           Incurred
For the Fiscal Year Ended September 30, 2012
   Obligations Apportioned Under
      Category A                                     $ 28,500,520           $    5,919,576     $        34,420,096
      Category B                                        5,928,795                  204,702               6,133,497
      Exempt from Apportionment                                 -                  697,683                 697,683
   Total                                             $ 34,429,315           $    6,821,961     $        41,251,276

For the Fiscal Year Ended September 30, 2011
   Obligations Apportioned Under
      Category A                                     $ 28,235,878           $    5,835,181     $        34,071,059
      Category B                                        3,604,743                   46,787               3,651,530
      Exempt from Apportionment                                 -                  824,853                 824,853
   Total                                             $ 31,840,621           $    6,706,821     $        38,547,442


The apportionment categories are determined in accordance with the guidance provided in Part 4 “Instructions
on Budget Execution” of OMB Circular A-11, Preparation, Submission and Execution of the Budget.
Category A obligations represent resources apportioned for calendar quarters. Category B obligations
represent resources apportioned for other time periods; for activities, projects, and objectives or for a
combination thereof.


                               These notes are an integral part of the financial statements.




                                                     - 79 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 20. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not been
actually or constructively received. This amount includes any orders which may have been prepaid or
advanced but for which delivery or performance has not yet occurred.

As of September 30, 2012 and 2011
                                                               2012                     2011

 UDO Obligations Unpaid                                  $    10,343,834          $    11,606,422

 UDO Obligations Prepaid/Advanced                              1,172,884                1,344,717

   Total UDO                                             $    11,516,718          $    12,951,139




Permanent Indefinite Appropriations:

A permanent indefinite appropriation is open-ended as to both its period of availability (amount of time the
agency has to spend the funds) and its amount. Following are the Department’s permanent indefinite
appropriations.

       28 U.S.C. § 524(c)(4) authorized the Attorney General to retain AFF receipts to pay operations
        expenses, equitable sharing to state and local law enforcement agencies who assist in forfeiture cases,
        and lien holders.

       On October 5, 1990, Congress passed the Radiation Exposure Compensation Act ("RECA" or "the
        Act"), 42 U.S.C. §2210, providing for compassionate payments to individuals who contracted certain
        cancers and other serious diseases as a result of their exposure to radiation released during above-
        ground nuclear weapons tests or as a result of their exposure to radiation during employment in
        underground uranium mines. Implementing regulations were issued by the Department of Justice and
        published in the Federal Register on April 10, 1992. These regulations established procedures to
        resolve claims in a reliable, objective, and non-adversarial manner, with little administrative cost to the
        United States or to the person filing the claim. Revisions to the regulations, published in the Federal
        Register on March 22, 1999, served to greater assist claimants in establishing entitlement to an award.
        On July 10, 2000, P.L. 106-245, the Radiation Exposure Compensation Act Amendments of 2000
        ("the 2000 Amendments") were passed. On November 2, 2002, the President signed the "21st Century
        Department of Justice Appropriation Authorization Act" (P.L. 107-273). Contained in the law were
        several provisions relating to RECA. While most of these amendments were "technical" in nature,
        some affected eligibility criteria and revised claims adjudication procedures. The Consolidated
        Appropriations Act, 2005 provides a permanent indefinite appropriation for the OBDs’ Radiation
        Exposure Compensation Act program beginning FY 2006.


                                These notes are an integral part of the financial statements.




                                                             - 80 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 20. Information Related to the Statement of Budgetary Resources (continued)

Permanent Indefinite Appropriations (continued):

       Congress established the Federal Prison Commissary Fund (Trust Fund) in 1932 to allow inmates a
        means to purchase additional products and services above the necessities provided by appropriated
        federal funds. The BOP Trust Fund is now a self-sustaining revolving account that is funded through
        the sales of goods and services, rather than annual or no-year appropriations.

       The Public Safety Officers’ Benefits Act of 1976 (the “PSOB Act”) is generally codified at 42 U.S.C.
        §46 Subchapter XII.

        OJP’s PSOB appropriation supports one mandatory and two discretionary programs that provide
        benefits to public safety officers who are severely injured in the line of duty and to the families
        and survivors of public safety officers killed or mortally injured in the line of duty.
        The PSOB Program offers three types of benefits:

            1.	 Death Benefits, a one-time financial benefit to survivors of public safety officers whose
                deaths resulted from injuries sustained in the line of duty. Under the Hometown Heroes
                Survivors Benefit Act of 2003, survivors of public safety officers who die of a heart attack or
                stroke within 24 hours of stressful, non-routine public safety activities may also qualify for
                death benefits.

            2.	 Disability Benefits, a one-time financial benefit to public safety officers permanently disabled
                by catastrophic injuries sustained in the line of duty.

            3.	 Education Benefits, which provide financial support for higher education expenses (such as
                tuition and fees, books, supplies, and room and board) to the eligible spouses and children of
                public safety officers killed or permanently disabled in the line of duty.

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated and that
remains available for obligation under law, unless otherwise restricted. The use of unobligated balances is
restricted based on annual legislation requirements and other enabling authorities. Funds are appropriated on
an annual, multi-year, and no-year basis. Appropriated funds shall expire on the last day of availability and
are no longer available for new obligations. Unobligated balances in unexpired fund symbols are available in
the next fiscal year for new obligations unless some restrictions had been placed on those funds by law.
Amounts in expired fund symbols are unavailable for new obligations, but may be used to adjust previously
established obligations.




                                These notes are an integral part of the financial statements.




                                                      - 81 -
                      FY 2012 U. S. Department of Justice Annual Financial Statements

                                             Notes to the Financial Statements
                                             (Dollars in Thousands, Except as Noted)

Note 20. Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs Budget of the United States Government:

The reconciliation as of September 30, 2011 is presented below. The reconciliation as of September 30, 2012
is not presented, because the submission of the Budget of the United States (Budget) for FY 2014, which
presents the execution of the FY 2012 Budget, occurs after publication of these financial statements. The
Department of Justice Budget Appendix can be found on the OMB website
(http://www.whitehouse.gov/omb/budget) and will be available in early February 2013.

 For the Fiscal Year Ended September 30, 2011
   (Dollars in Millions)                                                                                      Distributed
                                                                       Budgetary        Obligations           Offsetting               Net
                                                                       Resources         Incurred              Receipts               Outlays

 Statement of Budgetary Resources (SBR)                               $     42,430     $     38,547       $            1,026      $      30,932

 Funds not Reported in the Budget
       Expired Funds: OBDs, USMS, DEA, OJP, FBI, ATF & BOP                    (662)             (56)                       -                  -
       AFF/SADF Forfeiture Activity                                            (37)               -                        -                  -
       OCDETF Adjustments                                                      (22)               5                        -                  -
       USMS Court Security Funds                                              (428)            (418)                       -               (407)
       Distributed Offsetting Receipts                                           -                -                     (444)               445
       Special and Trust Fund Receipts                                           -                -                        -                580
 Other                                                                           -               (4)                      (3)                 3

 Budget of the United States Government                               $     41,281     $     38,074       $                 579   $      31,553




Other differences represent financial statement adjustments, timing differences and other immaterial
differences between amounts reported in the Department SBR and the Budget of the United States
Government.




                                          These notes are an integral part of the financial statements.




                                                                      - 82 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 21. Net Custodial Revenue Activity

Custodial revenue activity represents those collections of non-exchange revenue on behalf of other recipient
entities. These collections are not recorded as revenue by the Department but as activity on the Statement of
Custodial Activity. The custodial liabilities presented on the Consolidated Balance Sheet and Note 15
represent funds held by the Department that have yet to be disbursed to the appropriate Federal agency or
individual.

The primary source of the Department’s Office of Debt Collection Management (DCM) collections consists of
civil litigated matters, e.g., student loan defaults, and health care fraud. The DCM also processes certain
payments on criminal debts as an accommodation for the BOP and the Clerks of the U.S. District Courts. The
BOP aggregates collections of inmate criminal debt by correction facility, and the DCM sorts the collections
by judicial district and disburses payments to the respective Clerks of the U.S. Court. The DCM also accepts
wire transfers or other payments on a criminal debt if a Clerk of the U.S. Court is unable or unwilling to do so.
In addition, other negligible custodial collections occur for interest, fines, and penalties.

The OBDs collect civil fines, penalties, and restitution payments that are incidental to its mission. By court
order, the OBDs were given the investment authority and the settlement funds collected must be invested. The
OBDs invest these funds with the Treasury, Bureau of the Public Debt. As of September 30, 2012 and 2011,
the custodial assets and liabilities recorded by the OBDs on the Consolidated Balance Sheet are $1,320,292
and $752,797, respectively. The OBDs custodial collections totaled $7,035,591 and $5,260,397 for the fiscal
years ended September 30, 2012 and 2011.

For the fiscal years ended September 30, 2012 and 2011, DEA collected $27,595 and $97,268, respectively.
DEA’s collections include $15 million of the total fees collected for the Diversion Control Program and civil
monetary penalties related to violations of the Controlled Substances Act that were incidental to DEA’s
mission. Since DEA has no statutory authority to use these excess funds, DEA transmits them to the Treasury
General Fund. The DEA has a custodial liability for funds that have not yet been transmitted to the Treasury
General Fund. As of September 30, 2012 and 2011 balances for custodial liabilities were $3,781 and $5,199,
respectively.

As an agent of the federal government and as authorized by 26 U.S.C. § 6301, ATF collects fees from firearms
and explosives industries, as well as import, permit and license fees. Special Occupational Taxes are collected
from certain firearms businesses. Miscellaneous collections include project-generated proceeds. As ATF is
unable to use these collections in its operations, ATF also has the authority to transfer these collections to the
Treasury General Fund. The ATF custodial collections totaled $24,675 and $21,444 for the fiscal years ended
September 30, 2012 and 2011, respectively.

The FBI collected $10,736 and $902, in September 30, 2012 and 2011, respectively, in restitution payments,
seized abandoned cash, and project generated proceeds. These collections were incidental to the FBI’s
mission. Since the FBI does not have statutory authority to use these funds, the FBI remits these funds upon
receipt to the U.S. Treasury’s General Fund. The FBI reports a custodial liability when custodial revenues are
held by the FBI, but have not yet been transmitted to the U.S. Treasury’s General Fund. As of September 30,
2012 and 2011, the FBI did not have any custodial liabilities.


                                These notes are an integral part of the financial statements.




                                                      - 83 -
                FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 22. OMB Circular A-136 Consolidated Balance Sheet Presentation


                                              U.S. Department of Justice
                                             Consolidated Balance Sheets
                                          As of September 30, 2012 and 2011
         Dollars in Thousands                                                               2012             2011

         ASSETS
           Intragovernmental
             Fund Balance with U.S. Treasury                                   $    24,745,298     $   23,354,452
             Investments, Net                                                        6,213,903          6,919,799
             Accounts Receivable, Net                                                  324,327            380,431
             Other Assets                                                              266,573            115,103
           Total Intragovernmental                                                  31,550,101         30,769,785
           Cash and Other Monetary Assets                                              260,682            250,253
           Accounts Receivable, Net                                                    115,612            125,898
           Inventory and Related Property, Net                                         166,609            170,889
           General Property, Plant and Equipment, Net                               10,186,144         10,217,770
           Other Assets                                                                911,566          1,258,495
         Total Assets                                                          $    43,190,714     $   42,793,090

         LIABILITIES
           Intragovernmental
             Accounts Payable                                                  $       302,575     $      366,027
             Other Liabilities                                                       1,743,663          1,233,085
           Total Intragovernmental                                                   2,046,238          1,599,112

           Accounts Payable                                                          4,108,056          2,504,820
           Federal Employee and Veteran Benefits                                     1,474,278          1,359,360
           Environmental and Disposal Liabilities                                       74,441             72,709
           Other Liabilities                                                         8,238,972          7,733,476
         Total Liabilities                                                     $    15,941,985     $   13,269,477
         NET POSITION
           Unexpended Appropriations - Earmarked Funds                         $        25,963     $       21,727
           Unexpended Appropriations - All Other Funds                              10,568,815         11,952,581
           Cumulative Results of Operations - Earmarked Funds                       10,949,539          9,066,816
           Cumulative Results of Operations - All Other Funds                        5,704,412          8,482,489
         Total Net Position                                                    $    27,248,729     $   29,523,613
         Total Liabilities and Net Position                                    $    43,190,714     $   42,793,090



                                These notes are an integral part of the financial statements.




                                                            - 84 -
                 FY 2012 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 23. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
Financing)

For the Fiscal Years Ended September 30, 2012 and 2011

                                                                                                2012            2011
Resources Used to Finance Activities

   Budgetary Resources Obligated
      Obligations Incurred                                                                 $ 41,251,276      $ 38,547,442
      Less: Spending Authority from Offsetting Collections and Recoveries                     8,071,018         7,709,445
      Obligations Net of Offsetting Collections and Recoveries                               33,180,258        30,837,997
      Less: Offsetting Receipts                                                               1,425,127         1,025,644
      Net Obligations                                                                        31,755,131        29,812,353

   Other Resources
       Donations and Forfeitures of Property                                                      120,275        157,607
       Transfers-In/Out Without Reimbursement                                                     (12,623)        44,556
       Imputed Financing from Costs Absorbed by Others (Note 19)                                  878,014        998,485
       Other                                                                                       (5,199)        (4,613)
       Net Other Resources Used to Finance Activities                                             980,467      1,196,035
Total Resources Used to Finance Activities                                                     32,735,598     31,008,388

Resources Used to Finance Items not Part of the Net Cost of
   Operations
       Net Change in Budgetary Resources Obligated for Goods, Services
          and Benefits Ordered but not Yet Provided                                             1,565,963      1,608,057
       Resources That Fund Expenses Recognized in Prior Periods (Note 24)                         (68,557)       (45,816)
       Budgetary Offsetting Collections and Receipts That do not
          Affect Net Cost of Operations                                                           700,546        294,218
       Resources That Finance the Acquisition of Assets                                        (1,069,993)    (1,184,420)
       Other Resources or Adjustments to Net Obligated Resources
          That do not Affect Net Cost of Operations                                                24,810         14,296
Total Resources Used to Finance Items not Part of the Net Cost
   of Operations                                                                                1,152,769        686,335

Total Resources Used to Finance the Net Cost of Operations                                 $ 33,888,367      $ 31,694,723




                               These notes are an integral part of the financial statements.




                                                     - 85 -
                 FY 2012 U. S. Department of Justice Annual Financial Statements

                                 Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Note 23. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
Financing) (continued)

For the Fiscal Years Ended September 30, 2012 and 2011                                        2012            2011

Components of Net Cost of Operations That Will not Require
  or Generate Resources in the Current Period

      Components That will Require or Generate Resources in
      Future Periods (Note 24)                                                            $ 3,174,134     $   129,497
      Depreciation and Amortization                                                         1,059,391         826,899
      Revaluation of Assets or Liabilities                                                     35,468          23,586
      Other                                                                                    37,210         (39,599)
      Total Components of Net Cost of Operations That will not Require or
         Generate Resources                                                                   1,132,069       810,886

Total Components of Net Cost of Operations That Will not
   Require or Generate Resources in the Current Period                                        4,306,203       940,383

Net Cost of Operations                                                                    $ 38,194,570    $ 32,635,106




                              These notes are an integral part of the financial statements.




                                                          - 86 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                    Notes to the Financial Statements
                                    (Dollars in Thousands, Except as Noted)

Note 24. Explanation of Differences Between Liabilities not Covered by Budgetary Resources and
Components of Net Cost of Operations Requiring or Generating Resources in Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is not certainty that
budgetary authority will be realized, such as the enactment of an appropriation, are considered liabilities not
covered by budgetary resources. These liabilities totaling $6,695,824 and $3,617,966 on September 30, 2012
and 2011, respectively, are discussed in Note 11, Liabilities not Covered by Budgetary Resources. Decreases
in these liabilities result from current year budgetary resources that were used to fund expenses recognized in
prior periods. Increases in these liabilities represent unfunded expenses that were recognized in the current
period. These increases along with the change in the portion of exchange revenue receivables from the public,
which are not considered budgetary resources until collected, represent components of current period net cost
of operations that will require or generate budgetary resources in future periods. The changes in liabilities not
covered by budgetary resources and receivables generating resources in future periods are comprised of the
following:

For the Fiscal Years Ended September 30, 2012 and 2011
                                                                                                      2012            2011
 Resources that Fund Expenses Recognized in Prior Periods
      Decrease in Contingent Liabilities                                                         $     (40,101)   $   (33,108)
      Decrease in Unfunded Capital Lease Liabilities                                                    (7,314)        (6,762)
      Decrease in RECA Liabilities                                                                           -         (5,946)
      Decrease in Other Unfunded Employment Related Liabilities                                           (594)             -
      Decrease in Other Liabilities                                                                    (20,548)             -
        Total Other                                                                                    (68,557)       (45,816)
         Total Resources that Fund Expenses Recognized in Prior Periods                          $     (68,557)   $   (45,816)

 Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
   Increase in Accrued Annual and Compensatory Leave Liabilities                           $     7,228            $     5,921
   Increase in Environmental and Disposal Liabilities                                            1,732                  1,052
   (Increase)/Decrease in Exchange Revenue Receivable from the Public                           21,078                (51,628)
   Other
      Increase in Actuarial FECA Liabilities                                                   114,918                 45,255
      Increase in Accrued FECA Liabilities                                                      10,084                  6,689
      Increase in Deferred Revenue                                                              50,654                 47,578
      Increase in RECA Liabilities                                                             195,399                      -
                                 th
      Increase in September 11 Victim Compensation Fund Liabilities                          2,766,400                      -
      Increase in Other Unfunded Employee Related Liabilities                                        -                    420
      Increase in Other Liabilities                                                                  -                 78,484
      (Increase)/Decrease in Nonexchange Receivables from the Public                               (96)                   (94)
      (Increase)/Decrease in Surcharge Revenue Receivable
            from Other Federal Agencies                                                          6,737                 (4,180)
         Total Other                                                                                 3,144,096        174,152
         Total Components of Net Cost of Operations That Will Require or
           Generate Resources in Future Periods                                                  $ 3,174,134      $   129,497



                                 These notes are an integral part of the financial statements.




                                                       - 87 -
                  FY 2012 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 25. Compensation Funds

Radiation Exposure Compensation Act

On October 15, 1990, Congress passed the Radiation Exposure Compensation Act (RECA), 42 U.S.C. § 2210,
providing for compassionate payments to individuals who contracted certain cancers and other serious diseases
as a result of their exposure to radiation released during above-ground nuclear weapons tests or as a result of
their exposure to radiation during employment in underground uranium mines. Implementing regulations were
issued by the Department and published in the Federal Register on April 10, 1992, establishing procedures to
resolve claims in a reliable, objective, and non-adversarial manner, with little administrative cost to the United
States or to the person filing the claim. Revisions to the regulations, published in the Federal Register on
March 22, 1999, served to greater assist claimants in establishing entitlement to an award.

On July 10, 2000, the Radiation Exposure Compensation Act Amendments of 2000, P.L. 106-245, was
enacted. Some of the widespread changes include new claimant populations, additional compensable diseases,
lower radiation exposure thresholds, modified medical documentation requirements, and removal of certain
disease restrictions. Pursuant to the 2000 Amendments, the Department was directed to issue implementing
regulations. The Department published two related rulemakings in the Federal Register to implement the
legislation.

Subsequent action by Congress required modification to those rulemakings. Therefore, the Department
published a “final” rule in the Federal Register on March 23, 2004, which went into effect on April 22, 2004.

There are now five categories of claimants: uranium miners, uranium millers, ore transporters, downwinders,
and on-site participants. Each category requires similar eligibility criteria: if claimants can demonstrate that
they contracted a compensable disease after working or residing in a designated location for a specified period
of time, they qualify for compensation.

The enactment of two pieces of legislation changed the funding sources for RECA claimants. The National
Defense Authorization Act for FY 2005 requires that RECA Section 5 claimants (uranium miners, millers, and
ore transporters) be paid out of the Department of Labor’s (Labor) Energy Employees Occupational Illness
Compensation Fund. The RECA Section 5 liability of $316,993 as of March 30, 2004, was transferred to
Labor during FY 2005. The RECA Fund began exclusively paying RECA Section 4 claimants (downwinders
and on-site participants) in FY 2005. The Consolidated Appropriations Act, 2005, contains language that
made funding for the RECA Trust Fund mandatory and indefinite beginning in FY 2006.

The OBDs recognized liabilities of $731,237 and $535,838 for estimated future benefits payable by the
Department as of September 30, 2012 and 2011, respectively, to eligible individuals under the Act through
FY 2023. The estimated liability is based on activity between FYs 2007 - 2012. Key factors in determining
future liability are trends in the number of claims filed, trends in the percentage of claims adjudicated, and
trends in the percentage of claims approved. These estimates are then discounted in accordance with the
discount rates set by the Office of Management and Budget.




                                These notes are an integral part of the financial statements.




                                                            - 88 -
                 FY 2012 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 25. 	Compensation Funds (continued)

September 11th Victim Compensation Fund

Title II of The James Zadroga 9/11 Health and Compensation Act of 2010 (Zadroga Act) P.L. 111-347,
reactivates the September 11th Victim Compensation Fund of 2001 and requires a Special Master, appointed by
the Attorney General, to provide compensation to any individual (or a personal representative of a deceased
individual) who suffered physical harm or was killed as a result of the terrorist-related aircraft crashes of
September 11, 2001, or the debris removal efforts that took place in the immediate aftermath of those crashes.
The Zadroga Act amends the Air Transportation Safety and System Stabilization Act by among other things:
Expanding the geographic zone recognized as a 9/11 crash site and providing greater consistency with the
World Trade Center Health Program by adding additional forms of proof that may be used to establish
eligibility.
The Zadroga Act requires that the total amount of Federal funds paid for including compensation with respect
to claims filed on or after October 3, 2011, will not exceed $2,775,000. Furthermore, the total amount of
Federal funds expended during the period from October 3, 2011, through October 3, 2016, may not exceed
$875,000. For fiscal year 2012, the Department of Justice received an appropriation of $200,000.
Summarized financial information about appropriated funds received, donations received from the public,
benefit payments disbursed and payable, and the Fund balance is presented below:
As of September 30, 2012
                                                                                                 2012
Appropriated Funds Received                                                                    $ 200,000

Less:     Salaries and Expenses Disbursements                                                      6,212
          Total Disbursements                                                                      6,212
Total Fund Balance with Treasury                                                               $ 193,788

                                                   th
Total Federal Funds available for September 11 Victim Compensation Fund                        $ 2,775,000

Less:	    Accounts Payable for Salaries and Expenses                                                2,388
          Total Funded Liabilities                                                                  2,388
          Total Disbursements                                                                       6,212
          Total Funded Activities                                                                   8,600
                                     th
Unfunded Liability for September 11 Victim Compensation Fund	                                  $ 2,766,400




                               These notes are an integral part of the financial statements.




                                                     - 89 -
This page intentionally left blank.




               - 90 -
Consolidating and Combining 

   Financial Statements 





          - 91 -
                                                                                                                              U. S. Department of Justice

                                                                                                                              Consolidating Balance Sheet

                                                                                                                               As of September 30, 2012


         Dollars in Thousands                                           AFF/SADF             OBDs               USMS               OJP                DEA                FBI               ATF                BOP               FPI              Eliminations           Consolidated

         ASSETS
              Intragovernmental
                  Fund Balance with U.S. Treasury                   $          78,375    $     5,702,037    $      488,186    $     12,614,717    $     694,616      $    3,601,365    $     232,563      $    1,305,195    $      28,244    $                - $            24,745,298
                  Investments, Net                                          5,631,124            310,479                  -                   -                -                   -                -                   -         272,300                     -               6,213,903
                  Accounts Receivable, Net                                      6,035            322,530           145,641               6,642           51,930             143,146           37,105               3,653           21,578              (413,933)                324,327
                  Other Assets                                                  2,339             79,029             7,093              47,203           32,442              30,187            1,514             165,000                 -              (98,234)                266,573
              Total Intragovernmental                                       5,717,873          6,414,075           640,920          12,668,562          778,988           3,774,698          271,182           1,473,848          322,122              (512,167)             31,550,101

               Cash and Monetary Assets                                       106,166                 46                  -                   -           15,337             67,135           71,196                 802                 -                     -                260,682
               Accounts Receivable, Net                                              -            66,493                29               4,348             5,397             27,069              352               7,361            4,563                      -                115,612
               Inventory and Related Property, Net                                   -               106             2,742                    -            7,588              7,310                 -             19,609          129,254                      -                166,609
               Forfeited Property, Net                                        145,111                   -                 -                   -                 -                  -                -                   -               -                     -                 145,111
               General Property, Plant and Equipment, Net                       1,150            133,777           265,904              11,006           381,780          2,811,251          206,737           6,286,908           87,631                     -              10,186,144
               Advances and Prepayments                                              -             1,132                47             693,159            12,030             48,789              963               4,622              128                     -                 760,870
               Other Assets                                                          -                  -              184                    -                 -                  -                -              4,701              700                     -                   5,585
         Total Assets                                               $       5,970,300 $        6,615,629 $         909,826 $        13,377,075 $       1,201,120     $    6,736,252    $     550,430 $         7,797,851    $     544,398 $            (512,167) $           43,190,714



         LIABILITIES
               Intragovernmental
                   Accounts Payable                                 $          71,352    $       310,984    $       25,874    $         22,536    $         35,216   $     183,590     $         13,996   $      47,558     $       3,538    $         (412,069) $              302,575
                   Accrued FECA Liabilities                                         -              9,860            16,753                  69              27,152          31,101               20,852         152,884             1,981                     -                 260,652
                   Custodial Liabilities                                            -          1,110,517                 -                   -               3,781                -                   -                -                -                     -               1,114,298
                   Other Liabilities                                               39             51,451            12,439             107,620              20,095          99,996               10,450          69,148            97,573              (100,098)                368,713
               Total Intragovernmental                                         71,391          1,482,812            55,066             130,225              86,244         314,687               45,298         269,590           103,092              (512,167)              2,046,238

               Accounts Payable                                             2,596,491            306,823           244,011              33,317           85,690             462,174           42,947             291,709           44,894                      -              4,108,056
               Accrued Grant Liabilities                                             -           167,668                  -            436,451                 -                   -                -                   -                -                     -                604,119
               Actuarial FECA Liabilities                                            -            56,121            93,617                 442          158,435             176,422          116,959             853,362           18,920                      -              1,474,278
               Accrued Payroll and Benefits                                       151            135,398            36,317               7,910           64,151             213,448           33,917             155,218            7,399                     -                 653,909
               Accrued Annual and Compensatory Leave Liabilities                  246            181,786            43,258               6,011           98,986             277,074           51,019             171,739            8,133                     -                 838,252
               Environmental and Disposal Liabilities                                -                  -                -                   -                 -             10,219                -              64,222                -                     -                  74,441
               Deferred Revenue                                               145,111                   -                -                   -          409,396                    -               -               1,957                -                     -                 556,464




- 92 -
               Seized Cash and Monetary Instruments                         1,536,523                   -                -                   -              450              45,262            4,932                    -               -                     -               1,587,167
               Contingent Liabilities                                                -             3,565                 -                   -            8,968              11,788                -               4,230              120                     -                  28,671
               Capital Lease Liabilities                                             -                  -                -                   9                -                    -             394              16,627               66                     -                  17,096
               Radiation Exposure Compensation Act Liabilities                       -           731,237                 -                   -                -                   -                -                   -                -                     -                 731,237
               9/11 Victim Compensation Fund                                         -         2,766,400                 -                   -                -                   -                -                   -                -                     -               2,766,400
               Other Liabilities                                                     -           209,775             8,532                   -           10,555               6,342           61,073             159,380                -                     -                 455,657
         Total Liabilities                                          $       4,349,913 $        6,041,585    $      480,801 $           614,365    $     922,875 $         1,517,416 $        356,539 $         1,988,034 $        182,624 $            (512,167) $           15,941,985

         NET POSITION
               Unexpended Appropriations - Earmarked Funds          $                -   $        25,963 $                -   $               -   $             - $                -   $            -     $             -   $            -   $                  -   $            25,963
               Unexpended Appropriations - All Other Funds                           -         3,355,787           259,570           3,478,217           499,366          2,151,355          175,104             649,416                 -                      -            10,568,815
               Cumulative Results of Operations - Earmarked Funds           1,620,387            255,718                  -          9,273,109          (285,887)                  -               -              86,212                -                       -            10,949,539
               Cumulative Results of Operations - All Other Funds                    -        (3,063,424)          169,455              11,384            64,766          3,067,481           18,787           5,074,189          361,774                       -             5,704,412
         Total Net Position                                         $       1,620,387    $       574,044 $         429,025    $     12,762,710    $      278,245 $        5,218,836    $     193,891      $    5,809,817    $     361,774    $                  -   $        27,248,729

         Total Liabilities and Net Position                         $       5,970,300    $     6,615,629    $      909,826    $     13,377,075    $    1,201,120     $    6,736,252    $     550,430      $    7,797,851    $     544,398    $         (512,167) $           43,190,714
                                                                                                                               U. S. Department of Justice

                                                                                                                               Consolidating Balance Sheet

                                                                                                                                As of September 30, 2011


                                                                        AFF/SADF            OBDs              USMS                 OJP                 DEA              FBI                 ATF            BOP              FPI             Eliminations           Consolidated

         ASSETS
               Intragovernmental
                   Fund Balance with U.S. Treasury                  $         229,030   $     5,223,163   $     562,246    $         11,287,838    $     702,470    $    3,618,458      $    241,768   $    1,468,669   $      20,810   $                - $              23,354,452
                   Investments, Net                                         6,346,771           302,328               -                       -                -                 -                 -                -         270,700                    -                 6,919,799
                   Accounts Receivable, Net                                     4,869           350,778         168,560                   6,970           43,655           181,271            27,803            3,347          34,360             (441,182)                  380,431
                   Other Assets                                                 1,766            95,294          15,506                  78,034           47,061            27,867             7,643                -               -             (158,068)                  115,103
               Total Intragovernmental                                      6,582,436         5,971,563         746,312              11,372,842          793,186         3,827,596           277,214        1,472,016         325,870             (599,250)               30,769,785

               Cash and Monetary Assets                                       113,822                46                -                      -            16,575           50,843            68,184              783               -                    -                   250,253
               Accounts Receivable, Net                                             -            59,086               35                  6,056             5,998           32,369               256            9,778          12,320                    -                   125,898
               Inventory and Related Property, Net                                  -               106            3,060                      -             7,506            8,103                 -           18,180         133,934                    -                   170,889
               Forfeited Property, Net                                        172,746                 -                -                      -                 -                -                 -                -               -                    -                   172,746
               General Property, Plant and Equipment, Net                         633           280,102          264,246                 12,526           401,220        2,558,525           210,262        6,387,481         102,775                    -                10,217,770
               Advances and Prepayments                                             6             1,978                -              1,009,997            14,700           47,144               786            3,899           1,257                    -                 1,079,767
               Other Assets                                                         -                 -              184                      -                 -                -                 -            4,473           1,325                    -                     5,982
         Total Assets                                               $       6,869,643   $     6,312,881   $    1,013,837   $         12,401,421    $    1,239,185   $    6,524,580      $    556,702   $    7,896,610   $     577,481   $         (599,250) $             42,793,090



         LIABILITIES
               Intragovernmental
                   Accounts Payable                                 $         67,345    $       317,501   $      31,314    $              54,240   $      46,943    $         229,722   $     14,942   $      37,098    $       3,612   $         (436,690) $                366,027
                   Accrued FECA Liabilities                                        -              9,780          15,912                       86          27,222               30,829         20,074         144,780            1,942                    -                   250,625
                   Custodial Liabilities                                           -            599,810               -                        -           5,199                    -              -               -                -                    -                   605,009
                   Other Liabilities                                             169             83,592          14,538                  117,275          20,766              121,218         10,474          69,364          102,615             (162,560)                  377,451
               Total Intragovernmental                                        67,514          1,010,683          61,764                  171,601         100,130              381,769         45,490         251,242          108,169             (599,250)                1,599,112

               Accounts Payable                                               851,013           307,561         354,200                   24,177          92,054           416,733            45,450          367,973          45,659                    -                 2,504,820
               Accrued Grant Liabilities                                            -           245,174               -                  369,245               -                 -                 -                -               -                    -                   614,419
               Actuarial FECA Liabilities                                           -            51,746          86,365                      680         149,846           182,426           110,697          761,197          16,403                    -                 1,359,360
               Accrued Payroll and Benefits                                       767           137,132          33,239                    8,182          63,094           208,273            34,276          151,321           8,218                    -                   644,502
               Accrued Annual and Compensatory Leave Liabilities                  168           181,586          43,940                    6,148          98,437           270,528            51,897          170,187           8,892                    -                   831,783
               Environmental and Disposal Liabilities                               -                 -               -                        -               -             9,987                 -           62,722               -                    -                    72,709
               Deferred Revenue                                               172,746                 -               -                        -         358,742                 -                 -            1,939               -                    -                   533,427
               Seized Cash and Monetary Instruments                         4,016,891                 -               -                        -             440            42,880             3,527                -               -                    -                 4,063,738




- 93 -
               Contingent Liabilities                                               -                 -               -                        -           7,754            52,335                 -            8,563               -                    -                    68,652
               Capital Lease Liabilities                                            -                 -               -                       14               -                 -             1,071           23,941             115                    -                    25,141
               Radiation Exposure Compensation Act Liabilities                      -           535,838               -                        -               -                 -                 -                -               -                    -                   535,838
               Other Liabilities                                                    -           152,987          12,071                        -           9,720             4,687            59,905          176,606               -                    -                   415,976
         Total Liabilities                                          $       5,109,099   $     2,622,707   $     591,579    $             580,047   $     880,217    $    1,569,618      $    352,313   $    1,975,691   $     187,456   $         (599,250) $             13,269,477

         NET POSITION
               Unexpended Appropriations - Earmarked Funds          $               -   $        21,727 $             -    $                  -    $           - $               -      $          -   $            -   $           -   $                  -   $              21,727
               Unexpended Appropriations - All Other Funds                          -         3,472,362         257,093               4,605,970          503,763         2,194,512           174,210          744,671               -                      -              11,952,581
               Cumulative Results of Operations - Earmarked Funds           1,760,544           252,629               -               7,202,248         (232,162)                -                 -           83,557               -                      -               9,066,816
               Cumulative Results of Operations - All Other Funds                   -           (56,544)        165,165                  13,156           87,367         2,760,450            30,179        5,092,691         390,025                      -               8,482,489
         Total Net Position                                         $       1,760,544   $     3,690,174 $       422,258    $         11,821,374    $     358,968 $       4,954,962      $    204,389   $    5,920,919   $     390,025   $                  -   $          29,523,613

         Total Liabilities and Net Position                         $       6,869,643   $     6,312,881   $    1,013,837   $         12,401,421    $    1,239,185   $    6,524,580      $    556,702   $    7,896,610   $     577,481   $         (599,250) $             42,793,090
                                                                                                                                     U. S. Department of Justice
                                                                                                                                 Consolidating Statement of Net Cost
                                                                                                                            For the Fiscal Year Ended September 30, 2012

                       Dollars in Thousands                                         AFF/SADF             OBDs                 USMS               OJP                 DEA                  FBI              ATF                BOP               FPI                Eliminations           Consolidated

         Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of La
                       Gross Cost - Intragovernmental                           $                -   $         99,284   $            4,794   $              -   $            17,534   $    1,424,724   $              -   $             -   $              -   $         (119,355) $           1,426,981
                       Gross Cost - With the Public                                              -            282,552                    -                  -                94,180        3,917,146              6,419                 -                  -                    -              4,300,297
                          Subtotal Gross Costs                                                   -            381,836                4,794                  -               111,714        5,341,870              6,419                 -                  -             (119,355)             5,727,278

                       Earned Revenues - Intragovernmental                                       -             87,077                    -                  -                12,630         458,969                   -                 -                  -             (119,355)               439,321
                       Earned Revenues - With the Public                                         -             29,042                    -                  -                     -           1,870                   -                 -                  -                    -                 30,912
                           Subtotal Earned Revenues                                              -            116,119                    -                  -                12,630         460,839                   -                 -                  -             (119,355)               470,233
                           Subtotal Net Cost of Operations                      $                -   $        265,717   $            4,794   $              -   $            99,084   $    4,881,031   $          6,419   $             -   $              -   $                  -   $        5,257,045

         Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal La
                       Gross Cost - Intragovernmental                           $          382,840   $      1,804,101   $          32,637    $        45,938    $        892,256      $      790,598   $      383,250     $             -   $              -   $         (970,264) $           3,361,356
                       Gross Cost - With the Public                                      3,936,567          6,787,015                   -            952,857           1,945,542           2,173,677          895,426               7,242                  -                    -             16,698,326
                          Subtotal Gross Costs                                           4,319,407          8,591,116              32,637            998,795           2,837,798           2,964,275        1,278,676               7,242                  -             (970,264)            20,059,682
                       Earned Revenues - Intragovernmental                                 10,585             529,236                    -              4,839               473,274         340,061              80,866                 -                  -             (970,264)               468,597
                       Earned Revenues - With the Public                                        -             395,064                    -                  -               251,099               -                 503                 -                  -                    -                646,666
                           Subtotal Earned Revenues                                        10,585             924,300                    -              4,839               724,373         340,061              81,369                 -                  -             (970,264)             1,115,263
                           Subtotal Net Cost of Operations                      $        4,308,822   $      7,666,816   $          32,637    $       993,956    $      2,113,425      $    2,624,214   $    1,197,307     $         7,242   $              -   $                  -   $       18,944,419

         Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal, State, Local, Tribal, and International Lev
                       Gross Cost - Intragovernmental                           $                -   $      1,808,388   $         544,969    $       148,858    $                 -   $      280,253   $              -   $    1,664,927    $     164,798      $        (1,883,179) $          2,729,014
                       Gross Cost - With the Public                                              -            665,148           2,609,317          2,316,455                      -          770,530                  -        5,834,650          598,300                        -            12,794,400
                          Subtotal Gross Costs                                                   -          2,473,536           3,154,286          2,465,313                      -        1,050,783                  -        7,499,577          763,098               (1,883,179)           15,523,414
                       Earned Revenues - Intragovernmental                                       -            159,062           1,537,097              22,310                     -         334,507                   -          20,904           651,713               (1,858,461)              867,132
                       Earned Revenues - With the Public                                         -             66,119               6,548                 148                     -         151,387                   -         389,401            49,573                        -               663,176
                           Subtotal Earned Revenues                                              -            225,181           1,543,645              22,458                     -         485,894                   -         410,305           701,286               (1,858,461)            1,530,308
                           Subtotal Net Cost of Operations                      $                -   $      2,248,355   $       1,610,641    $     2,442,855    $                 -   $     564,889    $              -   $    7,089,272    $         61,812   $          (24,718) $          13,993,106



         Total Net Cost of Operations                                           $        4,308,822   $     10,180,888   $       1,648,072    $     3,436,811    $      2,212,509      $    8,070,134   $    1,203,726     $    7,096,514    $         61,812   $          (24,718) $          38,194,570




- 94 -
                                                                                                                             U. S. Department of Justice

                                                                                                                         Consolidating Statement of Net Cost

                                                                                                                    For the Fiscal Year Ended September 30, 2011


         Dollars in Thousands                                       AFF/SADF             OBDs               USMS                 OJP                 DEA                 FBI                  ATF                BOP               FPI                Eliminations             Consolidated

         Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
            Gross Cost - Intragovernmental                      $                -   $        112,985   $           6,484   $               -   $         15,196   $          1,420,503   $              -   $             -   $              -   $             (93,725) $           1,461,443
            Gross Cost - With the Public                                         -            265,340                   -                   -             90,886              3,802,831              5,649                 -                  -                       -              4,164,706
               Subtotal Gross Costs                                              -            378,325               6,484                   -            106,082              5,223,334              5,649                 -                  -                 (93,725)             5,626,149
            Earned Revenues - Intragovernmental                                  -             93,776                   -                   -               687                446,885                   -                 -                  -                 (93,725)              447,623
            Earned Revenues - With the Public                                    -             22,433                   -                   -                 6                    721                   -                 -                  -                       -                23,160
               Subtotal Earned Revenues                                          -            116,209                   -                   -               693                447,606                   -                 -                  -                 (93,725)              470,783
               Subtotal Net Cost of Operations                  $                -   $        262,116   $           6,484   $               -   $        105,389   $          4,775,728   $          5,649   $             -   $              -   $                   -    $         5,155,366

         Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
            Gross Cost - Intragovernmental                      $          380,028   $      1,868,383   $         30,396    $         43,903    $        907,038   $            813,795   $      381,239     $             -   $              -   $          (1,096,338) $           3,328,444
            Gross Cost - With the Public                                 1,293,384          3,990,335                  -             960,540           2,021,967              2,178,615          886,810               6,613                  -                        -            11,338,264
               Subtotal Gross Costs                                      1,673,412          5,858,718             30,396           1,004,443           2,929,005              2,992,410        1,268,049               6,613                  -              (1,096,338)            14,666,708
            Earned Revenues - Intragovernmental                              9,513            575,651                   -               7,489            521,896               318,479              90,650                 -                  -              (1,096,338)               427,340
            Earned Revenues - With the Public                                    -            426,958                   -                   -            200,321                      -                650                 -                  -                        -               627,929
               Subtotal Earned Revenues                                      9,513          1,002,609                   -               7,489            722,217               318,479              91,300                 -                  -              (1,096,338)             1,055,269
               Subtotal Net Cost of Operations                  $        1,663,899   $      4,856,109   $         30,396    $        996,954    $      2,206,788   $          2,673,931   $    1,176,749     $         6,613   $              -   $                   -    $        13,611,439

         Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal, State, Local, Tribal, and International Level
               Gross Cost - Intragovernmental                   $                -   $      1,736,875   $         546,964   $        180,000    $              -   $            275,867   $              -   $    1,629,744    $     163,202      $          (1,843,879) $           2,688,773
               Gross Cost - With the Public                                      -            705,044           2,627,882          2,550,468                   -                738,525                  -        5,583,621          779,713                           -            12,985,253
                  Subtotal Gross Costs                                           -          2,441,919           3,174,846          2,730,468                   -              1,014,392                  -        7,213,365          942,915                 (1,843,879)            15,674,026
               Earned Revenues - Intragovernmental                               -            158,055           1,581,441              35,228                  -               335,879                   -          15,252           800,498                 (1,818,415)             1,107,938
               Earned Revenues - With the Public                                 -             45,456               2,519                  45                  -               175,158                   -         370,424           104,185                           -               697,787
                  Subtotal Earned Revenues                                       -            203,511           1,583,960              35,273                  -               511,037                   -         385,676           904,683                 (1,818,415)             1,805,725
                  Subtotal Net Cost of Operations               $                -   $      2,238,408   $       1,590,886   $      2,695,195    $              -   $           503,355    $              -   $    6,827,689    $         38,232   $             (25,464) $          13,868,301


         Total Net Cost of Operations                           $        1,663,899   $      7,356,633   $       1,627,766   $      3,692,149    $      2,312,177   $          7,953,014   $    1,182,398     $    6,834,302    $         38,232   $             (25,464) $          32,635,106




- 95 -
                                                                                                       U. S. Department of Justice

                                                                                            Consolidating Statement of Changes in Net Position

                                                                                              For the Fiscal Year Ended September 30, 2012


         Dollars in Thousands                         AFF/SADF           OBDs                 USMS               OJP                 DEA                 FBI               ATF                BOP                FPI           Eliminations           Consolidated

         Unexpended Appropriations
           Beginning Balances
              Earmarked Funds                     $              -   $       21,727     $              -     $            -      $            -      $            -    $            -     $            -     $         -   $                  -   $           21,727
              All Other Funds                                    -        3,472,362              257,093          4,605,970             503,763           2,194,512           174,210            744,671               -                      -           11,952,581

           Budgetary Financing Sources
              Appropriations Received
                 Earmarked Funds                                 -           72,044                     -                 -                   -                   -                 -                  -               -                      -               72,044
                 All Other Funds                                 -        6,848,091             1,189,000         1,638,300           2,035,000           8,117,973         1,152,000          6,641,281               -                      -           27,621,645
              Appropriations Transferred-In/Out
                 All Other Funds                                 -          (28,074)             416,211               (8,470)             27,254           (60,821)          (15,067)              (562)              -                      -              330,471
              Other Adjustments
                 All Other Funds                                 -          (40,561)               (2,200)          (55,000)            (10,000)                  -                  -           (45,000)              -                      -             (152,761)
              Appropriations Used
                 Earmarked Funds                                 -           (67,808)                   -                 -                    -                  -                  -                  -              -                      -               (67,808)
                 All Other Funds                                 -        (6,896,031)          (1,600,534)       (2,702,583)          (2,056,651)        (8,100,309)        (1,136,039)        (6,690,974)             -                      -           (29,183,121)
           Total Financing Sources
              Earmarked Funds                                    -            4,236                      -                -                     -                 -                 -                  -               -                      -                 4,236
              All Other Funds                                    -         (116,575)                 2,477       (1,127,753)               (4,397)          (43,157)              894            (95,255)              -                      -            (1,383,766)

           Net Change
              Earmarked Funds                                    -            4,236                      -                -                     -                 -                 -                  -               -                      -                 4,236
              All Other Funds                                    -         (116,575)                 2,477       (1,127,753)               (4,397)          (43,157)              894            (95,255)              -                      -            (1,383,766)

           Ending Balances
              Earmarked Funds                                    -           25,963                    -                  -                   -                   -                 -                  -               -                      -               25,963
              All Other Funds                                    -        3,355,787              259,570          3,478,217             499,366           2,151,355           175,104            649,416               -                      -           10,568,815
           Total All Funds                        $              -   $    3,381,750     $        259,570     $    3,478,217      $      499,366      $    2,151,355    $      175,104     $      649,416     $         -   $                  -   $       10,594,778




- 96 -
                                                                                                                          U. S. Department of Justice

                                                                                                         Consolidating Statement of Changes in Net Position - Continued

                                                                                                                 For the Fiscal Year Ended September 30, 2012


         Dollars in Thousands                                              AFF/SADF             OBDs             USMS               OJP                DEA             FBI                 ATF                BOP                FPI                  Eliminations           Consolidated

         Cumulative Results of Operations
           Beginning Balances
              Earmarked Funds                                          $      1,760,544     $      252,629 $              -     $    7,202,248     $     (232,162) $            -      $              -   $       83,557     $           -        $                  -   $        9,066,816
              All Other Funds                                                         -            (56,544)         165,165             13,156             87,367       2,760,450                30,179        5,092,691           390,025                           -            8,482,489

           Beginning Balances, as Adjusted
              Earmarked Funds                                                 1,760,544            252,629                  -        7,202,248           (232,162)                -                   -             83,557                   -                       -            9,066,816
              All Other Funds                                                          -            (56,544)        165,165               13,156             87,367     2,760,450                30,179        5,092,691           390,025                           -            8,482,489

           Budgetary Financing Sources
              Other Ajustments
                 All Other Funds                                                       -            (40,000)                -                  -                  -               -                   -                  -                   -                       -               (40,000)
              Appropriations Used
                 Earmarked Funds                                                       -            67,808                 -                 -                  -               -                   -                  -                     -                       -               67,808
                 All Other Funds                                                       -         6,896,031         1,600,534         2,702,583          2,056,651       8,100,309           1,136,039          6,690,974                     -                       -           29,183,121
              Nonexchange Revenues
                 Earmarked Funds                                                  3,327                4,085                -        2,795,573                    -               -                   -                  -                   -                       -            2,802,985
                 All Other Funds                                                      -                                     -              975                    -               -                   -                  -                   -                       -                  975
              Donations and Forfeitures of Cash and Cash Equivalents
                 Earmarked Funds                                              4,194,465                    -                -                  -                  -               -                   -                  -                   -                       -            4,194,465
              Transfers-In/Out Without Reimbursement
                 All Other Funds                                                       -           109,395                  -                  -                  -               -                   -                  -                   -                       -              109,395
           Other Financing Sources
              Donations and Forfeitures of Property
                 Earmarked Funds                                                120,245                    -                -                  -                  -               -                   -                 -                    -                       -              120,245
                 All Other Funds                                                      -                    -                -                  -                  -               -                   -                30                    -                       -                   30
              Transfers-In/Out Without Reimbursement
                 Earmarked Funds                                               (149,908)                  -                -                   -                  -              -                    -                -                     -                       -             (149,908)
                 All Other Funds                                                      -             (36,621)              58               2,295             (1,374)         5,333               15,949          151,645                     -                       -              137,285
              Imputed Financing from Costs Absorbed by Others
                 Earmarked Funds                                                    536              1,145                -                    -              9,419            -                      -            4,346                    -                      -                 15,446
                 All Other Funds                                                      -            175,254           51,770                4,474             71,487      276,722                 40,346          233,672               33,561                (24,718)               862,568
              Other Financing Sources
                 All Other Funds                                                       -                   -                -                  -                  -          (5,199)                  -                  -                   -                       -                (5,199)




- 97 -
           Total Financing Sources
              Earmarked Funds                                                 4,168,665             73,038                 -         2,795,573              9,419               -                   -              4,346                    -                      -              7,051,041
              All Other Funds                                                         -          7,104,059         1,652,362         2,710,327          2,126,764       8,377,165           1,192,334          7,076,321               33,561                (24,718)            30,248,175

           Net Cost of Operations
              Earmarked Funds                                                 (4,308,822)           (69,949)               -          (724,712)            (63,144)             -                    -             (1,691)                   -                     -              (5,168,318)
              All Other Funds                                                          -        (10,110,939)      (1,648,072)       (2,712,099)         (2,149,365)    (8,070,134)          (1,203,726)        (7,094,823)             (61,812)               24,718             (33,026,252)

           Net Change
              Earmarked Funds                                                  (140,157)              3,089                 -        2,070,861            (53,725)             -                    -              2,655                     -                       -             1,882,723
              All Other Funds                                                         -          (3,006,880)            4,290           (1,772)           (22,601)       307,031              (11,392)           (18,502)              (28,251)                      -            (2,778,077)

           Ending Balances
              Earmarked Funds                                                 1,620,387             255,718               -          9,273,109           (285,887)              -                     -           86,212                 -                           -           10,949,539
              All Other Funds                                                         -          (3,063,424)        169,455             11,384             64,766       3,067,481                18,787        5,074,189           361,774                           -            5,704,412
           Total All Funds                                             $      1,620,387     $    (2,807,706) $      169,455     $    9,284,493     $     (221,121) $    3,067,481      $         18,787   $    5,160,401     $     361,774        $                  -   $       16,653,951
                                                                                                   U. S. Department of Justice

                                                                                        Consolidating Statement of Changes in Net Position

                                                                                          For the Fiscal Year Ended September 30, 2011

         Dollars in Thousands                         AFF/SADF           OBDs               USMS                OJP               DEA                 FBI               ATF                 BOP                 FPI           Eliminations           Consolidated

         Unexpended Appropriations
           Beginning Balances
              Earmarked Funds                     $              -   $       19,585     $             -     $            -    $            -      $            -    $            -      $            -      $         -   $                  -   $           19,585
              All Other Funds                                    -        3,979,216             328,900          5,571,977           559,167           2,255,206           202,183             894,623                -                      -           13,791,272
           Beginning Balances, as Adjusted
              Earmarked Funds                                    -           19,585                   -                  -                 -                   -                 -                   -                -                      -               19,585
              All Other Funds                                    -        3,979,216             328,900          5,571,977           559,167           2,255,206           202,183             894,623                -                      -           13,791,272

           Budgetary Financing Sources
              Appropriations Received
                 Earmarked Funds                                 -           71,746                   -                  -                 -                   -                 -                   -                -                      -               71,746
                 All Other Funds                                 -        6,901,999           1,142,388          1,893,160         2,019,682           7,941,932         1,114,772           6,394,155                -                      -           27,408,088
              Appropriations Transferred-In/Out
                 All Other Funds                                 -         (187,823)            388,191           200,344               71,029           (61,176)             (7,892)             (1,834)             -                      -              400,839
              Other Adjustments
                 Earmarked Funds                                 -             (326)                   -                 -                   -                 -                   -                 -                -                      -                 (326)
                 All Other Funds                                 -          (23,338)              (2,285)          (45,365)             (4,039)          (15,884)             (2,231)          (12,788)               -                      -             (105,930)
              Appropriations Used
                 Earmarked Funds                                 -           (69,278)                  -                 -                  -                  -                  -                   -               -                      -               (69,278)
                 All Other Funds                                 -        (7,197,692)         (1,600,101)       (3,014,146)        (2,142,076)        (7,925,566)        (1,132,622)         (6,529,485)              -                      -           (29,541,688)
           Total Financing Sources
              Earmarked Funds                                    -            2,142                   -                  -                 -                   -                 -                   -                -                      -                 2,142
              All Other Funds                                    -         (506,854)            (71,807)          (966,007)          (55,404)            (60,694)          (27,973)           (149,952)               -                      -            (1,838,691)

           Net Change
              Earmarked Funds                                    -            2,142                   -                  -                 -                   -                 -                   -                -                      -                 2,142
              All Other Funds                                    -         (506,854)            (71,807)          (966,007)          (55,404)            (60,694)          (27,973)           (149,952)               -                      -            (1,838,691)

           Ending Balances
              Earmarked Funds                                    -           21,727                   -                  -                 -                   -                 -                   -                -                      -               21,727
              All Other Funds                                    -        3,472,362             257,093          4,605,970           503,763           2,194,512           174,210             744,671                -                      -           11,952,581
           Total All Funds                        $              -   $    3,494,089     $       257,093     $    4,605,970    $      503,763      $    2,194,512    $      174,210      $      744,671      $         -   $                  -   $       11,974,308




- 98 -
                                                                                                                        U. S. Department of Justice

                                                                                                       Consolidating Statement of Changes in Net Position - Continued

                                                                                                               For the Fiscal Year Ended September 30, 2011

         Dollars in Thousands                                              AFF/SADF             OBDs             USMS                OJP                DEA             FBI                 ATF                BOP                FPI                  Eliminations           Consolidated

         Cumulative Results of Operation
           Beginning Balances
              Earmarked Funds                                          $      1,687,400     $      171,475 $               -     $    5,866,596     $     (159,279) $            -      $              -   $       69,853     $           -        $                  -   $        7,636,045
              All Other Funds                                                         -           (142,839)          137,022             12,217             80,998       2,413,112                29,258        5,147,049           391,834                           -            8,068,651

           Beginning Balances, as Adjusted
              Earmarked Funds                                                 1,687,400            171,475                 -          5,866,596           (159,279)              -                     -           69,853                 -                           -            7,636,045
              All Other Funds                                                         -           (142,839)          137,022             12,217             80,998       2,413,112                29,258        5,147,049           391,834                           -            8,068,651

           Budgetary Financing Sources
              Other Ajustments
                 All Other Funds                                                       -           (26,000)                 -                   -                  -               -                   -                 -                    -                       -               (26,000)
              Appropriations Used
                 Earmarked Funds                                                       -            69,278                 -                  -                  -               -                   -                  -                     -                       -               69,278
                 All Other Funds                                                       -         7,197,692         1,600,101          3,014,146          2,142,076       7,925,566           1,132,622          6,529,485                     -                       -           29,541,688
              Nonexchange Revenues
                 Earmarked Funds                                                  4,596                1,070                -         1,998,221                    -               -                   -                 -                    -                       -            2,003,887
                 All Other Funds                                                      -                    -                -               508                    -               -                   -                 -                    -                       -                  508
              Donations and Forfeitures of Cash and Cash Equivalents
                 Earmarked Funds                                              1,580,584                    -                -                   -                  -               -                   -                 -                    -                       -            1,580,584
              Transfers-In/Out Without Reimbursement
                 All Other Funds                                                       -           113,735                  -                   -                  -               -                   -                 -                    -                       -              113,735
              Other Budgetary Financing Sources

           Other Financing Sources
              Donations and Forfeitures of Property
                 Earmarked Funds                                                157,381                    -                -                   -                  -               -                   -                -                     -                       -              157,381
                 All Other Funds                                                      -                    -                -                   -                  -               -                   -              226                     -                       -                  226
              Transfers-In/Out Without Reimbursement
                 Earmarked Funds                                                  (6,120)                -                 -                    -                  -               -                   -               (72)                  -                        -               (6,192)
                 All Other Funds                                                       -           (53,304)              162               10,600             14,358          74,270               3,153             1,485                  24                        -               50,748
              Imputed Financing from Costs Absorbed by Others
                 Earmarked Funds                                                    602              1,365                 -                    -              9,396            -                      -            4,706                    -                      -                 16,069
                 All Other Funds                                                      -            220,246            55,646                5,265             79,833      305,129                 47,544          257,818               36,399                (25,464)               982,416
              Other Financing Sources
                 All Other Funds                                                       -                   -                -                   -                  -          (4,613)                  -                 -                    -                       -                (4,613)




- 99 -
           Total Financing Sources
              Earmarked Funds                                                 1,737,043             71,713                 -          1,998,221              9,396               -                   -              4,634                    -                      -              3,821,007
              All Other Funds                                                         -          7,452,369         1,655,909          3,030,519          2,236,267       8,300,352           1,183,319          6,789,014               36,423                (25,464)            30,658,708

           Net Cost of Operations
              Earmarked Funds                                                 (1,663,899)             9,441                 -          (662,569)            (82,279)             -                    -              9,070                    -                     -              (2,390,236)
              All Other Funds                                                          -         (7,366,074)       (1,627,766)       (3,029,580)         (2,229,898)    (7,953,014)          (1,182,398)        (6,843,372)             (38,232)               25,464             (30,244,870)

           Net Change
              Earmarked Funds                                                    73,144             81,154                 -          1,335,652            (72,883)             -                     -            13,704                     -                       -            1,430,771
              All Other Funds                                                         -             86,295            28,143                939              6,369        347,338                   921           (54,358)               (1,809)                      -              413,838

           Ending Balances
              Earmarked Funds                                                 1,760,544            252,629                 -          7,202,248           (232,162)              -                     -           83,557                 -                           -            9,066,816
              All Other Funds                                                         -            (56,544)          165,165             13,156             87,367       2,760,450                30,179        5,092,691           390,025                           -            8,482,489
           Total All Funds                                             $      1,760,544     $      196,085 $         165,165     $    7,215,404     $     (144,795) $    2,760,450      $         30,179   $    5,176,248     $     390,025        $                  -   $       17,549,305
                                                                                                                             U. S. Department of Justice

                                                                                                                    Combining Statement of Budgetary Resources

                                                                                                                    For the Fiscal Year Ended September 30, 2012


          Dollars in Thousands                                                                 AFF/SADF             OBDs               USMS              OJP               DEA               FBI                 ATF               BOP              FPI            Combined


          Budgetary Resources

             Unobligated Balance, Net, Brought Forward, October 1                          $       1,088,719    $      814,323             90,397    $     187,462     $     158,292     $         947,534   $      60,967     $     379,813    $    154,816   $        3,882,323

             Recoveries of Prior Year Unpaid Obligations                                              84,186            224,583             54,620           53,296           114,289            290,427             32,746            23,388              -              877,535
             Other Changes in Unobligated Balance                                                          -             67,691             (7,632)          (2,409)               21            (53,259)           (14,933)           (1,862)             -              (12,383)
             Unobligated Balance from Prior Year Budget Authority, Net                             1,172,905          1,106,597            137,385          238,349           272,602          1,184,702             78,780           401,339        154,816            4,747,475
             Appropriations (discretionary and mandatory)                                          4,100,446          7,142,929          1,610,644        2,286,418         2,346,455          8,110,411          1,151,866         6,597,581              -           33,346,750
             Spending Authority from Offsetting Collections (discretionary and mandatory              17,027          2,162,444          1,538,614          196,233           525,323          1,395,880             94,820           561,856        701,286            7,193,483
             Total Budgetary Resources                                                     $       5,290,378    $    10,411,970    $     3,286,643 $      2,721,000 $       3,144,380    $    10,690,993 $        1,325,466 $       7,560,776 $      856,102   $       45,287,708

          Status of Budgetary Resources:
             Obligations Incurred (Note 21)                                                $       4,528,369    $     9,284,881    $     3,184,684   $    2,543,035    $    2,976,982    $     9,591,524     $    1,279,257    $    7,164,861   $    697,683   $       41,251,276
             Unobligated Balance, End of Period:
                 Apportioned                                                                         639,541            861,850             61,752          152,618           127,526            624,435            29,929            232,512              -            2,730,163
                 Exempt from Apportionment                                                                 -                  -                  -                -                 -                  -                               59,772        158,419              218,191
                 Unapportioned                                                                       122,468            265,239             40,207           25,347            39,872            475,034             16,280           103,631              -            1,088,078
             Total Unobligated Balance - End of Period                                               762,009          1,127,089            101,959          177,965           167,398          1,099,469             46,209           395,915        158,419            4,036,432
          Total Status of Budgetary Resources:                                             $       5,290,378    $    10,411,970    $     3,286,643   $    2,721,000    $    3,144,380    $    10,690,993     $    1,325,466    $    7,560,776   $    856,102   $       45,287,708

          Change in Obligated Balance:
             Obligated Balance, Net - Brought Forward, October 1
                 Unpaid Obligations, Gross                                                 $       1,092,300    $     4,564,149    $      648,610    $    5,025,867    $     712,030     $     3,165,268     $     245,431     $    1,051,944   $    171,054   $       16,676,653
                 Less: Uncollected Customer Payments from Federal Sources                              4,889            816,547           188,832            25,236          157,357             492,704            59,852             10,882         34,360            1,790,659
                     Total Obligated Balance, Net - Brought Forward, October 1                     1,087,411          3,747,602           459,778         5,000,631          554,673           2,672,564           185,579          1,041,062        136,694           14,885,994
             Obligations Incurred                                                                  4,528,369          9,284,881          3,184,684        2,543,035         2,976,982          9,591,524          1,279,257         7,164,861        697,683           41,251,276
             Less: Outlays, Gross                                                                  2,687,103          9,445,119          3,240,907        3,237,410         2,852,539          9,394,120          1,233,314         7,324,472        705,033           40,120,017
             Change in Uncollected Customer Payments from Federal Sources                             (4,000)           (24,183)            28,761           (2,347)          (28,576)           (75,764)            (7,219)              844         12,782              (99,702)
             Less: Recoveries of Prior Year Unpaid Obligations                                        84,186            224,583             54,620           53,296           114,289            290,427             32,746            23,388              -              877,535

             Obligated Balance, Net - End of Period
                 Unpaid Obligations, Gross                                                         2,849,380          4,179,328           537,767         4,278,196          722,184           3,072,245           258,628           868,945         163,704           16,930,377
                 Less: Uncollected Customer Payments from Federal Sources                              8,889            840,730           160,071            27,583          185,933             568,468            67,071            10,038          21,578            1,890,361




- 100 -
          Total Obligated Balance, Net - End of Period                                     $       2,840,491    $     3,338,598    $      377,696         4,250,613    $     536,251     $     2,503,777     $     191,557     $     858,907    $    142,126   $       15,040,016
                                                                                                                                U. S. Department of Justice

                                                                                                                       Combining Statement of Budgetary Resources

                                                                                                                       For the Fiscal Year Ended September 30, 2011


          Dollars in Thousands                                                             AFF/SADF            OBDs              USMS              OJP              DEA              FBI               ATF                  BOP              FPI            Combined


          Budgetary Resources

            Unobligated Balance, Net, Brought Forward, October 1                      $       1,010,179    $      929,953    $      133,375    $     232,500    $     223,391    $     946,877     $         110,131    $     377,906    $     74,986   $        4,039,298

            Recoveries of Prior Year Unpaid Obligations                                           83,669           206,483           64,819           54,156          102,053           216,564               21,159            4,539               -              753,442
            Other Changes in Unobligated Balance                                                       -            93,421          (21,395)          (2,311)          33,854           (58,985)              (7,780)          (1,834)              -               34,970
            Unobligated Balance from Prior Year Budget Authority, Net                          1,093,848         1,229,857          176,799          284,345          359,298         1,104,456              123,510          380,611          74,986            4,827,710
            Appropriations (discretionary and mandatory)                                      1,602,768          7,030,338         1,549,689        2,750,112        2,295,492        7,923,857          1,112,429           6,381,367              -           30,646,052
            Spending Authority from Offsetting Collections (discretionary and mandator           12,309          2,108,819         1,596,290           33,249          505,291        1,321,494             85,420             388,448        904,683            6,956,003
            Total Budgetary Resources                                                  $      2,708,925    $    10,369,014   $     3,322,778   $    3,067,706   $    3,160,081   $   10,349,807    $     1,321,359      $    7,150,426   $    979,669   $       42,429,765

          Status of Budgetary Resources:
            Obligations Incurred (Note 21)                                            $       1,620,206    $     9,554,691   $     3,232,381   $    2,880,244   $    3,001,789   $    9,402,273    $     1,260,392      $    6,770,613   $    824,853   $       38,547,442
            Unobligated Balance, End of Period:
               Apportioned                                                                      635,227            554,020            57,730          169,067          118,503          594,313             38,931             258,217              -            2,426,008
               Exempt from Apportionment                                                              -                  -                 -                -                -                -                  -              56,381        154,816              211,197
               Unapportioned                                                                    453,492            260,303            32,667           18,395           39,789          353,221             22,036              65,215              -            1,245,118
            Total Unobligated Balance - End of Period                                         1,088,719            814,323            90,397          187,462          158,292          947,534             60,967             379,813        154,816            3,882,323
          Total Status of Budgetary Resources:                                        $       2,708,925    $    10,369,014   $     3,322,778   $    3,067,706   $    3,160,081   $   10,349,807    $     1,321,359      $    7,150,426   $    979,669   $       42,429,765

          Change in Obligated Balance:
            Obligated Balance, Net - Brought Forward, October 1
               Unpaid Obligations, Gross                                              $          982,679 $       4,874,461 $         708,551 $      5,510,847   $      777,043   $    3,221,811 $          226,043      $    1,185,212 $      272,682 $         17,759,329
               Less: Uncollected Customer Payments from Federal Sources                            4,245           794,774           165,214           25,666          181,976          479,261             70,398               6,345         25,219            1,753,098
                  Total Obligated Balance, Net - Brought Forward, October 1                      978,434         4,079,687           543,337        5,485,181          595,067        2,742,550            155,645           1,178,867        247,463           16,006,231
            Obligations Incurred                                                               1,620,206         9,554,691         3,232,381        2,880,244        3,001,789        9,402,273          1,260,392           6,770,613        824,853           38,547,442
            Less: Outlays, Gross                                                               1,426,916         9,658,520         3,227,503        3,311,068        2,964,749        9,242,252          1,219,844           6,899,342        926,480           38,876,674
            Change in Uncollected Customer Payments from Federal Sources                            (644)          (21,773)          (23,618)             430           24,619          (13,443)            10,545              (4,537)        (9,141)             (37,562)
            Less: Recoveries of Prior Year Unpaid Obligations                                     83,669           206,483            64,819           54,156          102,053          216,564             21,159               4,539              -              753,442




- 101 -
            Obligated Balance, Net - End of Period
                Unpaid Obligations, Gross                                                      1,092,300         4,564,149          648,610         5,025,867         712,030         3,165,268              245,431         1,051,944        171,054           16,676,653
                Less: Uncollected Customer Payments from Federal Sources                           4,889           816,547          188,832            25,236         157,357           492,704               59,852            10,882         34,360            1,790,659
          Total Obligated Balance, Net - End of Period                                $        1,087,411   $     3,747,602   $      459,778    $    5,000,631   $     554,673    $    2,672,564    $         185,579    $    1,041,062   $    136,694   $       14,885,994
                                                                                                                   U. S. Department of Justice

                                                                                                           Combining Statement of Custodial Activity

                                                                                                          For the Fiscal Year Ended September 30, 2012


          Dollars in Thousands                                               AFF/SADF           OBDs                USMS           OJP           DEA                 FBI                  ATF                BOP           FPI           Combined


          Revenue Activity

          Sources of Cash Collections
             Delinquent Federal Civil Debts as Required by the Federal
                Debt Recovery Act of 1986                                $              -   $     6,995,798     $          -   $         -   $              -    $              -     $              -   $         -   $         -   $       6,995,798
             Fees and Licenses                                                          -                  -               -             -             15,000                   -               21,710             -             -              36,710
             Fines, Penalties and Restitution Payments - Civil                          -                  -               -             -             12,595                   -                   18             -             -              12,613
             Fines, Penalties and Restitution Payments - Criminal                       -            39,750                -             -                  -                   -                   74             -             -              39,824
             Miscellaneous                                                              -                43                -             -                  -              10,736                2,873             -             -              13,652

                Total Cash Collections                                   $              -   $     7,035,591     $          -   $         -   $         27,595    $         10,736     $         24,675   $         -   $         -   $       7,098,597

          Accrual Adjustments                                                           -                  -               -             -             (1,418)                   -                 13              -             -              (1,405)

          Total Custodial Revenue                                        $              -   $     7,035,591     $          -   $         -   $         26,177    $         10,736     $         24,688   $         -   $         -   $       7,097,192

          Disposition of Collections
             Transferred to Federal Agencies
                 U.S. Department of Agriculture                                         -          (105,670)               -             -                -                      -                -                -             -            (105,670)
                 U.S. Department of Commerce                                            -             (3,746)              -             -                -                       -               -                -             -               (3,746)
                 U.S. Department of the Interior                                        -          (129,015)               -             -                -                       -               -                -             -            (129,015)
                 U.S. Department of Justice                                             -           (21,085)               -             -                -                       -               -                -             -              (21,085)
                 U.S. Department of Labor                                               -             (9,175)              -             -                -                       -               -                -             -               (9,175)
                 U.S. Postal Service                                                    -             (7,675)              -             -                -                       -                -               -             -               (7,675)
                 U.S. Department of State                                               -            (26,613)              -             -                -                       -                -               -             -              (26,613)
                 U.S. Department of the Treasury                                        -          (917,662)               -             -         (27,595)                       -         (24,328)               -             -            (969,585)
                 Office of Personnel Management                                         -          (157,714)               -             -                -                       -                -               -             -            (157,714)
                 Federal Communications Commission                                      -               (310)              -             -               -                       -                -                -             -                 (310)
                 Social Security Administration                                         -               (921)              -             -               -                       -                -                -             -                 (921)
                 Smithsonian Institution                                                -                 (8)              -             -               -                       -                -                -             -                   (8)
                 U.S. Department of Veterans Affairs                                    -          (125,354)               -             -               -                       -                -                -             -            (125,354)




- 102 -
                 General Services Administration                                        -          (130,087)               -             -               -                       -                -                -             -            (130,087)
                 Securities and Exchange Commission                                     -               (411)              -             -               -                       -                -                -             -                 (411)
                 Federal Deposit Insurance Corporation                                  -                (59)              -             -               -                       -                -                -             -                  (59)
                 Railroad Retirement Board                                              -               (288)              -             -               -                       -                -                -             -                 (288)
                 Tennessee Valley Authority                                             -                 (8)              -             -               -                       -                -                -             -                   (8)
                 Environmental Protection Agency                                        -          (189,137)               -             -               -                       -                -                -             -            (189,137)
                 U.S. Department of Transportation                                      -           (13,674)               -             -               -                       -                -                -             -             (13,674)
                 U.S. Department of Homeland Security                                   -           (66,585)               -             -               -                       -                -                -             -             (66,585)
                 Agency for International Development                                   -               (511)              -             -               -                       -                -                -             -                 (511)
                 Small Business Administration                                          -             (6,371)              -             -               -                       -                -                -             -               (6,371)
                 U.S. Department of Health and Human Services                           -        (1,283,167)               -             -               -                       -                -                -             -          (1,283,167)
                 National Aeronautics and Space Administration                          -               (725)              -             -               -                       -                -                -             -                 (725)
                 Export-Import Bank of the United States                                -           (17,264)               -             -               -                       -                -                -             -             (17,264)
                 U.S. Department of Housing and Urban Development                       -        (1,129,547)               -             -               -                       -                -                -             -          (1,129,547)
                 National Archives & Records Administration                             -                (29)              -             -               -                       -                -                -             -                  (29)
                 U.S. Department of Energy                                              -             (3,313)              -             -               -                       -                -                -             -               (3,313)
                 U.S. Department of Education                                           -           (14,452)               -             -               -                       -                -                -             -             (14,452)
                 Independent Agencies                                                   -           (63,619)               -             -               -                       -                -                -             -             (63,619)
                 Treasury General Fund                                                  -          (642,790)               -             -               -                 (10,736)               -                -             -            (653,526)
                 U.S. Department of Defense                                             -          (217,607)               -             -               -                       -                -                -             -            (217,607)
             Transferred to the Public                                                  -          (508,622)               -             -               -                       -                -                -             -            (508,622)
             (Increase)/Decrease in Amounts Yet to be Transferred                       -          (567,495)               -             -           1,418                       -                -                -             -            (566,077)
             Refunds and Other Payments                                                 -          (512,825)               -             -               -                       -             (360)               -             -            (513,185)
             Retained by the Reporting Entity                                           -          (162,057)               -             -                -                      -                -                -             -            (162,057)
          Total Disposition Of Collections                                              -        (7,035,591)               -             -         (26,177)                (10,736)         (24,688)               -             -          (7,097,192)

          Net Custodial Activity                                         $              -   $              -    $          -   $         -   $              -    $               -    $              -   $         -   $         -   $                -
                                                                                                                    U. S. Department of Justice

                                                                                                            Combining Statement of Custodial Activity

                                                                                                           For the Fiscal Year Ended September 30, 2011


          Dollars in Thousands                                               AFF/SADF           OBDs               USMS           OJP           DEA                FBI               ATF                BOP           FPI           Combined



          Revenue Activity

          Sources of Cash Collections
             Delinquent Federal Civil Debts as Required by the Federal
                Debt Recovery Act of 1986                                $              -   $     5,222,083    $          -   $         -   $              -   $           -     $              -   $         -   $         -   $       5,222,083
             Fees and Licenses                                                          -                  -              -             -             15,000               -               17,437             -             -              32,437
             Fines, Penalties and Restitution Payments - Civil                          -                  -              -             -             82,268               -                   20             -             -              82,288
             Fines, Penalties and Restitution Payments - Criminal                       -            38,255               -             -                  -               -                   95             -             -              38,350
             Miscellaneous                                                              -                59               -             -                  -             902                3,892             -             -               4,853

                Total Cash Collections                                   $              -   $     5,260,397    $          -   $         -   $         97,268   $         902     $         21,444   $         -   $         -   $       5,380,011

          Accrual Adjustments                                                           -                  -              -             -              3,617                -                 26              -             -               3,643

          Total Custodial Revenue                                        $              -   $     5,260,397    $          -   $         -   $     100,885      $         902     $         21,470   $         -   $         -   $       5,383,654

          Disposition of Collections
             Transferred to Federal Agencies
                 U.S. Department of Agriculture                                         -           (96,346)              -             -                -                  -                -                -             -             (96,346)
                 U.S. Department of Commerce                                            -            (5,103)              -             -                -                  -                -                -             -               (5,103)
                 U.S. Department of the Interior                                        -           (29,959)              -             -                -                  -                -                -             -             (29,959)
                 U.S. Department of Justice                                             -           (81,181)              -             -                -                  -                -                -             -             (81,181)
                 U.S. Department of Labor                                               -              (736)              -             -                 -                 -                -                -             -                 (736)
                 U.S. Postal Service                                                    -            (4,362)              -             -                 -                 -                -                -             -               (4,362)
                 U.S. Department of State                                               -            (8,535)              -             -                 -                 -                -                -             -               (8,535)
                 U.S. Department of the Treasury                                        -          (130,778)              -             -          (97,268)                 -          (21,138)               -             -            (249,184)
                 Office of Personnel Management                                         -           (58,144)              -             -                 -                 -                 -               -             -              (58,144)
                 Federal Communications Commission                                      -           (14,727)              -             -                -                  -                -                -             -             (14,727)
                 Social Security Administration                                         -            (2,726)              -             -                -                  -                -                -             -               (2,726)
                 Smithsonian Institution                                                -              (190)              -             -                -                  -                -                -             -                 (190)
                 U.S. Department of Veterans Affairs                                    -           (28,703)              -             -                -                  -                -                -             -             (28,703)




- 103 -
                 General Services Administration                                        -           (88,447)              -             -                -                  -                -                -             -             (88,447)
                 Securities and Exchange Commission                                     -                (3)              -             -                -                  -                -                -             -                   (3)
                 Federal Deposit Insurance Corporation                                  -               (71)              -             -                -                  -                -                -             -                  (71)
                 Railroad Retirement Board                                              -              (100)              -             -                -                  -                -                -             -                 (100)
                 Environmental Protection Agency                                        -          (341,267)              -             -                -                  -                -                -             -            (341,267)
                 U.S. Department of Transportation                                      -            (7,236)              -             -                -                  -                -                -             -               (7,236)
                 U.S. Department of Homeland Security                                   -           (66,843)              -             -                -                  -                -                -             -             (66,843)
                 Agency for International Development                                   -           (22,233)              -             -                -                  -                -                -             -             (22,233)
                 Small Business Administration                                          -           (10,447)              -             -                -                  -                -                -             -             (10,447)
                 U.S. Department of Health and Human Services                           -        (2,001,923)              -             -                -                  -                -                -             -          (2,001,923)
                 National Aeronautics and Space Administration                          -            (3,792)              -             -                -                  -                -                -             -               (3,792)
                 Export-Import Bank of the United States                                -           (24,643)              -             -                -                  -                -                -             -             (24,643)
                 U.S. Department of Housing and Urban Development                       -           (11,099)              -             -                -                  -                -                -             -             (11,099)
                 U.S. Department of Energy                                              -            (2,093)              -             -                -                  -                -                -             -               (2,093)
                 U.S. Department of Education                                           -           (55,431)              -             -                -                  -                -                -             -             (55,431)
                 Independent Agencies                                                   -           (67,264)              -             -                -                  -                -                -             -             (67,264)
                 Treasury General Fund                                                  -          (618,814)              -             -                -               (902)               -                -             -            (619,716)
                 U.S. Department of Defense                                             -          (173,894)              -             -                -                  -                -                -             -            (173,894)
             Transferred to the Public                                                  -          (516,597)              -             -                -                  -                -                -             -            (516,597)
             (Increase)/Decrease in Amounts Yet to be Transferred                       -          (304,330)              -             -           (3,617)                 -                -                -             -            (307,947)
             Refunds and Other Payments                                                 -          (364,312)              -             -                -                  -             (332)               -             -            (364,644)
             Retained by the Reporting Entity                                           -          (118,068)              -             -                -                  -                -                -             -            (118,068)
          Total Disposition Of Collections                                              -        (5,260,397)              -             -         (100,885)              (902)         (21,470)               -             -          (5,383,654)

          Net Custodial Activity                                         $              -   $              -   $          -   $         -   $              -   $            -    $              -   $         -   $         -   $                -
This page intentionally left blank.




               - 104 -
Required Supplementary Stewardship Information


                   Unaudited





                 - 105 -
This page intentionally left blank.




               - 106 -
                                U.S. Department of Justice 

                     Required Supplementary Stewardship Information 

                           Consolidated Stewardship Investments

         For the Fiscal Years Ended September 30, 2012, 2011, 2010, 2009 and 2008 


                                            In Thousands
The Bureau of Justice Assistance administers the Correctional Systems and Correctional
Alternatives for Tribal Lands (CSCATL) and the Violent Offender Incarceration and Truth-In-
Sentencing (VOI/TIS) Incentive grant programs. Both programs provide grants for the purposes of
building and expanding correctional facilities and jails to increase secure confinement space for
violent offenders and implementing correctional alternatives to reduce reliance on incarceration.
VOI/TIS funds are available to any of the 50 United States, the District of Columbia, Puerto Rico,
U.S. Virgin Islands, American Samoa, Guam, the Northern Mariana Islands, and recognized Tribal
governments; while CSCATL funds are available to tribes within the 50 states. The Tribal Law and
Order Act of 2010 (Public Law 111-211) expanded the CSCATL grant program scope to include
multi-purpose justice centers. The facilities built or expanded with these funds constitute non-
federal physical property. Upon completion, the Bureau of Indian Affairs of the Department of
Interior, and/or tribal grantees are responsible for supporting, operating, and maintaining the
correctional facilities.

The CSCATL strategy broadly addresses tribal justice systems and lends support to tribes that:

 − Are interested in establishing/enhancing (tribal/non-tribal) multi-agency cooperation and          

 collaborations; 


 − Are committed to conducting community-wide assessment for purpose of developing a
 comprehensive master plan that encompasses the design, use, capacity, and cost of adult and/or
 juvenile justice sanctions and services;

 − Wish to explore an array of detention and correctional building options, including prototypical
 or quasi-prototypical concepts/designs for local correctional facilities, multipurpose justice
 centers, and regional facilities; and

 − Are interested in learning about/applying community-based alternatives to help control and 

 prevent jail overcrowding due to growing problems involving alcohol, substance abuse, and 

 methamphetamine. 


CSCATL and VOI/TIS funds expended from fiscal years 2008 through September 30, 2012, are as
follows:


 Dollars in Thousands             2012             2011           2010        2009            2008
 Cooperative Agreement Program
                                         $0                 $0           $0             $0       $1,140
 Administered by USMS
 Discretionary Grants to Indian
                                    97,553               52,339      24,768          14,320          5,094
 Tribes
 Formula Grants to States                84              -1,139      11,389          41,561      59,011
 Total                             $97,637              $51,200     $36,157      $55,881        $65,245




                                              - 107 -
This page intentionally left blank.




               - 108 -
Other Accompanying Information

         Unaudited




        - 109 -
This page intentionally left blank.




               - 110 -
                        U.S. Department of Justice 

                    Other Accompanying Information

                     Combined Schedule of Spending

              For the Fiscal Year Ended September 30, 2012 




Dollars in Thousands                                        2012


What Money is Available to Spend?

Total Resources                                        $     45,287,708
Less: Amount Available but Not Agreed to be Spent             2,948,354
Less: Amount Not Available to be Spent                        1,088,078
Total Amounts Available to be Spent                    $    41,251,276



How was the Money Spent?
Personnel Compensation and Benefits
          1100      Personnel Compensation              $    10,917,316
          1200      Personnel Benefits                        4,238,615
          1300      Former Personnel                             14,817
          2100      Travel & Transportation of Persons          481,904
          2200      Transportation of Things                    118,861
Other Program Related Expenses
          2300      Rent, Communications, and Utilities       3,145,662
          2400      Printing                                     29,969
          2500      Other Services                           14,034,299
          2600      Supplies and Materials                    1,678,624
          3100      Equipment/IT Software                     1,158,926
          3200      Leasehold Improvements                      380,390
          4100      Grants                                    3,661,089
          4200      Insurance Claims and Indemnities            259,178
          4300      Interest and Dividends                          367
Total Spending                                               40,120,017
Amounts Remaining to be Spent                                 1,131,259
Total Amounts Available to be Spent                     $   41,251,276




                               - 111 -
